<html>
<title> - AMERICAN LAND SOVEREIGNTY PROTECTION ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                AMERICAN LAND SOVEREIGNTY PROTECTION ACT

=======================================================================

                                HEARINGS

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 901

                               __________

    TANNERSVILLE, NEW YORK, MAY 5, AND WASHINGTON, DC, JUNE 10, 1997

                               __________

                           Serial No. 105-26

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 43-911 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearings held in Tannersville, NY and Washington, DC:
    May 5, 1997..................................................     1
    June 10, 1997................................................    35

Statement of Members:
    Cannon, Hon. Christopher, a Representative in Congress from 
      the State of Utah..........................................     4
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     4
    Hinchey, Hon. Maurice, a Representative in Congress from the 
      State of New York..........................................     2
        Prepared statement.......................................     7
    Radanovich, Hon. George, a Representative in Congress from 
      the State of California, prepared statement of.............   228
    Solomon, Hon. Jerry, a Representative in Congress from the 
      State of New York..........................................     5
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     1
        Prepared statement.......................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................    35
        Prepared statement.......................................    36

Statement of Witnesses:
    Araoz, Gustavo F., Executive Director, United States 
      Committee of the International Council of Monuments and 
      Sites, Washington, DC......................................    88
        Prepared statement.......................................   212
    Barber, Patti, Northeastern Regional Director, Pulp and 
      Paperworkers Resource Council..............................    11
    Beaver, Betty Ann, Hot Springs, Arkansas.....................    62
        Prepared statement.......................................   182
    Chandler, William J., Vice President for Conservation Policy, 
      National Parks and Conservation Association, Washington, DC    86
        Prepared statement.......................................   100
        Prepared statement.......................................   203
    Chase, Sherret S., Shokan, New York..........................    24
    Childers, Hon. Charles P., Wyoming State Representative, 
      Cody, Wyoming..............................................    39
        Prepared statement.......................................   128
        Prepared statement.......................................   131
    Cobb, Thomas, President, Association for the Protection of 
      the Adirondacks............................................     9
    Cook, Hon. Charles D., New York State Senator, Fortieth 
      Senatorial District, prepared statement of.................   237
    French, Dale, Supervisor, Town of Crown Point, New York......     8
    Galvin, Denis P., Acting Deputy Director of the National Park 
      Service....................................................    60
        Prepared statement.......................................   168
    Harmon, David, Deputy Executive Director, The George Wright 
      Society, Hancock, Michigan, prepared statement of..........   231
    Howard, David B., Adirondack Blueline Confederation, 
      Gloversville, New York.....................................    90
        Prepared statement.......................................   218
    Jeannette, James, Alaska State Representative, North Pole, 
      Alaska.....................................................    40
        Prepared statement.......................................   136
    Jordan, Jack, Lexington, New York............................    26
    LaGrasse, Carol, President, Property Rights Foundation of 
      America, Inc...............................................    22
    Lamb, Henry, Executive Vice President, Environmental 
      Conservation Organization, Hollow Rock, Tennessee..........    92
        Prepared statement.......................................    99
        Prepared statement.......................................   222
    Lanzetta, Cynthia, Biosphere Study Group, Mid-Ulster League 
      of Women Voters............................................    14
    Lindsey, Steve, Canelo, Arizona..............................    59
        Prepared statement.......................................   157
    O'Donnell, Michael C., on H.R. 901...........................   241
    Pomerance, Rafe, Deputy Assistant Secretary for Oceans and 
      International Environmental and Scientific Affairs, U.S. 
      Department of State, Washington, DC........................    77
        Prepared statement.......................................   194
    Powers, Sheila, Albany County Farm Bureau....................    12
    Rabkin, Jeremy A., Associate Professor, Cornell University, 
      Ithaca, New York...........................................    63
        Prepared statement.......................................   188
    Roth, Ronald, Director, Greene County Planning Department....    26
    Train, Russell E., Chairman Emeritus, World Wildlife Fund, 
      Washington DC, prepared statement of.......................   229
    Vogel, John, Land Commissioner, St. Louis County, Minnesota..    37
        Prepared statement.......................................   124
    Wesson, Donald, Pulp and Paperworkers' Resource Council, 
      McGehee, Arkansas..........................................    83
        Prepared statement of....................................   200

Additional material supplied:
    American Land Sovereignty Protection Act--H.R. 901, Briefing 
      Paper......................................................   109
    Arkansas Constitution of 1874................................   248
    Constitution of the State of Minnesota.......................   250
    Text of H.R. 901.............................................   113



                AMERICAN LAND SOVEREIGNTY PROTECTION ACT

                              ----------                              


                          MONDAY, MAY 5, 1997

                     U.S. House of Representatives,
                                    Committee on Resources,
                                                  Tannersville, NY.
    The Committee met, pursuant to notice, at 1:03 p.m. at 
Hunter-Tannersville High School, Tannersville, New York, Hon. 
Don Young (Chairman of the Committee) presiding.
    The Chairman. The Committee will come to order. I want to 
thank all these kind people who are here today to hear the 
testimony. Under the Committee rules, we will have 5 minutes of 
testimony. It is my discretion to try to keep it within the 5 
minutes. We do have a plane to catch later on this afternoon, 
so we'll try to go with the schedule. We're starting on 
schedule.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
   THE STATE OF ALASKA; AND CHAIRMAN, COMMITTEE ON RESOURCES

    The Chairman. We're here today to hear different witnesses, 
and I welcome those witnesses. Today we will hear testimony on 
the U.S. Man and Biosphere program. Over the last 25 years, an 
increasing expanse of our nation's territory has been 
incorporated into United Nations Biosphere Reserves. Under 
Article IV, Section 3 of the United States Constitution, the 
Constitution of America, the power to make all needful rules 
and regulations governing lands belonging to the United States 
is vested in the U.S. Congress, the Congress of the people.
    Yet United Nations Biosphere Reserve designations have been 
created without the authorization or input of Congress, and 
public or local governments are rarely consulted. I have 
introduced H.R. 901, ``The American Land Sovereignty Protection 
Act,'' which will allow creation of a biosphere reserve only if 
it is specifically authorized by Congress.
    This should guarantee that local and regional concerns are 
considered. H.R. 901 now has almost a hundred and thirty co-
sponsors, including Congressmen Solomon, Paxon and McHugh. I 
understand that the Biosphere Reserve program is controversial 
in upstate New York. Congressman Solomon invited the Committee 
on Resources to come to this district and listen to the 
concerns that local residents in New York have about this 
program.
    This hearing will focus on the following issues: The 
process by which biosphere reserves are created; how this 
program affects the relationship between Federal, state and 
local governments; how creation of a biosphere reserve could 
affect use of surrounding lands and impact property rights; the 
effectiveness of the U.S. Man and Biosphere program. At this 
time, I will yield to the gentleman from New York, who has an 
opening statement.
    [The prepared statement of Hon. Don Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    I am pleased to welcome our witnesses. Today we will hear testimony 
on the U.S. Man and Biosphere Program.
    Over the last 25 years, an increasing expanse of our nation's 
territory has been incorporated into United Nations Biosphere Reserves. 
Under article IV, section 3 of the United States Constitution, the 
power to make all needful rules and regulations governing lands 
belonging to the United States is vested in Congress, yet United 
Nations Biosphere Reserve designations have been created without the 
authorization or input of Congress. The public and local governments 
are rarely consulted.
    I have introduced a bill, H.R. 901, ``The American Land Sovereignty 
Protection Act,'' which will allow creation of a biosphere reserve only 
if it is specifically authorized by Congress. This should guarantee 
that local and regional concerns are considered. H.R. 901 now has 
almost 130 cosponsors including Congressmen Solomon, Paxon and McHugh.
    I understand that the biosphere reserve program is controversial in 
upstate New York. Congressman Solomon invited the Committee on 
Resources to come to his district and listen to the concerns that local 
residents York have about this program.
    This hearing will focus on the following issues:

        (1) the process by which biosphere reserves are created,
        (2) how this program affects the relationship between Federal, 
        state and local governments,
        (3) how creation of a biosphere reserve could affect use of 
        surrounding lands and impact property rights, and
        (4) the effectiveness of the U.S. Man and Biosphere program.

STATEMENT OF HON. MAURICE HINCHEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Hinchey. Yes, Mr. Chairman, I do, and I thank you very 
much. First of all, let me say that it is a distinct honor, and 
I regard it also as a privilege to have the opportunity to 
welcome you here. This is not my district; this district has 
the good fortune to be represented by my friend and neighbor, 
Jerry Solomon; but my district and my home, in fact, is just a 
short distance from here, about 15 miles or so.
    And this is an area with which I am very familiar, having 
grown up here and spent a long part of my life in these 
Catskill Mountains. So, it's a pleasure to have you here, Mr. 
Chairman, and you bring with you the prestige of your office, 
and we're delighted that you have chosen us to have a hearing 
on issues that affect our community. And I am very pleased to 
be able to be here with you.
    As you know, as I've just stated, I'm a resident of the 
Catskill region. My home is just a short distance from here. I 
hope that you'll have the opportunity while you're here to see 
this part of New York, and to recognize that not all of New 
York is paved-over asphalt. Not all of it is traffic 
congestion. What we have here are our own forests and wild 
lands.
    I know that some of my colleagues may honestly think that 
we Easterners don't have any wild lands or forests, but you can 
see for yourself, this is obviously not the case. It is true 
that we have very little Federal land here in New York, and 
that our wilderness areas in New York are protected by state 
law, and by the State Constitution and not by the Federal 
Constitution.
    Much of the land within the Catskill Mountains, however, 
remains under private ownership, and many private landowners 
here have taken the lead in land protection and preservation 
and good forest husbandry practices. That's true in the case of 
the matter at hand today.
    I understand that we're here to discuss the proposal, 
which, by the way, was withdrawn almost 2 years ago, to 
nominate the Catskill region as a UNESCO Biosphere Reserve. The 
proposal originated right here in the Catskills, with local 
residents and landowners. No one from the Federal Government 
was involved. No one in Congress was involved.
    One of the sponsors of the application was Sherret Chase, 
who is, I believe, here with us today as a witness. Mr. Chase 
is a resident of the Catskills. He worked with several non-
profit organizations, including the Catskill Center, and the 
Mohawk Reserve, in developing the application, and I am pleased 
that he will be here and have an opportunity to explain the 
process and the ideas behind the application.
    That application was, however, as I indicated, withdrawn 
almost 2 years ago. And when it was withdrawn, it was done so 
in the words of Janet Crenshaw, the Executive Director of the 
Catskill Center at the time, and she said it was withdrawn 
because of misinformation and misunderstanding, and, quote, 
``mixed reaction.''
    She noted that the Biosphere had served in other areas as a 
vehicle for jobs and money for upgrading water and sewage 
systems, for economic development studies, for agricultural 
systems, and other worthwhile projects. Although the proposal 
originated locally, some opponents were quoted, in fact, at the 
time as saying that it would give, quote, ``outsiders,'' 
unquote, control over the region, and that would impose unnamed 
new land use regulations.
    However, in all of the background material and documents 
submitted on this issue, no one has been able to find any 
indication that Biosphere Reserve designation imposes any kind 
of land use regulation. It clearly does not give the United 
Nations--far from it--any legal authority over an area or any 
land use control authority, as some people seem to fear.
    Most interestingly, one local citizen was quoted in the 
press as saying the Biosphere Reserve program, I quote, ``Is 
something we don't know enough about, and we don't want to know 
about it.'' I hope that that attitude will not prevail here 
today, and that with the current legislation on the Biosphere 
Reserve program and the World Heritage program, it is based on 
facts, not on fear or innuendo or misinformation.
    Specifically, we should ask, does a Biosphere Reserve or 
World Heritage designation have any affect on U.S. law or local 
land use authority? As you know, we already have extensive 
experience in this county with such designations.
    I understand that there are four Biosphere Reserves in the 
district that you represent, Mr. Chairman, all of them 
designated under the administrations of President Reagan and 
President Ford. So, we should ask whether such designations 
have limited United States sovereignty, or caused any tangible 
harm, or whether they have produced benefits, and we have the 
experience of those areas to tell us. In this particular 
instance--I'm almost finished--I have another concern.
    The bill before us today, H.R. 901, would prohibit Federal 
officials from nominating sites for Biosphere Reserves. It 
would also prohibit nominations of sites for Biosphere Reserves 
unless it consisted solely of federally owned lands, and that 
requires Congressional approval. In this particular case, this 
law would mean that even if an overwhelming majority of 
Catskill residents supported such a designation, they could not 
obtain it, because the people in control told them they had no 
right to seek it.
    In short, we have to ask what need there is for such 
legislation, and what real affect it would have. And with that, 
Mr. Chairman, I look forward, as you do, I'm sure, to very the 
informative testimony which will be given. And I'm delighted to 
be in this position and to have an opportunity to listen to my 
learned and respected colleague, Chairman of the House Rules 
Committee, and my neighbor, the Honorable Gerald Solomon.
    [The prepared statement of Hon. Maurice Hinchey may be 
found at end of hearing.]
    The Chairman. The gentlewoman from Idaho.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Ms. Chenoweth. Thank you, Mr. Chairman. In the essence of 
time, I will submit my statement for the record, and I look 
forward to hearing the witnesses and to having a very 
interesting and informative hearing here. It is wonderful to be 
up here in the Catskills. Mr. Solomon, Mr. Hinchey, it's a 
pleasure to join you. Thank you.
    [The prepared statement of Hon. Helen Chenoweth may be 
found at end of hearing.]
    The Chairman. Are you ready, Mr. Cannon?

   STATEMENT OF HON. CHRISTOPHER CANNON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman. I'll just take a 
couple of moments to present the issue as well. I appreciate 
being here with the Committee. I am a co-sponsor of this 
measure. I'm from Utah, and I had the pleasure of being in 
Binghamton a few weeks ago, and met with a woman who was 
interested in Utah and what it's like.
    And finally, she asked to see a picture, one of the staff 
had a picture, and she looked at it and said, ``Where are the 
trees?'' And the staffer said, ``There are no trees.'' She 
said, ``Who cut them down?'' ``God didn't put them there. He 
didn't put enough water to grow trees.'' So, to be here, this 
area is just beautiful, and very, very different from the area 
that I'm from.
    I think we have some beautiful areas out there, and also 
lots of it; and unilaterally, without talking to anyone in 
Utah, including the elected officials in Utah, the Clinton 
Administration nominated 1.7 million acres as a monument, the 
designated area as big as Rhode Island and Delaware combined, 
and without talking to people.
    We're a little sensitive in Utah, of the Federal 
Government, and how it affects our lives without--without 
feedback. And I think that's the kind of thing we're looking 
at, and I'm anxious to see how this process of biosphere 
designation is going on, and how it affects locals, what the 
role of local residents is in effecting process, and what kind 
of constraints you put on the power to make these kinds of 
designations. Thank you.
    The Chairman. Thank you. Now we'll hear from Congressman 
Gerald Solomon. As Chairman, it is indeed a pleasure to have 
you here. I'll recognize you; go ahead, sir.

 STATEMENT OF HON. JERRY SOLOMON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Solomon. Mr. Chairman, I want to thank you and the 
other members of the Resources Committee for giving me the 
opportunity to speak today at this field hearing for H.R. 901, 
the American Land Sovereignty Protection Act, that I am 
privileged to co-sponsor along with you and the other members 
of your Committee. Mr. Chairman, I would first of all just 
acknowledge you.
    You've been a Member of Congress even longer than I have, 
and I've been there for a couple of decades now; and I can't 
think of any Member of Congress who has been more helpful to me 
in helping me represent the people in the Hudson Valley, all 
the way to the Catskills, all the way to the Adirondacks. 
You've been a tremendous help, and we hope you're going to stay 
on for a number of years to make sure that we continue to have 
this kind of representation.
    Second, Helen Chenoweth is a relatively new member; she has 
come to us from the state of Idaho and she is a dynamic member 
of your Committee and Congress, as is Chris Cannon. And 
certainly your interests and those of the people I represent 
are the same. So, we really do appreciate your coming here. 
And, of course, Maurice Hinchey, my good friend and neighbor to 
the south, he represents part of the Catskills, and we 
appreciate all of his input here today as well.
    As the--and incidentally, Mr. Chairman, just for those who 
are here today, I'm Chairman of the Rules Committee, I set the 
floor debate, and we were ready to postpone all the votes today 
so that we could be here. So, we'll try to make up for the 
votes on Tuesday. You and I and the rest of us have to catch a 
plane back this afternoon, so I understand the limitations that 
you have on the hearing today.
    Just two things: Let me just say, as a representative of 
this beautiful Catskill Mountain area, as well as the 
Adirondack Mountains, I have a personal interest in this 
legislation and strongly support its passage, because it 
addresses the concerns many of us have with the U.N. Biosphere 
Reserve and World Heritage Sites programs. Like my good friend, 
Maurice Hinchey, I grew up just across the county line in 
Albany County and have worked many summers, as a young boy, in 
Greene County, and now I live in the Adirondacks.
    I've been hunting and fishing in this area all of my life, 
and we have to do all we can to preserve this area. As many of 
you know, the U.N. Biosphere Reserve program has operated with 
little or no public or congressional oversight. Under 
agreements with the United Nations, the United States promised 
to manage lands under international guidelines, and more often 
than not, local governments and property owners are not even 
consulted.
    And although the U.N. program receives well over $700,000 
in Federal funding every year, there has never been 
authorization or approval given from Congress, nor has the 
issue ever been debated on the floor of Congress. This issue 
has never been debated, and that's why I appreciate the fact 
that you've introduced this legislation and will be bringing it 
to the floor, so that we can have this debate.
    Forty-seven Biosphere Reserves were established before the 
public began to be aware of just what was happening. One of 
these was established in the northern part of the congressional 
district which I have the privilege of representing, without me 
or local government officials ever knowing about it. And there 
are 6 million acres of land involved, and it is private 
property in the Adirondacks. The Champlain-Adirondack Biosphere 
Reserve was created in 1989 at the request of a quasi-
governmental agency, the Adirondack Park Agency, and the 
Governors of New York and Vermont. Without congressional 
hearings or any input from any of the local citizens of the 
Adirondacks, this area was designated as a U.N. Biosphere 
Reserve.
    In many cases in this country, I would submit that with 
congressional oversight as well as public input, many of these 
U.N. sites would not have been designated. In fact, in 1994, as 
my good friend Maurice Hinchey mentioned, the Catskill Region 
was nominated for designation as a U.N. Biosphere Reserve. When 
Federal, state, and local officials and residents expressed 
their opposition, believe me, the nomination was withdrawn.
    This legislation, the American Land Sovereignty Protection 
Act, unequivocally states that no land in this country can be 
included in international land use programs without the clear 
and direct approval of Congress. Most of all, this bill 
protects individual property rights. Executive branch political 
appointees cannot now, and they should not, be making property 
decisions in the place of individual landowners and local 
governments. These Biosphere Reserves are a part of a much 
larger pattern of furthering a left-wing agenda, of 
accomplishing the goals through unelected bureaucrats, liberal 
judges, and international organizations like the United 
Nations. We cannot and will not allow that to happen.
    Let me just sum up, Mr. Chairman, by saying that this bill 
is the first step in the right direction in returning power to 
the elected representatives in Congress, as well as to the 
local citizens and officials. Most importantly, this bill 
reasserts the constitutional rights of property owners to 
control their land without interference from some international 
organization.
    And believe me, Mr. Chairman, the intent of various 
factions within the United Nations is obvious. There are even 
promises--proposals out there to levy a national tax on the 
American taxpayers to pay for these New World ideas, including 
land use prohibitions. Having served 2 years as Ambassador/
Delegate myself to the United Nations under Ronald Reagan, to 
the United Nations, I can tell you we must always be diligent 
and extremely wary of these kinds of proposals.
    The last thing we would want to do is for the U.S. Federal 
Government, at the request of the United Nations, to usurp some 
of the rights of local governments and settle for some kind of 
legal zoning. That is really my concern; that's why I really 
appreciate you coming here today to listen to the witnesses, 
and perhaps on both sides of the issue, but at least so the 
public is made aware of just what the ramifications of these 
reserves are. And I salute you and thank you.
    [The prepared statement of Hon. Jerry Solomon follows:]

Statement of Hon. Jerry Solomon, a Representative in Congress from the 
                           State of New York

    I want to thank my colleagues, Chairman Don Young and the 
other members of the Resources Committee, for giving me the 
opportunity to speak today at this field hearing for H.R 901, 
the American Land Sovereignty Protection Act. As the 
representative of this beautiful mountain area, I have a 
personal interest in this legislation and strongly support its 
passage. H.R 901 clearly addresses the concerns many of us have 
with the U.N. Biosphere Reserve and World Heritage Sites 
programs.
    As many of you know, the U.N. Biosphere Reserve program has 
operated with little or no public or congressional oversight. 
Under agreements with the United Nations, the United States 
promised to manage lands under international guidelines. Many 
times, local government and property owners are not even 
consulted!!
    Although the administration for this U.N. program receives 
well over $700,000 in Federal funding every year, there has 
never been authorization or approval given from Congress, nor 
has the issue ever been debated on the floor of Congress.
    Forty-seven biosphere reserves were established before the 
public began to be aware of what was happening. One of these 
was established in the northern part of the congressional 
district I represent without me or local government officials 
ever knowing about it.
    The Champlain-Adirondack Biosphere Reserve was created in 
1989 at the request of a quasi-governmental agency, the 
Adirondack Park Agency, and the Governors of New York and 
Vermont. Without congressional hearings or real input from any 
of the local citizens of the Adirondacks, this area was 
designated as a U.N. Biosphere Reserve.
    In many cases in this country, I would submit that with 
congressional oversight as well as public input many of these 
U.N. sites would not have been designated.
    In fact in 1994, the Catskill region was nominated for 
designation as a U.N. Biosphere Reserve. When local officials 
and residents expressed their opposition, the nomination was 
defeated.
    This legislation, the American Land Sovereignty Act, 
unequivocally states that no land in this country can be 
included in international land use programs without the clear 
and direct approval of Congress.
    Most of all, H.R 901 protects individual property rights. 
Executive branch political appointees cannot and should not be 
making property decisions in the place of individual 
landowners.
    These biosphere reserves are a part of a much larger 
pattern of furthering the left wing agenda of accomplishing 
goals through unelected bureaucrats, liberal judges and 
international organizations like the United Nations. We can not 
allow that to happen!!
    H.R 901 is a first step in the right direction, returning 
power to the elected representatives in Congress as well as to 
the local citizens and officials. Most importantly, this bill 
reasserts the constitutional rights of property owners to 
control their land without interference from some international 
organization.

    The Chairman. Thank you. I do thank you, Mr. Solomon, and 
I'm going to ask you, I'd like to have you join us as a 
Committee member. Thank you. On the first panel is Mr. Dale 
French, Mr. Tom Cobb, Ms. Patti Barber, Ms. Sheila Powers and 
Ms. Cindy Lanzetta. You may take your seats respectively, 
please.
    Mr. Hinchey. Mr. Chairman, may I ask, for the record, it 
might be interesting for those who are not as familiar with the 
process to hear from counsel, perhaps at this moment, how did 
the current circumstances of these Biosphere Reserves come 
about? What is the process by which they came about?
    The Chairman. We're not going to take the witnesses' time 
to get into that question. This is not the time to do that.
    Mr. Hinchey. It seems as though ``in the dark'' might be a 
description of what the current process is.
    The Chairman. This bill was created, and it is our 
responsibility to go back to the Congress where we will either 
say yes or no. Now is not the time; we're here to hear from the 
people who do not believe it should be done, or do believe it 
should be done; that's what we're here for. Mr. French, you're 
up.

STATEMENT OF DALE FRENCH, SUPERVISOR, TOWN OF CROWN POINT, NEW 
                              YORK

    Mr. French. Thank you, and good afternoon, ladies and 
gentlemen. My name is Dale French and I'm the Supervisor of the 
town of Crown Point, Essex County, and I'm here on behalf of 
the Board of Supervisors of Essex County, and we unanimously 
support this bill, and thank you for being here.
    Essex County is, geographically, approximately in the 
center of the Champlain-Adirondack Biosphere Reserve, created 
in 1989. It is 10 million acres in size, the fourth largest in 
the world, the largest in North America, and the heaviest 
populated in the entire world. The process of nominating our 
region as a Biosphere Reserve started in 1984 by the famous ad-
hoc U.S. and Canadian panel.
    This ad hoc Committee defined the area to make the 
Champlain-Adirondack Biosphere Reserve, creating this 
biosphere, in the process during this 5-year period, no local 
officials were notified, nor has local official or business 
people or any property owner ever been notified that this 
process was going on; absolutely none.
    The Chairman. Can you lean closer to the microphone, 
please?
    Mr. French. In March 1989, the nomination was submitted to 
UNESCO and the region was designated as a Biosphere Reserve. 
Most of us didn't find out until a year later that we were a 
Biosphere Reserve. We didn't know what it meant; but at that 
time, there were regulatory pressures added to the Adirondacks 
by the state government. Down-staters called it a plan, we 
called it pressure.
    We then started researching what this meant, to be a 
Biosphere Reserve. At the same time, in 1990, was the Lake 
Champlain Special Designation Act. It was at about that time, 
$25 million, was earmarked to reduce pollution in Lake 
Champlain. Then the Adirondacks Reserve was 10 million acres, 7 
million in private property and about 3 million in Vermont and 
about 7 million in New York State. And there's no Federal 
lands.
    As we researched these other initiatives, the Northern 
Forest Lands Council also came into being in 1990. They said 
their council was made to look at the large-scale conversion of 
forestland to development. There were processes in both of 
these initiatives; there were regulatory structures, regulators 
comprised the program. That's how the process goes. They like 
to be in place before they designate. Now, the same thing is 
going to happen.
    I've got a bill that Congress plans; I've included this in 
my written testimony. It was a House bill, H.R. 2379. And this 
bill passed in 1983 buy a large majority in the House, with the 
International Biosphere program given jurisdiction over 
Biosphere Reserves in this country.
    In 1983, the Biosphere Reserves were primarily public 
property, Federal lands. In 1984, the Biosphere Reserve program 
took off in earnest, including private lands, extensively, 
considerably higher in our region: Seven million acres in 
private land, no Federal lands to speak of. I'll read one 
excerpt from this bill in 1983. ``It is the sense of the 
Congress that with respect to any international park located 
within the United States and any adjacent nation which has been 
recognized and designated a Biosphere Reserve under the 
auspices of the international conservation community, the 
responsible park management officials of the United States and 
such nation, in conjunction with appropriate legislative and 
parliamentary officials, establish means and methods of 
ensuring that the integrity of such Biosphere Reserve is 
maintained.''
    These things can happen. This is at issue. This came from 
our own Congress. If that had been enacted, gone through the 
Senate, our private lands would, at this time, today, under the 
National Park Service, would have been under the United 
Nations. I may be wrong on this. Maybe it's just a sign of lack 
of communication, and I'm wrong. But we all want to be involved 
in this; we all want to be a part of the process.
    If this program goes forward, it's a sad time in our 
country when we need a bill like this. We also believe that we 
don't have the dollars and resources that this program can tie 
up across this nation, and the private property rights that 
could be subjected at this time to international scrutiny, and 
international involvement that is not wanted or needed. Thank 
you.
    The Chairman. Thank you. Mr. Cobb; Thomas Cobb.

   STATEMENT OF THOMAS COBB, PRESIDENT, ASSOCIATION FOR THE 
                 PROTECTION OF THE ADIRONDACKS

    Mr. Cobb. Mr. Chairman and members of the Committee, thank 
you for your invitation to appear before you today for the 
purpose of presenting the views of the Association for the 
Protection of the Adirondacks on H.R. 901, the American Land 
Sovereignty Protection Act.
    My name is Tom Cobb, and I am President of the Association 
for the Protection of the Adirondacks. I'm a founder and also 
former chairman of the Adirondack Research Center Library, 
which is now a part of our organization. Our staff, board 
members, advisers and volunteers devote their time to public 
outreach, education and research on the natural and cultural 
heritage of the Adirondack and Catskill Parks, and including 
some 3 million acres of state-owned Forest Preserve lands 
protected under the Forever Wild covenant, Article XIV, Section 
One, of the State Constitution. The constitu-

tional protection given to the New York State Forest Preserve 
is the strongest such law in the United States.
    The primary focus of my remarks today is to provide citizen 
support for the U.S. Man and Biosphere program, and 
particularly to address the merits of the Champlain-Adirondack 
Biosphere Reserve established in 1989 as the 45th designated 
site in the United States, and the largest Biosphere Reserve in 
North America.
    This 6,000-square-mile area encompasses the entire 
Adirondack Park and the Lake Champlain watershed. The 
Adirondack Forest Preserve and four wilderness areas within the 
Green Mountain National Forest in Vermont provide the core 
areas of the Biosphere Reserve and serve as natural benchmarks 
for monitoring the ecological health of the Reserve as well as 
human impacts on the environment.
    The significance of such global environmental problems as 
acid deposition, loss of wetlands and biodiversity, ozone 
depletion, climate change, and degradation of lake and river 
systems can be monitored through the network of this and some 
three hundred Biosphere Reserves worldwide. The Man and 
Biosphere program is one of the few programs directed at 
promoting both the economic and environmental well-being of a 
region.
    The Lake Champlain Management Conference, a cooperative 
agreement signed in 1988 by Quebec, Vermont and New York, is a 
successful offshoot of the larger Biosphere Reserve, and 
provides policy justification for Congressional enactment of 
the Lake Champlain Special Designation Act in 1990. Over a 5-
year period, this law authorized the expenditure of $25 million 
in the Champlain Basin for demonstration projects and a variety 
of educational and training programs.
    Now, with regard to citizen involvement, the question posed 
is what good can come from public forums that offer 
opportunities for expression of diverse perspectives from 
people interested in dialog and in partnerships within a 
designated Biosphere Reserve? The Champlain-Adirondack 
Biosphere Reserve has proven to be a good vehicle to find out. 
In 1995 and 1996, the Association launched a series of four 
forums, ``Adirondack Northern Forest: A Common Stewardship,'' 
to seek answers to this question.
    We received financial support in the amount of $5,000, 
provided by the U.S. MAB Directorate, with an additional 
$10,000 matching sum received from the New York Caucus of the 
Northern Forest Alliance, Camp Fire Conservation Fund, and 
Niagara Mohawk Power Corporation Foundation. The forums 
resulted in 23 constructive actions, variously associated with 
enhancing citizenship and governance, eco-tourism, forest and 
farm-based economies, and landscape ecology.
    So, where do we stand?
    Where the Association for the Protection of the Adirondacks 
stands on the Champlain-Adirondack Biosphere Reserve was 
publicly shared with our members, friends and colleagues in 
conservation during the 1992 Centennial Year of the Adirondack 
Park. The Trustees of the Association adopted the position 
that, and I quote: ``This 10 million acre international 
Biosphere Reserve in Vermont and New York can play an extremely 
important, nonpartisan, nonregulatory role in increasing levels 
of trust, fair and open participa-

tion and coordinated action among all levels of government and 
the private sector that leads to improved economic and 
environmental quality in the region. The organization of the 
Champlain-Adirondack Biosphere Reserve should be carefully 
fostered and enthusiastically supported.''
    And our position has not changed since 1992.
    It is our view that the provisions of H.R. 901 would impose 
unnecessary restrictions on both governmental and 
nongovernmental organizations to participate together as 
partners in conservation.
    The legislation would needlessly impair the ability of the 
Champlain-Adirondack and other U.S. Biosphere Reserves to 
effectively function and provide the array of educational, 
scientific and economic benefits made possible by the Man and 
Biosphere program.
    The Association therefore strongly opposes H.R. 901.
    The Biosphere Reserve title is an honorary designation: 
There is no treaty, no United Nations control, no extra layers 
of management, and poses no threat to the sovereignty of 
American lands.
    The designation is simply a symbol of international and 
national voluntary cooperation for the study, conservation and 
responsible use of our natural resources in sustaining society. 
Indeed, the Association sees the Champlain-Adirondack Biosphere 
Reserve presenting new opportunities, and helping focus 
national and international attention on the region in a manner 
similar to the 1980 Winter Olympics, where the Adirondack 
setting and events of the Olympics were seen by some 600 
million people throughout the world. Past generations of New 
Yorkers have been faithful trustees.
    The Chairman. How much more time are you going to need?
    Mr. Cobb. I'm almost finished. Past generations of New 
Yorkers have been faithful trustees. They have repeatedly 
rejected propositions to demean the Adirondack Park, and have 
consistently supported measures to enhance it. And that 
concludes my prepared statement. Mr. Chairman, I very much 
appreciate the invitation to appear before you today.
    The Chairman. Thank you, Mr. Cobb. Ms. Patti Barber.

STATEMENT OF PATTI BARBER, NORTHEASTERN REGIONAL DIRECTOR, PULP 
               AND PAPERWORKERS RESOURCE COUNCIL

    Ms. Barber. Thank you very much for inviting me here today. 
My name is Patti Barber; I'm from Ticonderoga, New York. I am 
here today representing the Pulp and Paperworkers' Resource 
Council, Northeast region.
    I have worked in the pulp and paper industry for the past 
20 years at International Paper Company. I have also been 
active in the United Paperworkers International Union for the 
past 20 years, the last 4 years as recording secretary for 
Local Number Five.
    The Pulp and Paperworkers' Resource Council is a grassroots 
organization representing more than 300,000 workers of the 
nation's pulp, paper, solid wood products and other natural 
resource-based industries. We are dedicated to preserving the 
environment while taking into account the economic stability of 
the work force and the surrounding community.
    The bill, H.R. 901, American Land Sovereignty Protection 
Act, is desperately needed for the survival of the pulp and 
paper industry and our jobs. This bill is needed to restore 
Congress's role in governing Federal lands, to protect our 
private property rights. Our country must be governed by our 
elected officials according to the Constitution of the United 
States, and not by the rule of the United Nations. The United 
States is not a third-world country that needs the United 
Nations' help to preserve our country's resources.
    As American people, we are one of the most educated and the 
United States is one of the wealthiest countries in the world. 
I find it hard to believe that we need the United Nations to 
decide when and where our land areas are transferred to World 
Heritage Sites and Biosphere Reserves. Just think about the 
long-range scenario. If we set aside the Biosphere Reserves and 
all of the World Heritage sites in the United States, plus all 
the buffer zones within a ten- to 20 mile radius, where would 
that put the American working people? Where would the working 
people live, their families live and survive? Do we set up a 
reservation? Is it fair--is it far-fetched, unreasonable?
    I have been reading all I can get my hands on about the 
Biosphere Reserves for the past few weeks. Reading about 
Yellowstone National Park being a World Heritage site upset me, 
but what I have been reading about in our own area, the 
Adirondacks, has made me very angry. The Adirondacks have been 
cited as a part of the United Nations Biosphere Reserve, and 
the fact that very few people in our area are aware of this 
happening is totally out of control.
    We, the people of the United States of America, cannot let 
this happen to our land. The United Nations World Heritage 
Sites and Biosphere Reserves must be stopped now. It is 
important that these treaties be approved by Congress. The Pulp 
and Paperworkers' Resource Council and United Paperworkers 
International Union are in support of H.R. 901. If anything is 
to be accomplished today, please let it be the approval of this 
bill, H.R. 901.
    Let's keep our environment, natural resources and people in 
the labor and industry working. Thank you for your time.
    The Chairman. I know we are all eager to do that, 
[applause] and we do appreciate that, and I do compliment you; 
but each time you do that, you take up that much more time from 
those who are here to testify, and I am going to adjourn this 
hearing at 3 o'clock. So please hold your applause down to the 
end. I understand your enthusiasm, believe me, I do, but 
unfortunately we have to catch an airplane to get back to 
Washington, and when you do that you take away from the time we 
have to hear you.
    Ms. Sheila Powers.

     STATEMENT OF SHEILA POWERS, ALBANY COUNTY FARM BUREAU

    Ms. Powers. Good morning, ladies and gentlemen and 
Honorable Members of Congress. My name is Sheila Powers; I am 
president of Albany County Farm Bureau, I reside at 250 Larry 
Hill Road, Schoharie, New York, where I have lived for about 23 
years.
    I'm here today with the belief that we are all responsible 
for our government, and I believe that those who govern rely on 
the governed for feedback and input, as well as accountability. 
I'm sixty-five years old and I'm a retired farmer. I am 
grateful for the opportunity to testify today, not only to 
thank you for the bill and its contents, which we strongly 
support, but to urge the rest of the Committee to please 
support it and vote for it, in the interest of protecting our 
national strength and beliefs.
    I must tell you that the farmers that I represent have 
expressed grave disapproval and dismay at the lack of respect 
shown by the President in signing the Biosphere Diversity 
Treaty [Convention on Bilogical Diversity]. We congratulate 
Congressman Young and his staff, along with all of the co-
sponsors, for moving along this bill and remaining steadfast 
about its protections, regardless of the posturing of 
environmentalist and globalist behavior.
    It is indeed reassuring for a step which reaffirms the 
traditions upon which America was founded. Our American Farm 
Bureau Federation grassroots policy about global treaties can 
be found in our 1997 manual on page 116, number 128, lines 1 
through 22, and I have included that in your copy. I might add 
that our ancestors of Albany, Montgomery and Schoharie County 
farmers, were Palatines who left middle Europe to escape the 
tyranny of the feudal system.
    Their lives were entirely controlled by the Palatinate, 
unable to own their own property, to pass on to their children 
the results of their own labors. They couldn't control their 
own lives. So, when Queen Anne offered them the opportunity to 
travel across the sea to the New World, they gathered up what 
moneys they could and they fled to the New World. They sailed 
up the Hudson, they crossed over mountains into the 
hinterlands, on foot I might add, and settled in Berne, 
Schoharie and Middleburgh, where private property was protected 
from intrusion by the government and others.
    Our information downloaded from the Man and Biosphere 
program suggests that local communities would benefit and that 
local and global common interests would be preserved; we are of 
the belief that the training promised has not only successfully 
already been handed down from father to son, but it has been 
the choice of the farmers to invest their time, money and 
efforts into producing a food supply which feeds much of the 
world.
    The scientists, they say, will produce new ways of farming, 
on property we would no longer own. We are told this ownership 
of land should be removed and replaced by public ownership for 
the global common good. We in the Farm Bureau do not think so. 
What we do believe is that the American farmers have done a 
remarkable job of feeding large portions of the world's 
population, carefully stewarding their land, which must last 
forever, and all of them do this with their free will and their 
desire to achieve excellent results.
    Sections two, three, four and five of H.R. 901 will protect 
our American sovereignty from diminishment. It will ensure that 
U.S. citizens do not suffer the loss of individual rights. It 
will protect private interests and real property from 
diminishment, and will provide a process which the U.S. may, 
when desirable, designate lands for inclusion under certain 
international agreements after due process has been observed 
and laws enacted by individuals who were elected to perform 
that task.
    As spokesman for the Albany County Farm Bureau, the 
Columbia, Delaware, Fulton, Greene, Montgomery, Schenectady, 
Schuyler and Washington County presidents have personally 
assured me that they support this position about H.R. 901. This 
testimony is not just the opinion of a private citizen, but the 
representative voice of 2,832 family farm bureau members and 
represents at least nine counties in New York State.
    We think the U.N. was right to withhold comment on whether 
or not the biodiversity treaty should be ratified, when they 
said that this was a sovereign decision for the American 
people; it certainly is. Honorable Representatives, Members of 
Congress, the people urge you to pass this legislation for the 
good of our nation, while we, on our part, will do everything 
in our power to urge your fellow Members of Congress to co-
sponsor this legislation, and to pass it when it is presented 
for a vote.
    If this bill were not to pass, if the president, UNESCO, 
Secretary Babbitt and all the rest were to have their own way 
with the biosphere regions within the U.S., the way of life in 
this country would reverse itself and go right back to the 
feudalism which our ancestors left behind. Not only would there 
be no property rights, but also we would not be a strong 
sovereign nation, able to protect its citizens.
    It is time to stand up, accepting authority and 
responsibility, and refuse to allow the properties in this 
nation to be governed by those outside the U.S. The founding 
fathers, who worked very hard at great sacrifice to tailor a 
constitution which would fairly stand the sands of time, would 
be saddened that we have forgotten their words only a few 
hundred years later, and that we are ready to accept tyranny 
again through strong outside interests.
    Thank you for the opportunity to include our opinions 
regarding this legislation, and God bless you.
    The Chairman. Thank you. I apologize for the feedback on 
the mike. Ms. Cynthia Lanzetta.

   STATEMENT OF CYNTHIA LANZETTA, BIOSPHERE STUDY GROUP, MID-
                 ULSTER LEAGUE OF WOMEN VOTERS

    Ms. Lanzetta. My name is Cynthia Lanzetta. Mr. Chairman and 
Committee Members, it is a privilege to appear before a group 
such as yourselves, to share information to enlighten each 
other for the common welfare of our citizens.
    I am a representative of the Mid-Ulster League of Women 
Voters. Because we are a nonpartisan group, we are often 
approached by individuals, organizations and agencies to 
conduct studies into issues that affect our locality and 
region. In June 1995, Rick Fritschler of the Ulster County 
Environmental Management Council requested the League research 
the Man and the Biosphere Program.
    This was after the Catskill Center for Conservation and 
Development had withdrawn an application to designate the 
Catskill Re-
gion a Biosphere. We agreed to do a study, and in November 1995 
began to meet on a regular basis. In our attempt to educate 
ourselves, we read information available from the Man and the 
Biosphere Program.
    We collected and read newspaper and magazine articles as 
well as literature from groups who oppose United Nations 
involvement in American affairs. We contacted New York State 
Senator Cook, Congressman Maurice Hinchey, Man and the 
Biosphere Director Mr. Hubert Hinote, Ulster County Planner 
Herbert Heckler and Rick Fritschler, Chairman of the Ulster 
County Environmental Council.
    We reviewed the Biosphere application and asked Janet 
Crenshaw, then director of the Catskill Center, to address our 
League members about the process. Based on this body of 
information, we put together a questionnaire that we sent to 
the nine American Biospheres we identified as somewhat similar 
to our own region. We also developed and sent out a series of 
questions to our Conservation Advisory Councils in Ulster 
County.
    C.A.C.'s are appointed by town officials to oversee matters 
of environmental concern for their communities. We continue to 
gather information, for this is an ongoing study, but we would 
like to share these findings with you. The Man and the 
Biosphere Program, as administered in the United States, offers 
an honorary designation for regions that already meet their 
criteria of protected space, unique biodiversity, and a 
population interested in finding practical strategies to deal 
with the complex and interrelated environmental, land use and 
socioeconomic concerns of that region.
    There are no regulatory mechanisms associated with this 
designation, and the existing Biospheres are overseen by 
supporting Federal agencies or state and private institutions, 
the same as managed them before the designation. The most cited 
benefits include improved research, educational and interagency 
networking, which often led to increased funding, and the 
ability to work more efficiently. The drawback seems to be the 
affiliation with the United Nations and the negative response 
that that engenders in a small population--in a small portion 
of the population.
    We have furnished several attachments, and we urge the 
public to pick up copies of the statement that I made that are 
on the press table, after the hearing. I hope they will be of 
use; and I would like to thank you for your interest in this 
matter.
    [The prepared statement of Ms. Lanzetta may be found at end 
of hearing.]
    The Chairman. All right. Thank you. At this time, we'll 
turn to the delegate from Idaho for questions.
    Ms. Chenoweth. Thank you, Mr. Chairman. Ms. Lanzetta, you 
were involved in this program, then, from the beginning; right?
    Ms. Lanzetta. Yes.
    Ms. Chenoweth. You know UNESCO stands for United Nations 
Educational Scientific and Cultural Organization. I don't know 
whether you are aware of that or not. But were you aware that 
UNESCO in the mid-'80's was accused of gross financial 
mismanagement?
    Ms. Lanzetta. Well, I wasn't, no.
    Ms. Chenoweth. Would that have made any difference to you? 
I think you should have been informed, and if you had been, 
would that have made any difference to your personal 
involvement and the involvement of the League of Women Voters?
    Ms. Lanzetta. I don't think that would have any bearing on 
this particular study.
    Ms. Chenoweth. In your involvement from the beginning, did 
you involve the pulp and paperworkers and the farm bureau? 
Because the League of Women Voters has such a long history for 
public participation, do you remember working with those other 
interest groups?
    Ms. Lanzetta. Well, as I outlined the process that we used 
for the study, as far as we have an ongoing study, we reviewed 
the information and read over the material that is outlined. 
And at this point it's an ongoing study, and we're also making 
a lot of notes here at this hearing, and there will be other 
people that we'll be contacting to learn more about their 
views.
    Ms. Chenoweth. Thank you. Mr. French, as a town supervisor, 
were you ever contacted or asked to comment on the Champlain-
Adirondack Biosphere Reserve before it was officially 
designated?
    Mr. French. I wasn't supervisor then, but I found out from 
the people that were there at the time that there was no 
elected officials contacted at all. None at all.
    Ms. Chenoweth. No elected officials were contacted. Mr. 
Cobb, could you explain that, for the record, why interest 
groups such as the pulp and paperworkers and the farm bureau 
and the elected officials were not contacted?
    Mr. Cobb. To the best of my knowledge, the designation of 
that Champlain-Adirondack Biosphere Reserve was the result of 
years of involvement by citizens of Vermont, as well as New 
York State. The application process, as I understand it, has a 
strong requirement for local involvement by local government 
officials and state agencies, including our Department of 
Environmental Conservation, Adirondack Park Agency and those in 
Vermont, including its atural Resource Agency. These had a 
primary role in this designation process. So, obviously there's 
an inconsistency here. To the best of my knowledge, that 
groundwork was done.
    Ms. Chenoweth. Mr. Cobb, in your position and in the work 
that you have done, particularly in this area, are you aware of 
the operational guidelines for the implementation of the World 
Heritage Convention, and how that impacted this? Are you aware 
of those guidelines?
    Mr. Cobb. Not really. I'm aware of--I'm generally aware of 
the World Heritage Treaty, which was ratified by the U.S. 
Senate. But in this context, primarily on the Biosphere Reserve 
Program, the World Heritage designation is associated with many 
of our national parks. I am also aware of the World Heritage 
designation of the Statue of Liberty in New York City, and 
Constitution Hall in Philadelphia, I am sure, that we all can 
be proud of.
    Ms. Chenoweth. Sir, I just need a yes or no. Actually, the 
operational guidelines state that in all cases, it has to 
maintain the objectivity of the evaluation process and to avoid 
possible embarrassment to those concerned.
    The state--pardon me, that's the United States of the 
America, should refrain from giving undue publicity, and in 
fact recommends restriction pending the decision. Now, knowing 
that, would you have continued to work, as you did, and 
invested so much, excluding such groups as the pulp and 
paperworkers and farm bureau? Because this is exactly----
    Mr. Cobb. Yes. Our position favors citizen involvement, 
particularly in this forum. Again, I'm aware that this hearing 
primarily deals with Biosphere Reserve designation. So, I'm not 
that well prepared to talk about World Heritage.
    Ms. Chenoweth. Well, I think you're very closely involved. 
Thank you, Mr. Chairman.
    The Chairman. From New York.
    Mr. Hinchey. I think it's important to note that I think it 
was back in 1983, the then Reagan administration, because of 
concern over the way in which UNESCO was handling its finances, 
and there has been a continual concern among a variety of 
Administrations, including this one, with certain aspects of 
the financial arrangements within the U.N. It is a concern of 
Congress, about the way the U.N. finances are being handled.
    As a result of that, frankly, there's a new head of the 
United Nations. But back in 1983, there was this concern by the 
Reagan administration, specifically with regard to UNESCO. But, 
at that time, there was a conscious decision made by the Reagan 
administration to continue to participate in the Biosphere 
Reserve program.
    And, in fact, the Reagan administration made several 
nominations to the Biosphere Reserve program during the 8-year 
tenure of that administration. I stipulate that, just for the 
record, to make it clear that there is no connection whatsoever 
between the expressed concerns that some members of the 
administration had over U.N. finances and the Biosphere Reserve 
itself.
    The Biosphere Reserve has had nominations from every 
president since Nixon, including Nixon, Reagan and Bush, and 
the present administration. Most of the nominations have come 
from local governments. The concern is with regard to land 
regulations that may be imposed by the Biosphere Reserve. And 
let me ask our panel if they have come across any tangible 
evidence of land regulations on the part of the Biosphere 
Reserve, or in the many Biosphere Reserves that exist in this 
country, are there within those Biosphere Reserves any land use 
regulations currently in existence? Mr. French, let's start 
with you.
    Mr. French. As I said in my testimony, we're getting, right 
along with the state of Maine, 3.1 million acres on the 
Canadian border, by their own state legislature was ear-marked 
for local governance. It's private land. Between that Biosphere 
Reserve and our Biosphere Reserve, is a Biosphere Reserve in 
Quebec.
    Mr. Hinchey. Who marked that land for----
    Mr. French. The Maine state legislature.
    Mr. Hinchey. The Maine state legislature?
    Mr. French. Exactly.
    Mr. Hinchey. But that has nothing to do with the Biosphere 
Reserve.
    Mr. French. It soon will.
    Mr. Hinchey. It soon will?
    Mr. French. It soon will. That's the plan.
    Mr. Hinchey. I see.
    Mr. Cobb. Really, lands designated by the Biosphere Reserve 
designation, are particularly for scientific research and 
educational purposes. The point that's made, I think, in terms 
of this region in New York State is the fact that we have a 
body of law already in place for environmental protection. With 
private lands and the State-owned land, the Adirondacks are 
guided by a State land master plan and a private land use and 
development plan.
    So as far as that goes, it's just the state laws, local 
planning and involvment of the local government review board, 
just as I pointed out in my earlier testimony. There is no 
outside regulation by the United Nations whatsoever.
    Mr. Hinchey. And you found no indication whatsoever, under 
the Biosphere Reserve?
    Mr. Cobb. That's correct.
    Ms. Barber. I think right now, I'm not really sure. I'd 
want to research this.
    Mr. Hinchey. Thank you.
    Ms. Powers. We don't believe that you'll see hard evidence 
of land use regulation until the designation, as a matter of 
fact, is done. And however, we think that if the treaty were 
ratified and the designation was complete, that then you would 
be able to see that. And that's based on language directly out 
of the Biosphere Reserve Treaty, which the President, after 
all, has signed.
    That, most certainly, is very, very clear, not only about 
its proposed goals of reduction of the population, of not using 
fertilizers, agriculture as it stands now is dangerous for 
nature. It needs to be put in the mode of--more ecologically 
sound. Fertilizers are a good thing, we know. We all know that, 
or anyone knows that if you took fertilizers out of the process 
of growing food, you would reduce the productivity of the 
production of food by at least 50 percent. Now, given the other 
suggestions, of reduction of population, Mr. Hinchey.
    It sounds possibly it could lead to only half that amount 
of food produced. Is there a regulation that says something 
like that now? No. You mean, do we think they will follow? Yes. 
Do we want the matter done with due process? Absolutely. That's 
why we want this bill.
    The Chairman. Thank you. The gentlemen of the next panel 
haven't spoken yet. Make it good and short. Ms. Lanzetta, do 
you want to add anything?
    Ms. Lanzetta. Well, we haven't found that there have been 
any additional regulations that aren't already in place for a 
designated Biosphere Reserve.
    The Chairman. The gentleman's time has expired. You can 
come around the next time.
    Mr. Cannon. Let me take the microphone from my colleague 
from New York. I don't think that the concern here of people on 
this subject and those in the room is that there have been 
abuses of the regulatory scheme.
    In fact, that a regulatory scheme has been put in place, 
which at some point could be abused. Mr. Cobb, you talked about 
four fo-

rums or hearings that were held on the Champlain-Adirondack 
Biosphere. Were those before or after the designation?
    Mr. Cobb. Those were subsequent, subsequent to the 
designation.
    Mr. Cannon. As you say subsequent to the biosphere, I'm 
reminded of the Secretary of Interior, Bruce Babbit, who had a 
very hard time making distinctions between before and after. In 
Utah, we had 1.7 million acres designated as a national 
monument. On September 8, 1996, there was a story in the 
Washington Post that suggested the possibility of a monument in 
Utah, between September 8th and September 18th--I'm sorry, 
September 7th and September 18th, 11 days, there were 13 
denials to our Senators and the Utah Governor by people like 
Mr. Babbitt himself, that anything was going to happen.
    And lo and behold, on the 18th, September 18th, the 
President appeared across the border south of us at the Grand 
Canyon, and with no Republicans present, with maybe a handful 
of Democratic delegates, home delegates in the Western states 
having been told, designated 1.7 million acres.
    And Mr. Babbitt, in his testimony, he talked about trust, 
he talked about fair and open communication, he talked about 
the process that's now ongoing with the feds in Utah, to study 
these findings in the next 3 years. And during that period of 
time, there would be fair and open communication on all levels 
of government involved, we're partners in this process, you'll 
be happy to know that Utah is a partner in the process of this 
monument, and it's all going to be based on scientific and 
economic evidence that's going to be accumulated, as to how 
this monument should be run.
    Let me say to the district, I'm on the soap box here, but I 
have a little problem with the way these Biosphere Reserves are 
designated. I think it has a lot to do with the philosophy of 
the people who are in power, who have the authority to act 
unilaterally, as the President does, which allows the President 
to designate an unlimited amount of territory as a monument.
    We believe, I think, Americans, in an open and fair 
process, where we consider things in advance. In eleven days, 
there was no consideration of what was going to happen to the 
farmers and ranchers in that area, who depended upon that land 
for their livelihood. And in addition, many of my environmental 
friends are now deeply concerned, because there are about--at 
least 350,000 acres that probably should have been designated 
as wilderness area in the sense that they should be kept free 
of vehicles and people, because they're delicate ecosystems.
    Now we find that the environmental extreme groups want 
about 1.4 million acres. Now you're going to have hundreds of 
thousands of people trampling that whole area, because it's 
been advertised in every travelogue in America. And there's 
just something wrong on both sides, when you don't have a 
process. Just one more question: If a community votes against 
being included in the Biosphere Reserve, would your group 
support that solution?
    Mr. Cobb. Again, we're a citizens' group. Basically, we 
establish our own initiatives, our own rules and regulations 
and by-laws established by our trustees and our members. And so 
we decide by vote in our organization, on the merits of the 
program, including weighing of all the pros and cons of those 
designations accordingly.
    As far as your proposal for a national monument in Utah, 
this procedure is by initiative of the President, and we're not 
involved in that procedure. We're talking about in this case a 
very exhaustive process of local, state involvement, citizen 
involvement that works all the way up to the Department of 
Interior.
    The Chairman. The gentleman from New York, Mr. Solomon.
    Mr. Solomon. Mr. Chairman, my good friend Maurice Hinchey 
posed a question to the panel. I think the question was, have 
there been any new regulations that have been imposed because 
of the U.N. Biosphere. And the panelists did not know of 
specific regulations that have been imposed, but I can tell you 
that, because of the pressure from the representatives and 
supporters of the U.N. Biosphere, that great pressure was 
brought on the Adirondack Park Agency, which is regional 
zoning, state zoning imposed on the people of the Adirondack 
Mountains, which resulted in what I believe, and what the 
elected representatives of Warren, Washington and Saratoga and 
Essex County believe, to be excessively restrictive regulations 
on the paper industry, for one, on the tourism industry for 
another, and on the general public, as a rule.
    Mr. French, you said you did not know of any officials who 
were contacted, but I happen to have represented the 
Adirondacks since 1978, and I can tell you, to my knowledge, 
that none, and I will say this to Mr. Cobb as well, none of the 
elected representatives that I know of--and I served as a 
member of the town government, town supervisor, as a county 
legislator, and as state representative--in the last 30 years, 
none of them have been contacted in any way, to my knowledge.
    Mr. Cobb, you made mention of a number of grants and 
dollars that were spent, and you, I think, insinuated that was 
because of the U.N. Biosphere. You mentioned $25 million that 
was brought about, and I would just tell you none of that money 
came from the United Nations. As a matter of fact, we're not 
getting any money from the United Nations, and we don't expect 
any, nor do we want any.
    And Mrs. Lanzetta, I would just like to say to you, you 
mentioned that this was just honorary, and that you had 
contacted many people, you know, with your survey. And 
certainly I believe that you did. But as I look around the 
audience here and I look at people from Hunter Mountain Ski 
Area, I look at various representatives, various business 
people, and a lot of concerned taxpayers, and I don't know of 
any of them here today that you contacted, maybe there are 
some, but I would just say as far as we're concerned, it is not 
an honorary issue today, it's a mandatory issue tomorrow. And I 
mentioned that I served at the U.N. under President Reagan for 
2 years back in the early 1980's. And at that time, myself and 
a Democrat, Congressman Michel, who served with me at the time, 
we were just appalled at what we saw and what we heard about 
what the proposals were with the United Nations. And it is 
frightening. I'm just talking about the new world order and 
what they would like to saddle the people throughout the world 
with.
    And we just have to remember, I think, at all times, that 
this--you know, this is not a Federal Government. You know, we 
are a republic of states; look at your Constitution. And when 
we formed this republic, we reserved certain rights. We 
reserved the right to set speed limits; we reserved the right 
to deal with the insurance issues; we reserved many rights. And 
one of those was zoning. And there is nothing in the 
constitution that allows the Federal Government or some 
international organization to use their influence to place 
regional zoning on top of local zoning. That should be left up 
to the local representatives of the people, like town 
supervisors, like some of the folks that I see here in this 
room. And that's what we're concerned about. And that's why 
this bill is so badly needed, because it simply gives 
congressional approval before you do this, and that gives us 
the input later on down the road if we want to change that. And 
that's what really local home-rule government is all about. 
Thank you.
    The Chairman. I have one short statement to make and one 
question. Mr. Cobb, this concept of expansion, this process is 
not a long process; I have four biosphere reserves in my state 
that there is absolutely no public awareness, no input, no 
direction, no one knew anything, including myself, and I am in 
the U.S. Congress. I went back to the record, and found out 
that there was a letter submitted telling me that this has been 
done. That was my frustration. I just want you to know that. 
Now, second, Mr. Cobb, and you, Cindy--Ms. Lanzetta--I want to 
know what's wrong with my bill? Why can't you support my bill? 
All I'm asking for is an opportunity, that we have some 
process, although President Nixon, Reagan was involved, what's 
wrong with getting the Congress involved, and the House of the 
people? Mr. Cobb; Cindy?
    Ms. Lanzetta. Well, I would have to say, as a 
representative of the League, that we wouldn't make comment on 
it until we've had an opportunity to study it. And being that 
we are asked to comment and comment on the study that we did 
do, which I have done, if you, you know, would like us to go 
through the process of having the League look at this 
legislation and comment on it, we can do that. But I just 
can't, you know, comment from the League perspective.
    The Chairman. That's fine, if you can't do that. I just 
don't know why people say this bill is bad when they say a 
designation is honorary to begin with. Why can't we, as the 
House of the people, have something to say about designation of 
land? I mean, that's the thing. I'm serious. Mr. Cobb, your 
statement said you were opposed to it, but why are you opposed 
to it?
    Mr. Cobb. Again, I stand on my statement as I presented it. 
And so, I'd just repeat what I've already stated for the 
record. I would bring to your attention, though, Mr. Chairman, 
I have with me a publication of the U.S. Man and Biosphere 
program on Guidellines for Idewntification, Evaluation and 
Selection of Biosphere Reserves in the United States. This 
document is 38 pages long.
    The Chairman. But they don't follow recommendations. I 
mean, we have pages and pages of policy, but you have 
responsibility to uphold it, but we can't uphold it, we can't 
do it unless it's signed into law. You see, we have no 
authority over this unless it's a law. This is a treaty signed 
by the President, confirmed by the Members of the Senate. And 
to me, that is neglecting of the constitutional 
responsibilities of this Congress. That's all I'm asking. To 
me, this makes me wonder why anybody would oppose this, 
including some of my environmental--what's wrong with the 
American people talking about our land. That's all I ask.
    Ms. Lanzetta. Mr. Young, I, as an individual, would have a 
question. In the Catskill Region, using the current process, it 
became apparent that the people in this area did not want the 
Biosphere in this area at this time, and because of it, the 
process came to stop. You know, the application was withdrawn. 
Now, why would we, here, want an additional layer of oversight 
to tell us what to do or not to do, when we can determine this 
on our own?
    The Chairman. This is a representative form of government. 
Your representative, if he would come to me and say, this is, 
in fact, is what we want, that would happen. I believe in a 
representative form of government. There are those in Congress 
who do not believe so. They believe in the national interest. 
If you do not believe in representative government, you would 
not elect me again. This is a representative form of 
government. This is what this is all about. I'm saying you, not 
some state department, but the people. That's all I'm asking. 
My time is up. I want to thank the Panel, and we'll have our 
next panel up. Ms. Chenoweth will chair until I get back.
    [Recess.]
    Ms. Chenoweth. [presiding] I just want to state for the 
record that the Convention on Biological Diversity, which is 
the operating mechanism under which the Biosphere Reserves are 
implemented, have never been ratified by the Senate. So with 
that, I would like to turn to Ms. Carol LaGrasse, of the 
Property Rights Foundation of America, Incorporated.

    STATEMENT OF CAROL LAGRASSE, PRESIDENT, PROPERTY RIGHTS 
                  FOUNDATION OF AMERICA, INC.

    Ms. LaGrasse. Representative Chenoweth and the other 
members of the Committee, thank you for the privilege of 
testifying today. I am Carol LaGrasse, the president of the 
Property Rights Foundation of America, a Stony Creek, New York-
based organization dedicated to the defense and enhancement of 
private property rights as guaranteed in the United State 
Constitution.
    I am also a retired Stoney Creek town councilman and a 
retired civil engineer, having spent some years in the 
environmental field. Stony Creek, where I reside, is located in 
the Adirondack Mountains within the UNESCO Champlain-Adirondack 
Biosphere Reserve. It was precisely in the middle of my 9-year 
term of office on the Stony Creek Town Board when the U.N. 
designation took place in 1989. Neither the town board nor 
anyone else I know, either officials or private citizens, had 
heard at the time about the designation.
    People got riled up about the Biosphere Reserve designation 
when it was announced--unwittingly, I believe--in fine print in 
a 1990 set of recommendations to bring about extremely onerous 
regulations over the 3 million acres of private land in the 
Adirondack region. The Commission on the Adirondacks in the 
Twenty-First Century, which was chaired by Peter A.A. Berle, 
then president of the National Audubon Society, and directed by 
George Davis, a New York environmental planner who cut his 
teeth on the original Adirondack Park Agency Law, recommended 
strict additional restrictions in the Adirondacks; just one 
example, 2,000 acre per house zoning. Mr. Davis has gone on to 
be an international planner and he's done planning in Lake 
Baikal in Russia.
    There he remarked--I should say, back in New York, that he 
didn't have the problems there, that people didn't have 
conniptions about zoning, because they weren't used to having 
private property. At the end, the recommendations by the 
Twenty-First Commission were three, the 243rd, 44th and 45th, 
that called for a transition zone. And this was straight out of 
the Champlain-Adirondack Biosphere Reserve plan. Ed Hood, who 
now is the Adirondack co-chair of the Biosphere Reserve 
Committee, at the time said there was no connection, but it was 
written in black and white, in words, that that recommendation 
of the Biosphere Reserve was going to be fulfilled in the plans 
of the Twenty-First Century Commission Report, and the 
recommendation of other really outrageous ideas, such as 
establishing land bridges, which is a Biosphere Reserve 
wildlands term, between the park and Canada and other typical 
Biosphere Reserves type of effects.
    The Adirondack environmentalists would give speeches and 
say that because of the Champlain-Adirondack Biosphere Reserve, 
we needed these new regulations to be passed by the 
legislature. Young people came from out-of-state and staged a 
protest at Crane Pond Road in the Adirondacks. At the time, I 
was writing for the local newspaper, and I asked them why on 
earth were they there from all these out-of-state places, and 
they said because it is a Champlain-Adirondack Biosphere 
Reserve, and is nationally and internationally significant.
    So it brought in those pressures for more regulations, I 
should say, and it also was part of the framework for a very 
formal set of additional regulations. Now, the elements of the 
Biosphere Reserve were specifically applied, then, to the 
Adirondacks, but the tie between the elements as in numerous 
U.N. documents, through the Department of State, was never made 
particularly clear.
    I only have a minute or two left. But the very zones don't 
fit either the state land, which has highways and which, for 
instance, where we would have fire protection, that wouldn't be 
allowed in the Biosphere Reserve core area, or the private 
lands, which have a hundred-odd towns and villages. The type of 
agriculture and the type of use of land that is typically 
allowed on a biosphere reserve is very inappropriate for the 
buffer area in the Adirondacks, where the towns and villages 
are located. They speak of hunter-gatherer occupations, 
pastoral and nomadic peoples; it's totally inconsistent with 
the developed area and the amount of space.
    How could such goals come into place without more rules? 
It's inconsistent. The claim doesn't jibe with either what 
happened; of course, these new rules for the Adirondacks came 
in at the same time and in the same document where the 
Biosphere Reserve was designated, and new rules would be 
required to bring about the depopulation that would result in 
such economic strictures. So, it's an impossibility.
    In addition, the Department of State did a case study of 
the Adirondack-Champlain Biosphere Reserve, and in it they took 
pride in the fact that the Lake Champlain Basin Program is 
bringing in more, as they call it, Federal ``protections'' over 
the watershed of the Adirondacks and Vermont where it feeds 
Lake Champlain. And they took pride in the Northern Forest Land 
Project, because it would give more protections over the area. 
And they said that that Northern Forest Lands Project came 
about because of the Adirondack-Champlain Biosphere Reserve 
designation. So, that is definitely more regulatory pressures 
from a Federal level.
    Ms. Chenoweth. One of the more unpleasant jobs that a 
chairman has to do is make sure that everyone has equal time.
    Ms. LaGrasse. I'm sorry. I have to finish, and I apologize 
that I couldn't be less wordy, but thank you for the privilege 
of testifying.
    Ms. Chenoweth. It's very interesting testimony, and we 
would look forward to you submitting it for the record. Thank 
you very much.
    Next, I'd like to welcome Mr. Chase, from Shokan, New York. 
Mr. Chase.

STATEMENT OF SHERRET S. CHASE, SHOKAN, NEW YORKCAROL LAGRASSE, 
     PRESIDENT, PROPERTY RIGHTS FOUNDATION OF AMERICA, INC.

    Mr. Chase. My full statement is 8 minutes. If I have as 
much time, I would have my whole statement out to you and some 
of these--several of these might be available, that I would 
otherwise cut out. Do I have 8 minutes?
    Ms. Chenoweth. We must hold you to five.
    Mr. Chase. All right.
    Ms. Chenoweth. Thank you.
    Mr. Chase. I'm starting now. Chairman Young of Alaska and 
Committee members, welcome to the Catskill region of New York 
state. Thank you for providing this forum for presentation of 
the merits of Biosphere Reserve designation of the Catskill 
Region, and thank you for the inflow of U.S. taxpayer dollars 
this hearing brings to our depressed economy. My name is 
Sherret Spaulding Chase. My home is here in the Catskills.
    I support biosphere reserve designation of the Catskill 
Region. We of the Catskills are fortunate in having highly 
competent resident representation in Congress; namely, Senator 
Daniel Patrick Moynihan, Representative Maurice Hinchey, and 
Sherwood Boehlert. Your staff is misinformed. There are no 
significant Federal holdings in the Catskills. The stated 
objectives of your bill, the American Land Sovereignty 
Protection Act, are to preserve the sovereignty of the United 
States over lands owned by the United States, and to preserve 
state sovereignty and private property rights in adjacent non-
Federal lands.
    Again, your staff is misinformed. There are no significant 
Federal holdings in the Catskills. We have no Federal grazing 
lands, no Federal timber lands, no Federal mining lands, no 
national parks. Further, we are a home-rule region. We do not 
look kindly on Federal takings or interference. For local 
matters, we prefer to work through our own private and public 
organizations. In working with several organizations for 
Biosphere Reserve designation for the Catskill Region, I, 
myself, had three major thoughts in mind:
    First, I am a botanist. Designation would facilitate 
obtaining funds for scientific studies of the Catskills; 
second, designation would help encourage a more successful, 
financially sound tourism industry. Biosphere Reserve 
designation would provide a superb advertising tool; and third, 
it would personally please me to have the world recognize that 
the Catskill Region is, indeed, a special place of man and 
nature. Biosphere Reserve designation is merely honorary, a 
little like being named man of the year by the Rotary Club.
    Being named man or woman of the year is often helpful. It 
is an endorsement. Being named a world biosphere area is also 
an endorsement. It would be helpful for those of us who live 
and work in the Catskills. The Nobel Prize Committee does not 
ask permission of Congress to award a Nobel Prize to a U.S. 
citizen, thank God; nor should Congress muck around with 
biosphere reserve designations. Catskill people, no matter what 
our origins, tend to be suspicious, one of another, and 
skeptical of the motives even of our own elected officials. 
Each valley and town here has its own special history and 
loyalties.
    Catskill people are suspicious of outsiders, even those 
from just across the river to our east and to our north, from 
Albany and the Adirondacks. We have reason. We are particularly 
skeptical of the motives of powerful and power-hungry outsiders 
who come here with their own agendas. First, way back, there 
were the grantees, Dutch and then English, with their vast non-
resident ownerships of land with resultant harsh tenancy 
farming. This led eventually to the rent wars.
    More recently, before Pearl Harbor, there were hate groups 
of paramilitary structure exercising themselves here in the 
Catskills, nasty bush bullies. Some of the leaders of these 
groups received their funding and encouragement from local 
fascists, others from European fascists, including the Nazi 
government itself. After the war, during the depth of the cold 
war, power-seeking individuals from the west, with their 
agendas, such as Senator McCarthy and Robert Welch, the 
organizer of the John Birch Society, again pandered--with some 
initial success--to local ethnic hatreds and to the paranoias 
of the gullible.
    Two years ago in Kingston, a public biosphere reserve 
hearing sponsored by the kindly Republican Ulster County 
Legislator, Vincent Dunn of Kerhonkson, was most effectively 
disrupted by a large, thuggish group from the Adirondacks who 
claimed connections with the Utah militias. I am ashamed that 
two of our most powerful local elected officials, State Senator 
Charles Cook and Ulster County Majority Leader Philip Sinagra, 
did not bring their wisdom and political skills to the 
discussion of the merits of biosphere reserve designation of 
the Catskill Region.
    Ms. Chenoweth. Mr. Chase, we're going to have to ask you to 
submit the balance of your testimony for the record.
    Mr. Chase. I will do that. If anyone else would like a 
copy, I have some extra copies available.
    [The prepared statement of Mr. Chase may be found at end of 
hearing.]
    Ms. Chenoweth. Thank you very much. The chair now 
recognizes Mr. Ronald Roth, Greene County Planning Department. 
Mr. Roth.

  STATEMENT OF RONALD ROTH, DIRECTOR, GREENE COUNTY PLANNING 
                           DEPARTMENT

    Mr. Roth. Thank you. My name is Ronald Roth, and I'm the 
Director of the Greene County Planning Department. I am 
testifying before the Committee on Resources today as a 
representative of Mr. Frank Stabile, Jr., Chairman of the 
Greene County Legislature. Mr. Stabile is the highest ranking 
elected official in Greene County. Tannersville is one of the 
19 towns and villages located within Greene County.
    In 1994, Greene County was included, along with six other 
New York State counties, in the Catskill Center for 
Conservation and Development's application to designate a 
seven-county area of the Catskill Region as a Biosphere 
Reserve. Mr. Stabile asked me to let the Committee know that 
the Greene County Legislature opposes the Biosphere Reserve 
designation. Greene County Resolution 136-95, a copy of which 
I've submitted, notes that the applicant, quote, ``Never 
discussed the application for Biosphere Reserve designation 
with the Greene County Legislature,'' unquote.
    Further, the resolution concludes that, quote, ``Such a 
dramatic application for Biosphere Reserve designation should 
not have taken place without input from the elected 
governmental representatives of the citizens of the 
Catskills.'' I've also provided a copy of the Greene County--
the Greene County Planning Board's, quote, ``Resolution 
Opposing Designation of Catskill Region Biosphere Reserve.'' 
This resolution admonishes the applicant for filing the 
Biosphere Reserve application without consulting with key 
Catskill Region stakeholders, and notes that adequate 
information on the implications of Biosphere Reserve 
designation has not been provided to any said--to the key 
Catskill Region stakeholders.
    Finally, I've presented a copy of an article in our local 
newspaper titled, ``Hunter Joins Prattsville, Durham in 
Opposing Biosphere.'' The article relates that three Greene 
County towns, Durham, Hunter and Prattsville, all oppose the 
Biosphere Reserve designation. Greene County's message to the 
Committee is a simple one: Organizations that fail to let the 
local people know what they are up to, and organizations that 
fail to bring the local people into their decisionmaking 
process, can only expect to face the sternest of opposition. I 
did it under the green. Thank you for letting me testify today.
    Ms. Chenoweth. Thank you very much. The Chair will now 
recognize Mr. Jack Jordan. Mr. Jordan.

         STATEMENT OF JACK JORDAN, LEXINGTON, NEW YORK

    Mr. Jordan. Thank you. My wife's and my involvement in the 
property rights movement began in late January 1995, when we 
learned about something called the Heritage Trail that was 
being put together by the Catskill Center.
    First, we found out that no one in the area ever heard of 
this. And second, it was being portrayed as a local grassroots 
effort with local support. The fact was, the Catskill Center 
was trying to revive a House of Representatives Bill, the 
American Heritage Areas Partnership Program. In this, Gerald 
Solomon had written a letter to Congress in big, capital 
letters that said, ``Oppose Another Federal Land Grab; Vote No 
on American Heritage Partnership Program.'' Well, at this 
meeting, the woman from the Catskill Center bringing the 
information about the Heritage thing told everyone there that 
Mr. Solomon was in support of this bill and had introduced the 
bill.
    However, we had received a fax from Mr. Solomon's office, a 
copy of this letter, which at that meeting we held up and 
showed the people that this was, in fact, a lie. Mr. Solomon 
was against it. My wife and I knew that in order to protect our 
rights, we had to get active, but what we didn't expect was the 
attack that would come against us and others with us, trying to 
support our own rights. We learned that the Heritage Trail was 
not the only program the Catskill Center was involved in. 
During the same time, they had put together an application to 
designate this area of the Catskills Biosphere Reserve, without 
so much as even talking to the local governments that this 
designation would affect. We soon became aware of the tactics 
used behind the Biosphere Reserve. They were usually either 
unannounced or after the fact. We tried to put information 
together against the Biosphere Reserve. One of the local papers 
tried to mislead the readers by putting in things trying to 
link us with the Oklahoma City bombing, and things such as 
that. Later on, this same reporter was to admit privately to my 
wife and I that he did this only to sell newspapers.
    Using fictitious writers, the same newspaper would put in 
articles such as, ``Dangerous waves of bad information being 
passed around,'' and calling us right-wing anti-environmental 
extremists, about us and those in our group. We believed that 
the people had the right to know what the Biosphere Reserve was 
about. We contacted a local legislator in the area; he knew 
nothing about it. No one could get a copy of the application, 
and even the Attorney General's Office was unable to get a 
copy. It wasn't until State Senator Cook, a State Assembly 
Majority Leader, became involved that we were able to get 
portions of this application and more information. At an 
unadvertised meeting on the Biosphere Reserve, the first copy 
of the application was being shown, only after it had been 
submitted to the U.N.
    On the very front cover was a list, called the mailing list 
for Biosphere. My wife copied down these names in the front of 
it. We gave it to our local newspaper who published it the next 
day. What we found out was that these names were names of local 
elected officials, some of them never even heard of the 
Biosphere Reserve, nor had given the right for their names to 
be used in support of it. Later, the Catskill Center was to 
state that some of the people in the region had misinterpreted 
the meaning of list, and this has caused problems for some 
individuals on the list.
    However, what it did was for anyone at the U.N. reading 
this, it made it appear that the local politics was in favor of 
the designation. The funny this is, on April 6th, 1995, there 
was a hearing in Kingston, New York, on the Biosphere Reserve. 
While at this meeting, we passed around a copy of a U.N. draft 
document entitled, ``Global Biodiversity Assessment Section 
Ten.'' One passage states in it, during the initial stages of 
the park and reserve establishment, there may be a transitional 
phase where local inhabitants are provided with options for 
relocating outside the area.
    Yet we were being told that this is nothing more than a 
Good Housekeeping Seal of Approval. After this meeting, a 
three-page letter was sent to local newspapers. In it, it 
stated, ``Here in the Catskills, there are hate groups of 
paramilitary structure, bush bullies. Some of the leaders of 
these groups received their funding and encouragement from 
local fascists groups, others from European fascists, including 
the Nazi government itself.''
    However, because of public awareness, Ulster County voted 
it down. After this, and in fact, the Biosphere Reserve and the 
Heritage Trail, this application went on. This rhetoric about 
the Biosphere Reserve goes on even today. On May 1st, 1997, 
another long dead writer came back from the grave to mislead 
people. Daniel Shays, who is an insurrectionist from 1787 wrote 
in our local newspaper that he had dinner with Congressman 
Boehlert the other night. And according to Shays, he's sick and 
tired of so many crazies getting control of agendas such, as 
the upcoming Congressional-U.N. meeting here in Hunter.
    The Catskills is a mighty wonderful place to live. You can 
just ask Nellie Bly, who died in 1922, Ned Buntline, who died 
in 1886, or Daniel Shays, who died in 1825. Apparently it's so 
wonderful that they've come back from the dead to live here. It 
is sad that here in America we have to have a bill like this, 
but we ask you, please, we're very much for it. Thank you.
    The Chairman. I want to thank you. Ms. Chenoweth.
    Ms. Chenoweth. Mr. Chairman, thank you. I'm glad you're 
back. I do want to state, for the record, Mr. Hinchey had 
asked, have there ever been any ramifications with regards to 
the change of any status of any private property as a result of 
Biosphere Reserve designation; is that correct?
    Mr. Hinchey. Not exactly, but that's close enough.
    Ms. Chenoweth. Is it close enough that we need to see it?
    Mr. Hinchey. Well, I'm anxious to see where you're going 
with it.
    Ms. Chenoweth. Do you want to restate--it's still my time. 
Do you want to restate your question in ten words?
    Mr. Hinchey. Well, let me just see where you're going with 
this.
    Ms. Chenoweth. As I understand it, my colleague asked the 
question, if there's been any ramifications on private property 
with regards to Biosphere Reserves.
    Mr. Hinchey. Have there been any restrictions on private 
property; if the Biosphere Reserve has had any impact on the 
ability of local governments to regulate land use control and 
planning.
    Ms. Chenoweth. For the record, I do want to state that in 
my area of the country, Yellowstone National Park is a 
Biosphere Reserve. There was private property located outside 
of Yellowstone National Park called the Crown Butte Mine. A 
Canadian company had that mine. They were in the process of 
developing an environmental impact statement that our 
government required them to do.
    The Department of Interior called the U.N. in and that 
environmental impact statement was interrupted. They were not 
able to complete it, and so, therefore, they were not able to 
go ahead and develop their mine. As a result, this company was 
$65 million in debt in trying to move through this process. 
That was private property. And do you know who promised they'd 
pay for it? President Clinton.
    And do you know how he promised he was going to pay a 
Canadian company $65 million? Yeah, you've got it right. Your 
taxpayers' dollars. And do you know what program it was going 
to come out of? The C.R.P., Conservation Reserve Program, for 
farmers and ranchers to set aside lands for conservation. Now, 
that's a pretty dramatic story. And Mr. Hinchey, that is right 
on point, and that is exactly what we're worried might happen 
here in New York State.
    Mr. Hinchey. If you are contending that that is an answer 
to my question, and if you are contending that the Biosphere 
Reserve had the ability to regulate land use on private land in 
and around Yellowstone Park, then your contention is clearly 
false, because there has been no ability by the Biosphere 
Reserve to regulate land, either in Yellowstone Park or on 
private property adjacent to it.
    Now, I would challenge you to submit to this Committee the 
documentation to support your allegation that the Biosphere 
Reserve in any way regulated land use either in Yellowstone or 
adjacent to it. I would like to see that documentation.
    Ms. Chenoweth. Mr. Hinchey, this is my time and I'm 
reclaiming my time. The fact is, in our Committee we heard 
testimony on that. I'm not talking about vague concepts. I'm 
talking about facts. And yes, I will submit the entire record 
for you to review again in this Committee. And I thank you, Mr. 
Jordan, and all of you who are good, strong fighters for 
private property rights. Just keep it up.
    Mr. Cannon. We did have a slight distinction, I think, in 
the statements by Mr. Hinchey that Ms. Chenoweth--I think that 
Ms. Chenoweth is thinking about more affecting by the property 
ramifications, that fact, as opposed to the narrower 
regulating. I think, most of us here are concerned about the 
broader affect of the Biosphere Reserve.
    Now, Mr. Jordan, you said some deep and disturbing things. 
First of all, you suggested that the process for the Biosphere 
Reserve here was hidden, that means unannounced, or announced 
after the fact; that names were given as supporting the 
Biosphere Reserve and the people didn't know about it; perhaps 
the most serious, that there was a smearing campaign against 
you personally.
    That is, you were called a right-wing anti-
environmentalist, and that you were somehow linked to the 
Oklahoma City bombing?
    Mr. Jordan. Oklahoma City bombing, and that we had----
    The Chairman. Speak into the microphone. We can't hear you.
    Mr. Jordan. That we were somehow connected to the Oklahoma 
City bombing, and that we had ties with the Utah militia. My 
wife and I have never been to Utah, nor do we know anybody in 
Utah.
    Mr. Cannon. I am from Utah.
    Mr. Jordan. I apologize. I have nothing against Utah. Just, 
I was connected to them and their militia. Like I say, we had 
no connection. And the funny part is, at this meeting Mr. Chase 
is talking about, he said a group from the Adirondacks came 
down. He, himself, stood up and asked who was from the 
Adirondacks.
    There was one gentleman there that was from the 
Adirondacks, on my wife's and my invitation. Everyone else at 
that meeting was either from Ulster County themselves or from 
within the Catskills region. There was no one represented from 
the Adirondacks, officially. Just the one man was the only man 
that had come down from the Adirondacks. Mr. Cannon. Mr. Chase, 
you talked about, in your testimony----
    Mr. Chase. Yes.
    Mr. Cannon. Let me finish my question--about mysterious 
Utah militia connections. Can you describe what those were?
    Mr. Chase. Yeah. At that hearing I was informed afterwards 
by one of this group that came mostly from the Adirondacks, I 
think there were a few Catskill people, three, in that group, 
and I was told that they had a dossier on me and they read off, 
I thought rather a complimentary list of organizations that I 
had belonged to, but they mentioned their connections with a 
Utah militia. And then this upset me quite a bit and----
    Mr. Cannon. I'm concerned about the reputation of Utah.
    Mr. Chase. All right. I just----
    Mr. Cannon. Pardon me, sir. We have--I think that it's 
pretty clear that there's no link with these radical militia 
groups.
    Mr. Chase. Well, this was not my information.
    Mr. Cannon. Pardon me, sir.
    Mr. Chase. This was information that was given to me----
    Mr. Cannon. Pardon me, sir. I just want to be very clear 
about the issue in your statement. I would like to know who 
referred to Utah militia types? Because, again, I don't believe 
we have any radical people. We have people who are very 
concerned about property rights, but we have never, in Utah, 
ever been linked to the more radical militia types. And I would 
like to know who it was that said that and what foundation or 
what--you had actually referred to that in your testimony 
before Congress.
    Mr. Chase. That is correct, and by golly, I'll have to say 
it was second-hand given to me by people at that Kingston 
hearing. Now, the letter that was referred to, I wrote--the 
hearing was on April 6th, of 1995. On May--excuse me. I've got 
the wrong document here.
    Mr. Cannon. While you're looking for that, you said that--
--
    Mr. Chase. On May--excuse me. On May 12th, 19--May 12, 
after--note, that's a month later, I wrote a letter, and you 
can have a copy of that letter.
    Mr. Cannon. I would like a copy of that, please. You said 
that you had a hearing on May 12th or April 6th. There were 
people there from the Adirondacks and the Catskills who said 
they had a relationship with the Utah militia?
    Mr. Chase. Exactly.
    Mr. Cannon. And who are the people?
    Mr. Chase. I don't name people.
    Mr. Cannon. You don't name names, or you don't know?
    Mr. Chase. I don't know their names. They were at the 
hearing. You check the list of people who were at that hearing.
    Mr. Cannon. They actually claimed they had some 
association----
    Mr. Chase. They came down to break the hearing up, which 
they did rather effectively, and afterwards, a woman came up to 
me and said, you know, I have a dossier on you, and she said 
she got it from Utah.
    Mr. Cannon. She said she was from Utah?
    Mr. Chase. No, no, no. She said she got it--her contact, 
her information--the dossier on me. I've been trying to find a 
dossier on me----
    Mr. Cannon. Are you suggesting----
    Mr. Chase [continuing]. on the Internet, and I can't find 
it.
    Mr. Cannon [continuing]. that there are people in Utah that 
ever collected a dossier on you?
    Mr. Chase. Precisely. That's what I was told. I don't have 
any knowledge beyond what I was told.
    Audience Member. May I defend myself?
    The Chairman. Sit down.
    Mr. Chase. That's the woman, right there. That's the woman 
right there. This is the woman right there who told me this.
    The Chairman. Cool down. Mr. Hinchey.
    Mr. Hinchey. Well, Mr. Chairman, I think it's a good 
opportunity to air these kinds of issues, and try to get at the 
real truth of the matter. I think it's been clear, as a result 
of both the testimony, the questions and responses to those 
questions, that first of all, the Biosphere Reserve is an 
honorary designation.
    As some people have described it as, it's like registering 
your dog. You can show your dog, you can train your dog, or you 
can do nothing at all and still have a registered dog. That's 
what the Biosphere Reserve is.
    The Chairman. Now, I will shut this meeting down right now. 
This is a hearing of the Congress. Gentlemen, proceed.
    Mr. Hinchey. Thank you. So we're discussing here an 
honorary designation which has absolutely no force of law 
whatsoever. It doesn't require anything. It can't possibly 
require anything. There's no force of law. It's merely 
honorary. Can't regulate man, can't regulate anything.
    It's simply an honorary designation. With regard to the 
Yellowstone situation, which was kind of an interesting and 
unique situation, you had a Canadian company, I think in that 
particular case. In any case, it was a foreign company that 
owned a piece of land adjacent to Yellowstone National Park. 
Now, the people of this country have come to regard Yellowstone 
National Park as a pretty important place, and as they 
proceeded with the environmental impact statement, which has to 
be honored in the case if you're going to be mining land, or do 
something destructive to the environment, you have to lay out 
all your plans and programs.
    As they proceeded with the environmental impact statement, 
it became clear that this particular mining operation, if it 
were to go forward, would have a major impact on Yellowstone 
National Park, and particularly on the watershed of Yellowstone 
National park, and with all the character of a place that's 
very, very important to the American people. And so when that 
became clear during the process, the comments that were made, 
made it clear to the people who owned the mine that it might 
not be in their best interest to go forward with this mine, and 
so they made an arrangement with the Federal Government for the 
exchange of some lands and some payments for that land.
    The Chairman. Just a second.
    Mr. Hinchey. And this was really initially done by 
something called the 1872 Mining Act, which is a provision 
whereby mining can take place on lands which were or formerly 
were owned by all the people of the country under conditions 
that existed shortly after the Civil War--in fact, during the 
Grant administration--so they could extract minerals from land 
which is now or was formerly publicly owned land and really at 
bargain basement prices.
    So as all of this proceeded, people became more and more 
aware that this was really a bad deal. It was a bad deal 
because of the fact that resources were going to be taken from 
formerly public land at bargain basement prices, and at the 
same time it was going to be ruining, to some degree, 
Yellowstone National Park; this arrangement was made. Now that 
has nothing to do with the Biosphere Reserve, because this was 
not a Biosphere Reserve. It was something else, called a 
National Heritage area. It's not a Biosphere Reserve at all.
    So, the fact is, that particular example has nothing to do 
with the bill that is the subject of this hearing. It has 
nothing to do with the concerns that have been expressed by the 
people at this hearing. It's an entirely different matter 
altogether. But basically, this is really the final point, not 
that I wish to agree whole-heartedly with the chairman, there's 
an important thing about representative government, and there 
are issues upon this Congress, certainly, and it's very 
appropriate for Congress to make statements on things.
    But Biosphere Reserves are originated locally, for the most 
part. By putting the Congress in it, if you wanted to do that, 
that would simply say the people in Washington are going to 
make decisions with regard to land use, or decisions like this 
at the local level. Whether you want to do that or not is the 
question, but the fact of the matter is, is that Biosphere 
Reserves do not, in any way, restrict anyone's ability with 
regard to use of their property.
    The Chairman. Your 5 minutes is up. The gentleman from New 
York.
    Mr. Solomon. Mr. Chairman, we're running out of time, and 
let me yield just briefly to the young lady from Idaho.
    Ms. Chenoweth. Mr. Solomon, I thank you for yielding. 
Again, I just want to say that all of this discussion, all of 
these activities have been predicated upon the Convention on 
Biological Diversity to which the United States is not a party, 
or which the U.S. Senate has refused to ratify. So there is no 
legal mechanism in place to be suggesting Biosphere Reserves 
here or any place else.
    Mr. Solomon. Thank you. Mr. Chairman, before I ask the 
question, I just want to thank the members of the panel for 
coming. We appreciate it very, very much, because I think it is 
enlightening. I'd like to submit for the record the resolution 
by the Greene County Board of Supervisors, in which they say 
that the Catskill Center for Conservation and Development never 
discussed the application for Biosphere Reserve designation 
with the Greene County Legislature and those on the Board.
    If I might have this appear in the record of the hearing.
    [The information referred to may be found at end of 
hearing.]
    Mr. Solomon. And Mr. Chairman, one last thing, I wasn't 
even aware that the President had said that he would take $65 
million out of the Conservation Reserve Program for farmers. We 
are being short-changed in New York State right now, because 
there is not enough money in that fund. If he wants to give 
away taxpayers' money to the Canadian industry, that he do so 
out of his White House budget. There's plenty of money there to 
spare. Thank you.
    And having said that, let me just personally thank 
everybody for coming. If you want to see an interesting debate, 
I'm the Chairman of the Rules Committee that controls what 
legislation reaches the floor. Ladies and gentlemen, this 
legislation will reach the floor, and it will be one hell of a 
debate. Come and listen.
    The Chairman. I, too, would like to thank the panel and the 
participants in the program; I would like to thank the staff 
and the recorder. It takes a lot to put on one of these 
hearings. In closing, I'd have to suggest--I asked the question 
of the last panel and I will ask this question to this panel: 
What's wrong with my bill? What's wrong with it? Anybody got 
any reason why the Congress shouldn't be involved in it?
    Mr. Chase. I think it should not be involved. I think it is 
a local thing. I think the fact that the executive government 
has to be part of the nominating structure that protects the 
local industry--I think Congress is simply too unyielding to 
deal with a process of this sort and it becomes too political.
    The Chairman. Under our Constitution----
    Mr. Chase. Too political.
    The Chairman. Under our Constitution, Mr. Chase, Congress 
can only designate land, and especially, our bill is 
nationwide. You said there's only a few thousand acres of 
Federal land----
    Mr. Chase. This has not changed. This has not changed.
    The Chairman. This is our responsibility.
    Mr. Chase. This does not change the rules on the land.
    The Chairman. Well, I believe it does. I believe that any 
outside group, especially with an administration, and I've been 
under many, this is my sixth administration, they do not take 
public input from the local community.
    Mr. Chase. Well, public input was provided----
    The Chairman. Not according to----
    Mr. Chase [continuing]. in quantity in the Catskills. It 
was just that people didn't want to listen.
    The Chairman. Well, that is a matter of opinion.
    Mr. Chase. No, it is not. It's a matter of record.
    The Chairman. Please let me finish my comment.
    Mr. Chase. Excuse me. Excuse me. You asked a question. You 
asked a question.
    The Chairman. I know that in my state, there was no public 
input. There was no correspondence. There was nothing by 
letter, or state department, or hearing, notifying us until 
this occurred. That's my frustration.
    I am deeply disturbed that a state department or any branch 
of the government can reach an agreement with the U.N. without 
consultation of the people concerned.
    This meeting is adjourned.
    [Whereupon, at 3 p.m., the Committee was adjourned; and the 
following was submitted for the record:]



 HEARING ON H.R. 901, TO PRESERVE THE SOVEREIGNTY OF THE UNITED STATES 
OVER PUBLIC LANDS AND ACQUIRED LANDS OWNED BY THE UNITED STATES AND TO 
 PRESERVE STATE SOVEREIGNTY AND PRIVATE PROPERTY RIGHTS IN NONFEDERAL 
  LANDS SURROUNDING THOSE PUBLIC LANDS AND ACQUIRED LANDS, ``AMERICAN 
                           LAND SOVEREIGNTY''

                              ----------                              


                         TUESDAY, JUNE 10, 1997

                  House of Representatives,
                            Committee on Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:06 p.m., in 
room 1324, Longworth House Office Building, Washington, DC, 
Hon. Don Young, Chairman of the Committee presiding.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    The Chairman. The meeting will come to order. Today, we are 
having a hearing on the American Land Sovereignty Protection 
Act, H.R. 901. I want to welcome our witnesses.
    My bill gives Congress a role in approving international 
land designations, primarily, the United Nations World Heritage 
Sites and Biosphere Reserves. H.R. 901 has 153 cosponsors.
    We were going to hear from Dr. Jeane Kirkpatrick today, but 
she just informed us about an hour ago that she is bedridden 
with the flu, and I do offer her my sympathy. Hopefully, at a 
later time she will be here.
    So that everybody understands, my concern is that the U.S. 
Congress and therefore, the people of the United States have 
been left out of the domestic process to designate Biosphere 
Reserves and World Heritage sites. H.R. 901 makes the Congress 
and the people of this country relevant in this process.
    The Biosphere Reserve program is not even authorized by a 
single U.S. law or even an international treaty. I believe this 
is wrong. Executive branch appointees cannot and should not do 
things the law does not authorize.
    We as the Congress have a responsibility to ensure that the 
representatives of the people are engaged in these important 
international land designations. As I read the U.S. 
Constitution, refer-

ring to article IV, section 3, the power to make all needful 
rules and regulations governing lands belonging to the United 
States is vested in Congress. Yet these international land 
designations have been created with virtually no congressional 
oversight, no hearings, and no authority. The public and local 
governments were rarely consulted.
    Until now, no one has lifted an eyebrow to examine how U.S. 
domestic implementation of these programs has eaten away at the 
power and sovereignty of the Congress to exercise its 
constitutional power to make the laws that govern what goes on 
on public land. Today, we again will begin looking at these 
issues.
    Just so everyone knows, one preservation and one 
environment group, the National Trust for Historic Preservation 
and Conservation International canceled after accepting an 
invitation to testify. Unfortunately, there was not enough lead 
time to find replacement witnesses. I regret that, because I 
will soon be evaluating with the cosponsors and committee 
members whether to move this legislation through the committee. 
Very frankly, I have made up my mind that we will move this 
legislation with additions recommended by the witnesses we will 
hear from.
    I am pleased to welcome all our witnesses who will testify 
today, and will the first panel please be seated. That consists 
of Mr. John Vogel, Land Commissioner of St. Louis County, 
Minnesota; the Honorable Charles ``Pat'' Childers, Wyoming 
State Representative, Cody, Wyoming, the great State of 
Wyoming; and the Honorable Jeannette James, Alaska State 
Representative, North Pole, Alaska, the greatest state in all 
the union. I had to get that in. That is one prerogative of the 
chairman.
    Please take your seats.
    [The prepared statement of Hon. Don Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Welcome to our witnesses. Today we will hear testimony on 
H.R. 901--my bill that gives the Congress a role in approving 
international land designations, primarily United Nations World 
Heritage Sites and Biosphere Reserves. H.R. 901 now has 153 
cosponsors.
    We were going to hear today from Dr. Jeane J. Kirkpatrick, 
former Ambassador to the United Nations, who served under 
President Ronald Reagan. Unfortunately she is ill today and had 
to cancel.
    So that everyone understands, my concern is that the United 
States Congress--and therefore the people of the United States 
have been left out of the domestic process to designate 
Biosphere Reserves and World Heritage sites. H.R. 901 makes the 
Congress and the people of this country relevant in those 
processes.
    The Biosphere Reserve program is not even authorized by a 
single U.S. law or even an international treaty. That is wrong. 
Executive branch appointees cannot and should not do things 
that the law does not authorize.
    We, as the Congress, have a responsibility to ensure that 
the representatives of the people are engaged on these 
important international land designations. As I read the U.S. 
Constitution, referring to article IV, section 3, the power to 
make all needful rules and regulations governing lands 
belonging to the United States is vested in Congress. Yet these 
international land designations have been created with 
virtually no congressional oversight, no hearings, and no 
authority. The public and local governments are rarely 
consulted.
    Until now, no one has lifted an eyebrow to examine how U.S. 
domestic implementation of these programs has eaten away at the 
power and sovereignty of the Congress to exercise its 
constitutional power to make the laws that govern what goes on 
on public land. Today we will begin to look at these issues.
    Just so everyone knows, one other preservation and one 
environmental group, the National Trust for Historic 
Preservation and Conservation International cancelled after 
accepting invitations to testify. Unfortunately, there was not 
enough lead time to find replacement witnesses. I regret that 
because I will soon be evaluating, with the cosponsors and 
Committee members, whether to move this legislation from the 
Committee.
    With that it is time to begin. I am pleased to welcome all 
of our witnesses who will testify today. Will the first panel 
please be seated.

    [Briefing Paper on H.R. 901 may be found at end of 
hearing.]
    [H.R. 901 may be found at end of hearing.]
    The Chairman. Is there any other opening statement before I 
proceed? If not, at this time, I will proceed on the order, and 
I will inform the witnesses that after this panel, I do have to 
go to another meeting, but I expect Helen Chenoweth to take 
over the chair, and she will be running the committee after 
that time.
    The first witnesses will be Mr. John Vogel, Land 
Commissioner of St. Louis County, Minnesota.

 STATEMENT OF JOHN VOGEL, LAND COMMISSIONER, ST. LOUIS COUNTY, 
                           MINNESOTA

    Mr. Vogel. Thank you, Mr. Chairman. My name is John Vogel, 
and I am a longtime professional natural resource 
administrator. For the last 18 years, I have administered 
nearly 1,000,000 acres of trust lands and resources as land 
commissioner of St. Louis County, Minnesota.
    I am here today on behalf of several counties in 
northeastern Minnesota, a region that is clearly rural and not 
urban but also not significantly agricultural. Logging, mining, 
and recreation tourism are the mainstay of our lives and 
economy. We have national forests, including a prominent 
wilderness area; a national park; several state forests; and 
several million acres of county forests. The majority of 
Minnesota's public lands are located in this region.
    The matters under consideration here today are matters of 
serious concern to many of my associates and people of our 
region, having had numerous experiences over the preceding 
decades with a plethora of ever-changing programs, regulations, 
and dictates which profoundly and often adversely affect our 
lands, resources, and lives.
    All too often, many of our citizens and local elected 
officials have found themselves attempting to react to far-
reaching new laws and regulations, virtually helplessly, after 
it was too late to be real participants in considering major 
and far-reaching proposals affecting our region, virtually 
dozens of ever-changing complex programs ranging from 
wilderness to the biosphere.
    It seems we have to devote an impossible amount of time and 
effort just to get information before it is too late, rather 
than have an opportunity to be an informed part of our own 
future and to be seriously listened to.
    One such situation occurred in 1984 when our state-
sponsored citizens committee on Voyageur National Park was 
offhandedly informed by the then-park superintendent, Russell 
Berry that Voyageurs, along with the Boundary Waters Canoe Area 
in the Superior National Forest and the adjacent Quetico 
Provincial Park in Ontario were being proposed for status as 
the Northwoods International Biosphere. The whole story of that 
proposal is much too long to describe here. I have described 
that event in more detail in my written testimony.
    It should be sufficient to say that after devoting much 
time and effort to that nomination, we became aware by a 1987 
letter from the State Department to the then-director of the 
National Park Service, William Mott, that the State Department 
had withdrawn the application. That letter clearly states that 
it was withdrawn because of local opposition.
    Mr. Chairman, I believe that was the first time that a 
nominated area had been withdrawn. Because of the very 
amorphous nature of such designations, and by that, I mean the 
unclear boundaries and potential far-reaching and progressive 
impacts, it becomes very difficult or impossible to find any 
comfort level with the Biosphere Reserve despite good qualities 
which might be associated with them, particularly after reading 
a statement quoted in 1987 in the Omaha News Herald attributed 
to the now former assistant secretary for fish and wildlife and 
parks, George Frampton, where he was reported to have stated 
there ought to be biosphere reserves around every national park 
and wilderness area where roads would be closed, development 
limited, and resources returned to their natural condition.
    Also, the Voyageur National Park superintendent stated at a 
public meeting, and I quote, ``I would like to be in as strong 
a position as possible to influence activities outside our 
boundaries that would adversely affect the park in the context 
of things that would be detrimental to the ecosystem within the 
park.'' Based on our experience regarding the lack of oversight 
and public involvement, we find that sort of statement very 
scary.
    Today, I believe it is more important for me to simply 
speak in support of H.R. 901, the American Land Sovereignty 
Protection Act. We believe that if we are ever truly going to 
find solutions to protection of the environment and special 
places, we can and will find the best support and best methods 
through congressional oversight and consensus-building at the 
grass roots level. My counties have made significant formal 
commitments and are now undertaking long-term programs to carry 
out new and better planning and programs so that we might 
achieve the principles contained in the 1969 National 
Environmental Policy Act that man and nature can live together 
in productive harmony.
    Unlike the past process of establishing these international 
areas, we believe the process needs to be more open and 
certainly more inclusive of the legislative process. People in 
our region are not likely to support outcomes which bypass or 
ignore our elected officials at all levels of government.
    That is why, Mr. Chairman, I am here today to urge passage 
of H.R. 901, and thank you for the opportunity to speak on 
behalf of the bill.
    [The prepared statement of John Vogel may be found at end 
of hearing.]
    The Chairman. Thank you, John, and I wish your Minnesotan 
Congressman was here to hear your testimony, but unfortunately, 
he chose not to participate. Usually, he does. He is very good 
about that.
    The Honorable Pat Childers is up next.

   STATEMENT OF HONORABLE CHARLES P. CHILDERS, WYOMING STATE 
                 REPRESENTATIVE, CODY, WYOMING

    Mr. Childers. Thank you, Mr. Chairman, members of the 
Committee. My name is Charles P. ``Pat'' Childers. I am Wyoming 
representative for House District 50 in Park county. As an 
introduction, this testimony is offered to support passage of 
H.R. 901.
    My input is a firsthand account of how a World Heritage 
Site, Yellowstone National Park, was and is being used to 
sabotage public law, the National Environmental Policy Act, or 
NEPA, and circumvent an ongoing legal public process for 
development of an environmental impact statement or EIS that 
was being scrupulously followed to determine the suitability of 
the proposed New World Mine located outside the park.
    Additionally, the public information presented to establish 
the forums for evaluating the reclassification of the park to a 
World Heritage Site in danger was a classic example of 
minimizing the involvement of interested parties, i.e., the 
State of Wyoming, in the process.
    As fine and strong a public law as NEPA is, it was no match 
for the political leverage that a World Heritage Site carries. 
My testimony is an example of an abuse of power. This abuse 
came from some within the Clinton Administration, including the 
Interior and Park Service; environmental organizations; as well 
as an abuse of prestige and public trust by UNESCO's World 
Heritage Committee.
    All of these groups were drawing on Yellowstone's 
designation as the United States' first national park and a 
World Heritage Site. The members of this Committee should make 
every effort to prevent this from happening again in this 
nation.
    For background, in 1970, NEPA was passed by Congress and 
signed into law. It is a structured, environmental assessment 
process, and it is a public process. In 1978, Yellowstone was 
designated a World Heritage Site, about 6 years after the U.S. 
signed the World Heritage Site Convention of UNESCO.
    In 1989, data collection began for the mine near Cooke 
City.
    In 1990, an attempt to establish the Vision document was 
defeated. This document, coordinated by the Park Service and 
Forest Service, also proposed a buffer zone around the park 
similar to the Heritage issue. It also did not go through the 
scrutiny of proper public process as required by law.
    In 1993, the EIS for the New World Mine was initiated as 
required by NEPA.
    On February 28, 1995, 14 environmental groups, opponents of 
the mine, sent a letter to the chairman of the U.N. World 
Heritage Committee requesting the committee initiate an 
investigation to determine if the park should be included on 
the List of World Heritage Sites in Danger. The letter listed 
the reason for the request as the serious threats presented to 
the park and the larger ecosystem by the proposed New World 
Mine, and other activities.
    It is important to note that those other activities were 
not widely publicized in any public notices for the hearing by 
the World Heritage Committee. Creation of the buffer zone is 
also part of the treaty language.
    On June 27, 1995, Assistant Secretary of the Department of 
Interior, George Frampton, by way of a letter to the chairman 
of the committee, stated that he believed that there was 
potential danger to the park and that the committee should be 
informed that the property inscribed on the World Heritage list 
is in danger. Our own Department of Interior is arriving at its 
own conclusion before compliance with NEPA is met.
    On September 8, 1995, the World Heritage Committee arrives 
at the park with the stage being set by the Department of 
Interior and President Clinton. I managed to speak at that 
forum and encourage you to question me about this.
    My position as a state representative speaks of my respect 
for public law and public process. Please remember World 
Heritage Sites have significant negative collateral fallout to 
the areas around them. They create an unstable economic climate 
discouraging free enterprise and subject the surrounding areas 
to an inappropriate and unfair sphere of influence.
    I encourage you above all that what needs to be protected 
are not more World Heritage Sites, but our own congressionally 
passed public laws. This is what H.R. 901 will help achieve. 
Thank you.
    [The prepared statement of Charles P. Childers may be found 
at end of hearing.]
    The Chairman. Thank you, Pat. Now, we have Jeannette James, 
Alaska state representative from North Pole, Alaska. Jeannette.

  STATEMENT OF JEANNETTE JAMES, ALASKA STATE REPRESENTATIVE, 
                       NORTH POLE, ALASKA

    Ms. James. Thank you, Mr. Chairman and Committee members. 
Thank you for this opportunity to testify in support of H.R. 
901. For the record, I am Jeannette James from North Pole, 
Alaska, a member of the Alaska State House of Representatives, 
and my testimony is on behalf of the Alaska State House 
leadership.
    This issue is extremely important to my state, and I 
request my entire written testimony be entered into the hearing 
record.
    The Chairman. Without objection.
    Ms. James. H.R. 901 is a policy issue. We believe Congress 
must assert its authority under the Constitution. Considerable 
confusion is mounting about the intent and vision of these 
international agreements. Overlapping international zoning 
impacts without a good public process could stifle any 
reasonable economic opportunities available to our fledgling 
state.
    I feel confident that the testimony you will hear today 
will support your efforts to guarantee a legislative process on 
these issues. I opened the Washington Post this morning, and 
there was a three-page paid advertisement. How do you protect 
an earth in the balance; with a balanced approach, was the 
answer. The sponsors signed this presentation saying we are 
committed to a healthy environment and a healthy economy. Mr. 
Chairman and committee members, I am, too, and so should you.
    This country was founded on the principles of democracy. 
We, the people, know our government. It is us. Our precious 
freedom is built on property rights and liberty and both are 
threatened by the international agreements that are the subject 
of this hearing.
    One is the World Heritage Site Convention which was 
ratified by Congress, and quite frankly, needs to be reviewed 
as to its implementation and the effect on our lands, people, 
and resources. We question if Congress had such intent when it 
ratified this treaty or is this just a case of good intentions 
gone wrong.
    The other is the Convention on Biological Diversity and the 
International Conference on Biosphere Reserves which is being 
implemented by executive order but has not been ratified by the 
Senate. Our three-part system of government, legislative, 
executive, and judicial, are purposely established for checks 
and balance. There are executive powers identified in the 
Constitution; however, basically, Congress writes the law and 
the executive administers the law. Any blurring of law-making 
between these two branches of government is partly by one 
usurping power over the other, and partly by one branch giving 
power away to the other like a hot potato by specific action or 
no action at all. We see it happening every day.
    I commend you, Congressman Young, and all the cosigners for 
H.R. 901 and your effort to bring back a process representing 
the public interest as it relates to property rights.
    I am an environmentally concerned person. No one can afford 
not to be. However, it costs a lot of money to protect the 
environment, and these efforts can only be supported by a 
healthy economy. Social unrest as well can only be healed when 
each person is able to sustain themselves and their families 
with pride and accomplishment.
    The underlying need is to create wealth. To create wealth, 
we must utilize and enhance our natural resources and this can 
only be done with care and consideration, not with fear and 
distrust which is the basis of extreme environmentalism.
    I want to give the environmental movement credit for 
promoting new and modern methods of harvesting, extracting, 
manufacturing, and marketing; however, the time has come when 
reality must dictate. Continued meddling and intolerant 
attitudes must be tempered. Property rights must be protected, 
and the American dream must not be destroyed.
    The hype and rhetoric used by zealous environmentalists 
includes warm and fuzzy statements about good will and sharing 
as well as buzz words like culture, lifestyle, and salmon 
spawning. These emotional words won't support a paycheck. 
Without a paycheck, warm and fuzzy does not exist.
    Paychecks are possible when wealth is created, and we ought 
to be conservative and respectful of ourselves and the planet, 
but understanding that human needs are as much a part of 
biodiversity as the air we breathe is absolutely necessary.
    Mr. Chairman and Committee members, there is a natural 
tendency to resist change, but living in the world, change is 
inevitable; to not change is death.
    No, thank you, I am not interested in any tyranny, and in 
order to orchestrate biodiversity, we must expect tyranny.
    Alaska is a young state, not yet 40 years old. Our people 
are hardworking, intelligent, talented, and caring. We enjoy a 
potpourri of race, religion, and ethnic background. We respect 
one another and we love our land. Alaska is like a mother to 
us; she teaches us how to live, and no one can understand and 
care for her better than we can.
    Thanks again for this opportunity to testify. I would be 
happy to answer any questions, and I have additional backup 
material for the record.
    [The prepared statement of Jeannette James may be found at 
end of hearing.]
    The Chairman. I want to thank the panel and I am going to 
have a couple questions, and then open it up for questions to 
the rest of the committee.
    Jeannette, was the Alaska legislature consulted in any way 
by the State Department of the Federal Government when 
47,000,000 acres of Biosphere Reserves and the World Heritage 
Sites were designated in Alaska?
    Ms. James. I know of no contact whatsoever, and the fact is 
I only found this out by research.
    The Chairman. Well, I appreciate that, because I made the 
statement once before in the last hearings that we had in this 
room, and they said, well, we sent you a letter. It was copied 
to the chairman of the committee that time, copied to me, and I 
never saw that letter. That is the only notification I had. 
Very, very little, if any, type of public input or consultation 
or anything, and one of the things I got interested in, 
40,000,000-odd acres of our State are in this biosphere 
classification.
    Have you seen any advantages with this designation? Has it 
helped us out, helped you out? Has it done anything for the 
state?
    Ms. James. Well, certainly, I haven't found anything that 
it has helped out at all, but it sure has caused a lot of harm.
    We are having a lot of problems in Glacier Bay right now 
with the fishers and the crabbers there, and you may be 
familiar with that issue. The people on the Seward Peninsula 
have been threatened and are fighting hard to keep out the 
international park that is on both sides of the Bering Strait, 
and had the Cape Kreusenstern Monument been a biosphere reserve 
like they would like it to be, we wouldn't have Red-Dog Mine 
now, which is the world's largest zinc mine with 400 employees.
    So we have the harm, and it has been felt.
    The Chairman. I appreciate that, and again, that is another 
thing. I keep hearing from different people that oppose my 
legislation that there is really no harm in this, it is just a 
designation, it is an advantage. But if Pat is correct, and I 
think you bring up some good points, was it New World Mine or 
what mine was that now that you said was involved?
    Mr. Childers. Pardon me?
    The Chairman. Which mine was involved when you said the 
World Heritage Committee came over? I want to ask you about 
when they came over.
    What was the name of the mine again?
    Mr. Childers. What was?
    The Chairman. The mine that you said that they had been 
invited over to the park to see and then they decided it wasn't 
appropriate to have any mining activity.
    Mr. Childers. The New World Mine.
    The Chairman. New World Mine.
    Mr. Childers. They did not think it was appropriate to be 
mining at that site, but it is a dead site as it is now.
    The Chairman. Now, you attended that hearing, Pat?
    Mr. Childers. Yes, I did. I testified.
    The Chairman. Do you believe that--how many people such as 
yourself testified?
    Mr. Childers. How many people what?
    The Chairman. Such as yourself testified.
    Mr. Childers. There were only two like myself allowed to 
testify and we had to, let us say, be careful in how we 
answered questions to be able to testify.
    The Chairman. Now, how many did testify?
    Mr. Childers. There were approximately 30 to 40 people.
    The Chairman. And those people were made up of?
    Mr. Childers. The environmental organizations, the mining 
community. The day that I testified, it was technical input. I 
was testifying as an engineer in the oil and gas industry and 
my companion was testifying as a geographer.
    The Chairman. And what you are telling me that actually, 
the hearing was held by UNESCO and the EIS process was brought 
to a halt at that time by the Secretary of Interior?
    Mr. Childers. More or less. It influenced the EIS process.
    The Chairman. What did you find, Pat, or your constituents 
find the most offensive about the World Heritage Committee's 
visit to Yellowstone? What would you say was the most 
offensive?
    Mr. Childers. It was not a proper public process and the 
advertising about them attending and investigating it. They 
implied that they were going to just talk about the mine, but 
once you got there, you found that they were covering a lot 
more than the mine. They covered tourism and other commercial 
activities.
    The Chairman. John, my time is up, but you mentioned a 
state-sponsored commission that investigated a proposed 
Biosphere Reserve designation in your area. Was the commission 
divided at all regarding this proposed designation?
    Mr. Vogel. No, that was a unanimous decision. That is a 
state-sponsored commission. The chair is appointed by the 
Governor. There are 13 members, and the decision was unanimous.
    The Chairman. It was against it?
    Mr. Vogel. It was against it.
    The Chairman. In your opinion, if this type of 
investigation and security that took place in Minnesota had 
occurred in other regions of the country relative to this 
proposed designation, do you think the outcome would be 
similar?
    Mr. Vogel. Yes, Mr. Chairman, I certainly do. Our 
experience with Minnesota would indicate that there was 
virtually no support for it, and there was a tremendous amount 
of opposition.
    The Chairman. This is why I am bringing this up. I just 
mentioned to Jeannette, and a lot of these areas that we are 
designating in the United States, there was no public input at 
all. There was nobody that really realized it, and what I am 
worried about and have been worried about, under our 
Constitution, it says only Congress can designate, and this is 
done by the executive.
    The intent of this bill is very, very minimal. All it says 
is that if there is in fact an area that is to be designated, 
yes, we still have to have public input, but after that is 
done, it has to come back to the Congress and we should have 
the right to approve or disapprove it.
    Of course, some people object to that, and I think that is 
incorrect. My time is out.
    Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman, and thank you for 
calling the hearing. I have to leave for a budget 
reconciliation meeting. Both of us have difficulty with that 
budget for various reasons, and sometimes, some of the same 
reasons.
    I want to thank the panel for their testimony, all the 
panel, but particularly the two state representatives. I served 
10 years in the Michigan House of Representatives and I realize 
the importance, the enormity, and sensitivity of your job, and 
thank you for your testimony today.
    I will leave, but I will try to come back before the end of 
the hearing. Thank you, sir.
    The Chairman. The gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman. I also would like to 
join the Chairman in his remarks and also welcome all of you 
here to this Committee hearing as well.
    Mr. Childers, you were present at that hearing, obviously, 
and there were members of the Yellowstone National Park agency 
there or the park authority, the superintendent. Can you tell 
this committee what your testimony was at that hearing?
    Mr. Childers. My testimony was because of my background in 
trying to encourage that the United States should be following 
the process on the mine which is NEPA, because that is my 
recent education, and that is the type of environmental things 
that I handle for my company.
    Then also from a practical standpoint, since I did tour the 
mine site and have some thoughts about what was happening in 
the mine--I am a chemical engineer by education. I basically 
thought that it was ridiculous in some of the public statements 
that were being made about the mine site. I didn't think they 
were very accurate at all, and that also, they were 
circumventing the process, and I thought it was an insult that 
the committee shows up when we have very stringent laws that 
are being used to investigate the mine now, and that is NEPA.
    Mr. Gibbons. What was the reaction of the Park Service to 
your testimony?
    Mr. Childers. In particular, the park superintendent, Mike 
Findley, got up and gave his summary concerning the program, he 
thanked everybody for coming, except he singled out myself and 
my companion and basically told us he didn't care what we had 
to say.
    Mr. Gibbons. So in essence, you felt that your testimony 
and your presence was irrelevant to the decision and the 
process that they were undertaking at the time?
    Mr. Childers. Well, I could hardly see how it was 
irrelevant when we were just basically asking that United 
States laws should be followed and that from a practical 
standpoint, there doesn't appear to be a real problem with the 
mine as there is now at the mine site.
    Mr. Gibbons. How many sites, and maybe if I could go to the 
state of Alaska, Representative James as well--how many acres 
did you say Alaska has under this designation?
    Ms. James. 40,700,000 acres.
    Mr. Gibbons. Near 41,000,000?
    Ms. James. Near 41,000,000.
    Mr. Gibbons. And Wyoming?
    Mr. Childers. In Wyoming, the park is the only one that I 
can think of right now. It is strictly the park.
    Mr. Gibbons. And how many acres is that?
    Mr. Childers. The World Heritage Committee excluded the 
buffer zone.
    Mr. Gibbons. Do you have an idea of how many acres that 
encompasses?
    Mr. Childers. I cannot remember offhand.
    Mr. Gibbons. I have been told it is about 2,200,000 acres.
    Mr. Vogel, in Minnesota, how many acres are covered by this 
sort of a designation?
    Mr. Vogel. We haven't any at this point because we became 
aware of that in 1984 and prevented it.
    Mr. Gibbons. To either Representative Childers or 
Representative James, has this had a direct effect on any of 
your state's management of these areas? Has it required you to 
change the course or the direction or the type of management 
you would have had over these areas?
    Ms. James. Well, I guess that I could respond to that, 
especially in the Biosphere Reserves, that it appears to me 
that they have made this identification, but I don't think they 
have been doing anything about it yet.
    Quite frankly, that is a huge, huge job. I don't know how 
or where the money would come from to do all the things that 
were planned, so I think it is more of a threat now than it is 
where they have actually done things.
    We have talked to the Park Service, and it was interesting. 
In my committee meeting in the Alaska House this year that the 
Park Service person did indicate to me that we do have 
something to worry about when we have the international 
committee coming into our localities and helping change the 
voices of the people.
    Mr. Gibbons. Is this an unfunded mandate to the state of 
Alaska?
    Ms. James. Well, it does say that the state parties are 
supposed to be the ones that fund it. We certainly don't have 
any money to do it, so I don't know who they are talking about 
doing it.
    Mr. Gibbons. Mr. Childers, is that your opinion also?
    Mr. Childers. Mr. Chairman and Congressman, we are having 
more restrictions proposed in the park itself. Since the buffer 
zone was excluded, there haven't been any changes in the 
National Forest Service.
    Mr. Gibbons. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. The gentleman from 
California, Mr. Dooley.
    Mr. Dooley. I guess I would be interested, and I don't have 
a great deal of expertise on this issue, but I am struggling a 
little bit, and Mr. Childers, when you get to the New World 
Mine situa-

tion, what would have happened differently if you didn't have 
Yellowstone being declared--I guess it is a World Heritage 
Site? What would have happened in the absence of that 
differently?
    Mr. Childers. Without the Heritage Site being declared in 
danger?
    Mr. Dooley. Yes.
    Mr. Childers. Well, hopefully, there would be more proper 
use of the park. As far as the buffer zone, the proposal in the 
guidelines for that committee, through that committee, there 
would be a lot more restrictions on the use of the National 
Forest lands.
    Mr. Dooley. Are you assuming then that they actually 
influenced the process? You don't think there would have been 
domestic interests that would have been advocates for a similar 
policy?
    I am just trying to separate out and identify what is the 
real problem and the real threat that people feel they are 
under with the World Heritage Sites and the Man and the 
Biosphere international program.
    Mr. Childers. Well, the presentation for the committee 
being there actually provided additional input outside the 
normal process with the environment impact statement for the 
mine.
    I don't think the data was justified in what they were 
presenting, because a lot of the data was not concerning the 
mine.
    Mr. Dooley. But that would be comments though that anybody 
could make. They could make those comments even if this wasn't 
part of the World Heritage Site, couldn't they? Any party can 
make comments during a NEPA process, can't they?
    Mr. Childers. That is correct, but if the Federal 
Government took their designation as a World Heritage Site in 
Danger, then the Federal Government or the state party as 
implied or as stated in the guidelines, the Federal Government 
should be responding in providing more restrictions to address 
what the World Heritage Committee is proposing, and that is not 
public process.
    Mr. Dooley. Ms. James, you wanted to make----
    Ms. James. Yes, I did. I wanted to respond to that. You 
have to understand that you have a World Heritage Site, and 
this was private property three miles outside the park. So our 
legislative system that we have for an environmental impact 
statement should have been all we needed to determine whether 
or not that was an environmentally sound application.
    The fact that it was a World Heritage Site brought in the 
international community to interrupt that whole process, which 
is unfair, and then beyond that, what happened and the net 
result that there is no settlement at this time, the mine just 
gave up because of the overwhelming whatever, and decided to 
take some alternative land somewhere else.
    Mr. Dooley. I guess I need further clarification. How did 
this international group interrupt the process?
    Ms. James. Because they came over and put the World 
Heritage Site in Danger; therefore, they came and held the 
hearings that were held, and had the permission from Frampton 
to do it. It was an interruption in the process.
    Mr. Dooley. I am still trying to clarify a little bit. I 
guess you are assuming then that this information would not 
have been provided by any other party, and I guess I would be a 
little surprised if these arguments weren't similar--what we 
have, I think I read in one of the testimonies that we had 14 
environmental organizations that wrote to the World Heritage 
Committee or whatever it is asking them to declare this.
    Those parties probably were saying the same identical thing 
as this international body, so my question is, what new 
information? Are you just saying because of it being an 
international body, it has more prestige so that it can have 
more influence on the outcome?
    Ms. James. Have you ever experienced an environmental 
impact statement in your area?
    Mr. Dooley. Yes, I am a farmer.
    Ms. James. Don't you think that is a good process? This is 
a different process, and we don't like it.
    Mr. Dooley. But it is part of the existing process, isn't 
it?
    Ms. James. No, it is not. It is not at all part of the 
existing process.
    Mr. Dooley. So you are saying that this----
    Ms. James. I have some information I can provide to you----
    Mr. Dooley. What you are saying is that this group is 
providing information that is being considered that no other 
party would have provided.
    Ms. James. I don't think that is the issue, sir. I think it 
is their voice that is the issue, and their voice is not our 
voice.
    Mr. Dooley. So the issue is then having the opportunity for 
an international body to participate in the process is the 
problem.
    Ms. James. You are right.
    Mr. Dooley. Thank you.
    The Chairman. Go ahead, Pat.
    Mr. Childers. Congressman Dooley, I think that the 
Congressmen here in the House do recognize that public opinion 
can influence a process. Speaking after 30 years in the oil and 
gas industry, I will guarantee you that public input can 
improperly influence a process.
    The Chairman. I would just like to suggest one thing to the 
gentleman from California.
    The real crux of this matter is that this group was invited 
to come over. They spent 3 days. They had 2 days of hearings 
and went back and wrote the report in 1 day, if I am correct, 
and said that this needs a buffer zone, there is a definite 
need for a buffer in this World Heritage Site area.
    Then this Administration came down immediately and made an 
offer to buy out the New World Mine for $65,000,000--not the 
owner, just the mine. If the mine did not accept that, then 
they were told on the QT that you will never, ever get a permit 
processed, because we will never finish the EIS, which they 
never have. Thus, by designation, they used this as an excuse 
to have the mine closed.
    My concern about this whole thing was they should have 
followed the process. If it was in fact environmentally unsound 
to have the mine, that would have been stated in the process. 
That was not going to happen, because the finding would have 
been that it was perfectly all right.
    It was used as a crutch, and by the way, $65,000,000 of 
taxpayers' dollars, made by this Administration with a 
company--with a company, not the owner. The owner is an 89-
year-old woman that does not want to sell her property, yet now 
she has property that has no value at all, and that is a taking 
because of the threat of the Federal Government.
    By designation, we have devalued by use of a foreign 
outside influence in the United States. Now, there are people 
that disagree with me. If it was the right thing to do, they 
should have at least had the decency to come to Congress and 
say there is a need for a buffer zone. They didn't do that.
    They went through this process, and this is what I am 
trying to change, so we have something to do with it.
    The gentleman from Louisiana.
    Mr. Tauzin. I thank the chair. Let me just read to you from 
the Billings Gazette earlier this year a story entitled park 
needs buffer zone, delegation tours gold mine site. ``The 
president of the World Heritage Committee said he is inclined 
to suggest that the international panel urge the United States 
to expand Yellowstone Park and encompass millions of acres of 
national forest that surround it. Certainly, the forest areas 
around Yellowstone belong to the same ecosystem, said Adul 
Wichiencharoen of Thailand,'' I am sure I mispronounced that, 
``who heads the World Heritage Committee which operates under 
the administrative umbrella of the United Nations. All these 
lands must have protection so their integrity is not 
threatened.''
    Here we have a fellow from Thailand now coming in and 
literally instructing the United States on protecting an 
ecosystem around Yellowstone Park.
    I suggest that that has something to do with this Congress' 
authority and the people of the United States' decision, and 
yet we find folks from Thailand coming in and now trying to 
direct this process.
    Is this what you are talking about, Ms. James? Is this the 
problem?
    Ms. James. That is the problem, sir.
    Mr. Tauzin. And the other thing that concerns me is that we 
have an Administration that decided to take executive action to 
establish land set-asides in one of our states without even 
informing or discussing that process with the Governor of that 
state.
    I am very deeply concerned that this process is just one 
more where the Administration can engage an international 
organization in making decisions that compel the United States 
to keep its faith, keep its honor, and therefore, do something 
that we agreed to do by executive action somewhere with an 
international agency.
    The concern goes deeper than that. I was reading in the 
committee analysis of the bill and the issue here that in 
regard to the Catskill Mountains area, the Biosphere Reserve 
recommended in the Adirondacks, local officials from both of 
these regions testified that they have never been consulted 
about plans to designate these biospheres.
    That seems to be the routine, that these designations 
occur, these recommendations occur, executive action occurs, 
and local officials never get invited literally to participate. 
But even worse than that, the private landowners never have a 
chance for a community hearing, a right-to-know process.
    The right to know is a very popular environmental theme 
that I think has rendered some pretty good effects for America. 
The fact that you know what is happening tends to make 
everybody behave better.
    When the government can do things without the private 
landowner and the public having a right to know, a right to a 
public discussion, without even Congress in some cases being 
invited to participate in the decision, the executive reaches 
back for some obsolete language and makes an executive decision 
without a community process, then it creates this tension and 
this battlefield where we ought to have cooperation and 
compromise and good will and conservation agreements dictating 
the process.
    It seems to me that without this bill, the Administration 
is literally setting itself up in these international 
agreements to continue what I think is a very bad trend in the 
way of America making its decisions in consultation with local 
officials and local private property owners as an effect of 
conservation and multi-use decisions in regards to lands.
    Am I hitting it right? Can you add to this?
    Ms. James. If I might, sir, I think that I have heard 
testimony in Alaska when I had my joint resolution supporting 
this bill from the people around the state, and the question is 
why do we need this bill, because technically what is going on 
is unconstitutional. Why do we need this bill, but it is 
cheaper to put a bill through than it is to take them to court.
    I think that you have hit right on the subject.
    Mr. Tauzin. Let me make another point. We are going to be 
offering some bills very soon that also deal with some of these 
issues about communities' right to know and people's right to 
know about what is happening to them in some of these areas.
    Land ownership doesn't have rights in America. The 
Constitution doesn't accord a single civil right to a piece of 
land, but it does accord it to citizens. The right to own 
private property and to own it in possession without a 
government taking of that private property--as the Supreme 
Court said in the Dolan case out west, it is a right that is no 
less sacred than any of the other rights in the Bill of Rights.
    It seems to me when we fail to protect America's civil 
rights in regard to some of these issues by turning over power 
to international organizations or even to chief executives 
without having a process to protect civil rights, that we 
ourselves are at fault in allowing the civil rights of citizens 
to be degraded in this country.
    I want to applaud you for coming to help us hopefully make 
some good decisions to protect America's civil rights when it 
comes to private property in this country.
    The Chairman. I thank the gentleman from Louisiana. The 
gentleman from Guam, Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman. At the outset, I 
want to point out that I have problems with the Federal 
Government coming in and telling me what to do with my land on 
Guam, so I am not really amused at the idea of international 
organizations participating in that.
    I wanted to commend the first panel, but I also wanted to 
just for my own understanding of the issue as you see it, ask 
you to comment on one point. In the course of your testimony, 
there was a great deal of emphasis on the lack of public input 
or the lack of appropriate process or perhaps going around 
existing Federal legislation so that how you framed it is that 
you are really calling for the enforcement of existing Federal 
process for this.
    Then there was some discussion about the practical effects 
or the consequences of these restrictions that may be imposed 
by these designations.
    If I could just get a brief comment from each of you about 
maybe making a distinction, and maybe it is not a good 
distinction to make, but if we could distinguish between where 
the more serious problem is.
    Is the more serious problem the impact of these 
restrictions by these designations, or is the more serious 
problem the fact of lack of public participation in the process 
of making these designations?
    Ms. James. If I could begin, sir, I think that the last 
part is more the big problem, and that is not identifying these 
set-asides, if we call them set-asides, by a public process.
    Beyond that, of course, is that it isn't just setting aside 
an area. It is the surrounding area that is affected, which is 
sometimes private property and state property, and the people 
not knowing it.
    If you want to look into the rule of establishing things, 
it specifically says they don't want public policy in 
establishing whether or not these are to be set-asides, and 
they only want comments from local people only and if only they 
don't affect the committee's decision.
    It is a matter of sucking it out and putting it up here on 
another plane where a totally different approach is given and a 
totally different group of players play.
    Mr. Childers. I would have to agree with the statement of 
the representative from Alaska that lack of public input and 
balanced input--if you are familiar with the NEPA process, 
which is a gathering of data and balancing, and economics are 
part of that balance.
    But if you read through the guidelines for the World 
Heritage Committee, there is no balance brought into it. It is 
on the side of the environment.
    The National Environmental Policy Act, our United States 
law, asks for balance. It doesn't say you have to weigh the 
environmental issues. It doesn't say you have to weigh the 
economic issues. It is simply a balance. It provides the data, 
and then the authorized officer makes the decision based on all 
that data.
    That did not allow data on all sides of the issue.
    Mr. Underwood. Mr. Vogel.
    Mr. Vogel. Thank you. My impression is very much the same 
as the other panelists. However, I work at a level that is 
very, very close to the people that are represented in these 
areas.
    The county commissioners in my region, for example, have 
formed a joint powers board where there are ten counties now 
serving together on a special board, and I see their constant 
frustration with the lack of information available that is 
brought to them. Frequently, they have to dig hard to find this 
information and react to it.
    In the case of the Northwoods Biosphere Reserve that was 
proposed in 1984, as a matter of fact nominated in 1984, it was 
only quite by accident that it came to light that the 
nomination had been made. After some 3 years of investigation 
and hard work, the citizens clearly rejected the idea of the 
proposal, and fortunately, the State Department withdrew the 
nomination at that point.
    Mr. Underwood. Thank you. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Tennessee.
    Mr. Duncan. Thank you, Mr. Chairman, and first of all, I 
want to say that I commend you for this very reasoned, 
balanced, and moderate legislation, which if I understand it 
correctly simply would give the Congress some voice in these 
major land use decisions.
    I agree with the gentleman from Louisiana that it is 
incredible that we give a man from Thailand more say than our 
own Congress or even the local citizens most directly affected.
    In light of this and in light of the comments by the 
gentleman from Louisiana about the importance of private 
property, let me read for the record a portion of a column by 
Austin Chase which was in last Friday's Washington Times, and 
it says, ``Why do elected representatives continue to 
nationalize real estate when as the experience of the former 
Soviet Empire demonstrated, public ownership is a recipe for 
economic and ecological disaster? Why do greens want more 
public land when they know governments have black thumbs? Why 
do the media characterize private ownership as reactionary when 
it is the principal institution that distinguishes the United 
States from say, North Korea?''
    Mr. Chase goes on in this column, and he says, ``So long as 
the cold war raged, Congress had plenty of excuses to extend 
the powers of central government. Now that socialism has 
capitulated, politicians embrace a new enemy whose presence 
justifies an even greater expansion, the environment.''
    We need to realize in this country that environmental 
extremists have become the new left, the new socialists, the 
new radicals of this day, and there is a real threat in this 
country to private property. I think now that the Federal 
Government owns 30 percent of the land and state and local and 
quasi-governmental agencies own another 20 percent, but what is 
even more disturbing is the rate of increase of that ownership 
and perhaps just as disturbing, the restrictions that are being 
placed on our remaining limited private property.
    I think that is something that you are concerned about, 
because you have testified you are as concerned about what is 
happening to the private landowners near these areas or 
adjacent to these areas as you are to these designated areas 
themselves. Is that correct?
    Mr. Childers. That is correct in Park County where this--I 
hate to say it, fiasco took place. Seventy-eight percent of the 
land in Park County is Federal land. Only 2 percent is state 
land, and then the rest is private.
    Most of the living area in Park County is in the drainages 
coming away from areas like the park. What happens on public 
lands affects the economy in the area and then the influence of 
the World Heritage Site in Danger according to what we see in 
the guidelines would influence what would happen on private 
land.
    We are very concerned about that.
    Mr. Duncan. We just had a hearing a few weeks ago, 
Representative Childers, about the secrecy involved in the Utah 
land grab, and from your testimony, I understand your concern 
about the secrecy and the lack of input, true input, in the 
process of the local citizens.
    It seems as though a lot of these people know they would 
lose if there was a real airing of the ramifications of these 
decisions, so they try to do as much of this in secret as 
possible.
    I notice Mr. Vogel said in his testimony we find ourselves 
having to devote an impossible amount of time and effort just 
to get or dig out information before it is too late to react.
    Mr. Vogel. That is correct.
    Mr. Duncan. Was this being done in secrecy or private? Did 
you--I know the Governor of Utah testified on that other 
hearing that he found out about this major decision in his 
state by reading about it, I think eight or 9 days ahead of 
time in the Washington Post.
    Mr. Vogel. Well, the proposal was revealed to the citizens 
committee on Voyageurs National Park and four of the members of 
that committee, including the chairman, are appointed by the 
Governor who obviously didn't know that there was a proposal.
    Mr. Duncan. My time is about to run out, but let me ask 
Representative Childers this.
    Did I understand you correctly to say that when you 
testified in this very unfair, rigged hearing with the two 
witnesses more or less on your side and 38 or 40 on the other 
side, did you say the chairman of the committee or somebody 
told you that it didn't matter what you said, and you said 
something about how you thought you had to be careful in the 
way you answered questions?
    Mr. Childers. We had to be careful in the way we answered 
questions when we tried to be on the panel or the group to be 
able to testify before the committee.
    If you said that you were for the mine, they said we will 
call you back. If you were against the mine, then they were 
more receptive to talking to you.
    Then as far as the type of testimony that was provided 
during the hearing, we were the only ones that provided 
testimony that was more of a balanced nature, in my opinion.
    Mr. Duncan. We had one of these designations in Tennessee, 
and there was no local input there either. This apparently has 
been going on all over the whole United States.
    Mr. Chairman, I would like to place this column from the 
Friday, June 6, Washington Times into the record.
    The Chairman. Without objection, so ordered.
    [Column from the Washington Times may be found at end of 
hearing.]
    The Chairman. I just want to thank the gentleman for his 
comments, and I have not brainwashed him. I have not talked to 
him about this.
    This came from his own feelings. I happen to agree. This 
whole concept of landownership and the Federal Government is a 
socialist move, and I have not seen any Federal land make any 
money yet or support a local community or provide for schools 
or even set up an infrastructure, and yet the constant quest 
for more land is occurring.
    Even during my tenure, without my help, there was about 
35,000,000 acres that have been put in restrictive 
classification. I think that 837,000,000 acres are owned now by 
the Federal Government, and it does not include cities, it does 
not include any municipalities, and that is a huge chunk of 
land, and yet it has a brown thumb.
    Show me where the government has managed the land right. 
Show me where they have managed the parks right or even the 
Forest Service. The Forest Service is in the worst shape it has 
ever been in history, not because of logging, but because they 
have stopped managing. We will let God take care of it all and 
Mother Nature, and by the way, they are very cruel taskmasters.
    I just want to thank the gentleman for his statement. At 
this time, if the lady is not too busy down there, Madame 
Chairman, would you mind taking over this chair for me?
    Mr. Tauzin. Would the gentleman yield before you leave on a 
point of personal privilege?
    The Chairman. Yes, go ahead.
    Mr. Tauzin. I just wanted to congratulate the Chairman on 
his tabasco tie. When you are hot, you are hot.
    The Chairman. The reason he is saying that, under our gift 
rules, we can't accept gifts at all, and the gentleman 
contributed this to me, and from one member to another member, 
you can offer little recognitions. This comes from his 
district, so it is tabasco, and I do thank you.
    Mrs. Chenoweth.
    Mrs. Chenoweth. [presiding] The chair now recognizes the 
gentleman from Pennsylvania, Mr. Peterson, for 5 minutes.
    Mr. Peterson. Thank you, Madame Chairman. I find this 
hearing very interesting today.
    As I was running for Congress, I had people coming to me 
and telling me that we now had to fight the world influence on 
how our parks were being managed and the land around them was 
being used, and I absolutely did not believe them. I absolutely 
thought they were erroneous in their comments.
    Since then, I have found out they were not. They were 
accurate. That is not well known out in the public.
    I come from the most rural part of Pennsylvania, the most 
rural district east of the Mississippi, and I find it, I guess, 
a little alarming--a lot alarming. In my district, people do 
not trust the Federal Government. They do not feel they are 
reasonable. They do not feel they have adequate access to 
decisions that are being made by administrations and Federal 
bureaucracies.
    If the general public understood that they now have to 
react to and be affected by world organizations on how our 
private property is going to be used, I think the potential for 
a rebellion is out there. People will not take kindly to that, 
and I don't blame them.
    I find it interesting that we are at a point in time when 
we have a Federal Government who I think has run roughshod over 
property rights and people are starting to fight back. States 
are starting to fight back, and now, we suddenly realize that 
we have world organizations having impact.
    As has been shared here today and in each of these 
hearings, they avoided any public process or any public input 
from those affected, and that is so far to the left of what 
America is all about. I thought it was fantasy when I was first 
confronted with this issue, but it is not.
    I find it also interesting that just a few weeks ago, I 
have a company in my district, and this is veering from the 
issue a little bit, but it shows you the ever-reaching hand of 
the Federal Government.
    This company went to a conference, and this is a very good 
company, a small company but growing, and found out there was a 
form that they should have been filling out and sending to EPA 
annually, a simple report of a product they handled. They 
immediately went back, called the agency, got the form, filled 
it out retroactively since they had been using that product, 
were instantly given an $87,000 fine, and up to this date, we 
have been unable to help them with that $87,000 fine, when they 
reported themselves for not filling out a form.
    That is a pretty hard over-reaching Federal Government in 
my view, and when you multiply that into the issue that we are 
dealing with, I guess I would like to ask the panelists.
    I want to thank all of you for coming, but is there any 
positive or real need for a world organization having input 
when we don't really have state and Federal Government working 
as a team?
    Can you think of any positive influence that if we can't 
get the states and the Federal Government on track, if we let 
the world come in and tell us how to run our private land--does 
that make any sense at all?
    Mr. Vogel. Congressman, no, it makes no sense at all to me. 
As a matter of fact, I think it is not well known that many 
local units of government in recent years have recognized their 
responsibilities to change the ways they do things, to improve 
their planning processes, to recognize their responsibility to 
the environment, and that is part of the reason that I alluded 
to a moment ago about the ten-county joint powers board.
    The title of that board is Northern Counties Land Use 
Coordinating Board. Their purpose is to do better planning, to 
recognize the relationship between a good environment and the 
place where people live and thrive and work. We are seeing that 
kind of thing occurring all across, at least our region in 
northern Minnesota, where folks are taking very seriously, and 
local elected officials are taking very seriously their 
responsibility to the environment and are improving that 
environment significantly.
    We see no reason for this kind of intervention that you 
describe.
    Mr. Peterson. Mr. Childers.
    Mr. Childers. I see no advantage of them coming to the 
United States when some of the people that were on the 
committee, such as from Germany, and you hear about the horror 
stories in East Germany, environmental horror stories.
    It seems to me they ought to be approaching those countries 
and working with them. If the countries are not receptive to 
improving the environment, then possibly a committee such as 
this would come in, but as I mentioned earlier, the United 
States has the most stringent environmental laws in the world, 
and we are doing our part to improve the environment.
    If you have ever been through the environmental impact 
statement process, NEPA, you can rest assured that it is a very 
strict process. I see no reason.
    Ms. James. Just briefly, I can say that we do have some 
international organizations for peace, and we have lots of 
international organizations that are private organizations 
which have different functions, but I see absolutely no use for 
any kind of a international organization to manage our land and 
our people and our resources that are within our borders.
    I think that is the problem that we have here, and we ought 
to be sure that we have congressional action before any of 
these decisions are made.
    Mr. Peterson. I thank you all very much for coming. I 
congratulate the chairman who has left for raising this issue. 
I am not sure his bill goes far enough, but it is certainly a 
step in the right direction.
    Mrs. Chenoweth. Thank you, Mr. Peterson. The chair 
recognizes the gentleman from California, Mr. Pombo.
    Mr. Pombo. Thank you. Mr. Childers, you talked about the 
public hearing or the hearing that was held in your area that 
you testified at. What was the hearing on, what was the purpose 
of the hearing?
    Mr. Childers. The purpose of the hearing was to determine 
if Yellowstone National Park and a buffer zone around the park 
which is basically all the national forests that are adjacent 
to the park, Idaho, Montana, and Wyoming, should be considered 
as a buffer zone.
    One of the reasons that, at least, was advertised in the 
newspaper was that it was to consider the New World Mine and a 
possible buffer zone, but the other activities that were 
brought up in the letter from the environmental community to 
the World Heritage Committee were not mentioned to the general 
public.
    Mr. Pombo. And that is the list you have here on tourism, 
population, road building, timber harvests? Those were some of 
the other issues that were discussed at the hearing?
    Mr. Childers. Yes, sir, that is correct. In the letter that 
the environmental community sent to the World Heritage 
Committee, those problems, so-called problems, were brought up 
and testimony was received on that, but it was not widely 
advertised in the proposal for the public hearings.
    Mr. Pombo. You state in your testimony that the Department 
of Interior, I believe it was George Frampton, had sent a 
letter encouraging the area be declared a World Heritage Site 
in Danger. In danger of what?
    Mr. Childers. In danger from the activities from not only 
the mine but the other activities. He supported what the 
environmental community----
    Mr. Pombo. So our government was asking for an 
international designation that the site was in danger from 
activities, human activities in the area?
    Mr. Childers. Yes, sir, that is correct.
    Mr. Pombo. And was it--I don't know if you can answer this 
or not, but is it their opinion that our laws were not 
sufficient to protect the site from environmental damage, so 
therefore, they were going to an international body?
    Mr. Childers. I can't answer how they were feeling. It was 
flabbergasting that they were proposing that, at least, on the 
mine site before the environmental impact statement was 
complete.
    Mr. Pombo. It would appear to me that with all of the 
environmental laws that we have in this country to protect the 
environment, that once we went through the environmental impact 
statement and let science determine whether or not there was a 
danger that there would be the path that we would take and not 
go beyond Congress, not go beyond our laws, but go to an 
international body.
    I am trying to figure out what they were trying to 
accomplish by sending a letter supporting naming the area in 
danger.
    Mr. Childers. My opinion is that it was simply to influence 
the EIS process.
    Mr. Pombo. To influence an internal process, to influence 
the environmental impact statement?
    Mr. Childers. Yes, sir. Part of it, according to the 
committee guidelines, if that was accepted and the state party, 
the United States, started implementing what the World Heritage 
Committee recommended, there would be severe restrictions on 
the use of the Forest Service lands bordering the park, and 
that would be avoiding the NEPA process as required by law on 
what the use of those lands would allow.
     Mr. Pombo. So it is your opinion that they were using this 
process to influence U.S. law or the United States process, an 
internal process; they were using the international designation 
to influence our laws, or not necessarily our laws, but the 
process.
    Mr. Childers. I think it goes further than that, 
Congressman. I think it was to actually circumvent the law with 
the treaty.
    The way I understand the treaty, they would be required to 
address what the treaty was between the state party, the United 
States, and the United Nations or UNESCO, and if they addressed 
that, they would more or less bypass our U.S. laws and place 
restrictions on those lands under that treaty rather than going 
by the NEPA process where there is a proper evaluation.
    Mr. Pombo. There is one more question I wanted to ask you 
on that. I know my time is up, but you say in your written 
statement that the Park Service was involved with the selection 
process of who was going to testify at this particular hearing?
    Mr. Childers. You called the Park Service to offer your 
testimony, to get permission to come and testify before the 
committee. Now, who all was involved in the final selection 
process, I am not sure, but it was a Park Service 
representative that was asking the questions and taking the 
answers.
    Mr. Pombo. So if you wanted to testify, you called the Park 
Service?
    Mr. Childers. The Park Service in Yellowstone, in Mammoth. 
That is correct.
    Mr. Pombo. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Pombo. Mr. Doolittle, I 
apologize for overlooking you in the transition to the chair.
    Mr. Doolittle. That is all right, Madame Chairman. I just 
wanted to get a couple questions in before we go to the vote.
    Sir, you refer to this as a treaty, and it is my 
understanding this is not a treaty. This is merely an executive 
agreement which is something less than a treaty.
    Is that your understanding?
    Mr. Childers. In my understanding, it was a treaty, but if 
I am mistaken, I misread the heading of it.
    Mr. Doolittle. As I understand it, a treaty must be 
ratified by the U.S. Senate, and that, I do not believe, has 
occurred in this case.
    We are a participant in the Convention on World Heritage, 
of which Yellowstone is one.
    From my law school days, it seems to me that a treaty is 
paramount over the laws of the United States, but less than the 
Constitution. I wish we had a constitutional lawyer out here, 
because I think we have to get to the bottom of this.
    We have a volunteer who says they are on the same level. 
You mean an agreement and a treaty or the laws and the treaty? 
The problem is that we don't have anybody here who is 
officially designated as a witness, but I would submit it goes 
right to the heart of the matter.
    Where you have one supreme law of the land in conflict with 
another supreme law of the land, we need to find out which is 
the supreme of the supremes.
    This bill by Mr. Young is a very interesting bill to read, 
because you will get a lot of feel for it just by reading it. 
It appears to me that the executive branch of our government is 
actively working with the international bodies to impose its 
will upon this land and really circumventing the Congress.
    Let me just ask, you three witnesses represent three 
different jurisdictions that potentially could bring suit and 
try and get it to the Supreme Court to try and challenge these 
actions; have you considered taking this action?
    Ms. James. If I could respond to that, we discussed that, 
but we think maybe this bill works a little faster.
    I wanted to make the point that the Biosphere Reserve 
issue, which also includes the Yellowstone National Park, is 
the real problem that came from this New World Mine site 
because of the buffer zones. There are no buffer zones around 
World Heritage Sites.
    There are buffer zones around Biosphere Reserves. That 
agreement has never been ratified. That is a convention that 
has never been--and the Senate has refused to ratify it, so we 
even have a more serious problem in Yellowstone than the fact 
that there is a treaty and whether or not it has the force of 
law of our constitution.
    Mr. Doolittle. Let me just say that there is a great chance 
then to strike and file a suit on it. I think we should support 
this bill, but I think you ought to get a suit going----
    Ms. James. I agree.
    Mr. Doolittle. [continuing] challenging this, and yes, that 
is going to take some time, but this--obviously, when you read 
this bill or you look at a map and you see things called 
Biosphere Re-

serves, you discover that there is a lot of internationalism 
that has gone on here that most of us haven't been aware of.
    Ms. James. I agree, and I would hope that we can find 
enough people that would be interested to do that, because it 
is a serious concern.
    Mr. Doolittle. It is indeed, and I thank our witnesses for 
appearing, and I thank you, Madame Chairman.
    Mrs. Chenoweth. Thank you, Mr. Doolittle. The chair has 
some questions for you, but we have two bells followed by five 
bells, which means we have four votes up.
    Mr. Doolittle, there is a 15-minute vote, and it will be 
followed by three 5-minute votes, so if I can still add 
correctly, I think we should recess until quarter to 3, but I 
would like this panel to return for my questioning.
    [Recess]
    Mrs. Chenoweth. The committee will come to order. I just 
had a couple of questions that I wanted to ask of Mr. Childers.
    Do you know if they ever finished the EIS on the New World 
Mine?
    Mr. Childers. I have never seen the document. I understand 
there is a draft environmental impact statement that has been 
printed. It was never distributed.
    That would be one thing that I would say that this World 
Heritage Committee hearing did, is it stopped the environmental 
impact statement. It would be nice to at least know whether 
there was a problem or not. It should be released.
    Mrs. Chenoweth. Also, Representative Childers, you had 
mentioned that you had to be very careful about how you 
testified, and if I understood your answer, you had to be 
careful about what you said so that you would be asked to 
testify.
    There were only two of you who testified for private 
property rights and against this proposal?
    Mr. Childers. Yes, madame. If we said we were for the mine, 
I seriously doubt if we would have been asked to testify.
    Mrs. Chenoweth. Was the testimony and the hearing open? Was 
there public notice? What kind of audience was there?
    Mr. Childers. The audience consisted of the news media, a 
lot of the environmental community, mining people. I really 
thought that it was flabbergasting.
    My testimony was on Monday, September 11. I called the 
Governor of Wyoming and asked him if he was aware that the 
input being received on this program went far beyond the New 
World Mine, that it was concerning tourism, et cetera, and he 
was not aware that the program was going beyond the mine.
    He has since found out that the Department of Environmental 
Quality was notified about the program, but it was a vague 
reference of what the program was going to cover. The DEQ and 
the State of Wyoming were involved somewhat in the process, 
because the waters do flow into the State of Wyoming.
    Mrs. Chenoweth. Who was the entity that called the hearing?
    Mr. Childers. The press release came from the National Park 
Service in Yellowstone Park.
    Mrs. Chenoweth. Who were the hearing officers? Who did you 
testify in front of?
    Mr. Childers. A Park Service employee was the moderator for 
the hearing.
    Mrs. Chenoweth. So there were no hearing officers; there 
was a moderator.
    Mr. Childers. Other than a moderator, no, madame. The 
committee itself receiving input asked the questions and so 
forth.
    Mrs. Chenoweth. Was there ever an expression from the 
National Park Service as to how they felt about open public 
opinion or involving the public?
    Mr. Childers. The park superintendent, when he was 
summarizing, said he was pleased with all the input that he 
received from everybody with the exception that he wasn't too 
pleased with our input.
    Mrs. Chenoweth. Thank you, Representative Childers. 
Representative James, thank you so much for coming so far. Mr. 
Vogel, thank you. You have come a long way, too. All of you 
have, and I appreciate you very much.
    With that, we will call the second panel, and there will be 
four on this panel, and because two people have planes to 
catch, I would like to call Steve Lindsey and Denis Galvin, 
Betty Beaver, and Dr. Jeremy Rabkin.
    Denis Galvin is the Acting Deputy Director of the National 
Park Service from the U.S. Department of Interior here in 
Washington, DC. Mr. Lindsey is from Canelo, Arizona. Betty Ann 
Beaver is from Hot Springs, Arkansas, with the Take Back 
Arkansas organization; and Dr. Jeremy Rabkin is Associate 
Professor, Cornell University, Ithaca, New York.
    I would like to begin the testimony with Mr. Lindsey.

          STATEMENT OF STEVE LINDSEY, CANELO, ARIZONA

    Mr. Lindsey. Thank you, madame. I do appreciate the chance 
to get here, and it is a good thing I took an airplane from 
Canelo, because I don't know if there is a road that goes this 
far.
    I am not really educated. I am not a lobbyist at all. My 
name is Steve Lindsey, and I am from Canelo, Arizona. I am a 
fifth generation rancher. I don't really have anything 
prepared, but I am just going to talk to you from my heart and 
what we feel, where we are right now on the land.
    Like I said, I really appreciate the chance to come to 
Congress and stand here. My family has been in southern Arizona 
on that ranch in southern Arizona. They settled there in 1866 
or 1867, somewhere in there.
    My great-great-grandfather, he homesteaded up there in what 
is now Parker Canyon. He was a Parker and my grandma was a 
Parker.
    My great-grandfather then homesteaded in Canelo, Arizona, 
on the Turkey Creek, which is about ten miles from where his 
father homesteaded, and then acquired another homestead in 
1923. He got that first homestead in 1910. He started running 
cattle there in 1910, and we have been running a successful 
cattle operation ever since then on that same piece of property 
on Turkey Creek, 87 years, five generations on that piece of 
property.
    That sure speaks a lot for how we have been doing and what 
we have been able to accomplish on that property, and we are 
still running a good, successful cattle operation.
    The ESA, Endangered Species Act, they listed a species that 
grows on our property, the Canelo Hills ladies tresses. We are 
the Canelo in the Canelo Hills ladies tresses.
    They listed that as endangered on January 6, 1997. It went 
through after much public outcry and there was absolutely no 
scientific data, but they went ahead and did it, and we 
accepted that.
    Then February 1, 1997, we received word that an extreme 
prohibitionist outfit there wanted to list us under the Ramsar 
Treaty, and that is why I am here. The Ramsar Treaty is a 
little known wetlands treaty signed in 1971 in Ramsar, Iran, 
and doesn't that give you a warm fuzzy, but it was aimed at 
protecting wetlands worldwide, and I would like to quote here 
from this paper.
    It says, ``By protecting these Arizona wetlands through the 
Ramsar convention, we get international oversight, and that is 
exactly what the developers don't want,'' said Kieran Suckling, 
Executive Director of the Southwest Center for Biological 
Diversity. The coalition also includes the Southwest Forest 
Alliance. Suckling contends that wetlands, especially the few 
remaining sites in the desert southwest are being 
systematically drained or polluted by urban sprawl, mining, 
livestock grazing and timber cutting.''
    We are the No. 10 on that map that you have in that 
testimony, Turkey Creek--Turkey Cienega, they state there. That 
is our private property.
    As I said, we have been raising cattle there for 87 years. 
The Ramsar Convention is not yet covered in H.R. 901, and what 
we desire is for that bill, H.R. 901, to now cover that Ramsar 
Convention.
    We do not believe as a family that we need that 
international oversight. We do not need that global oversight 
as it states in this paper. We have been doing a good enough 
job the past five generations. I am raising the sixth 
generation.
    If we do get this international oversight, if we do lose 
that land, then my children have no inheritance and that really 
bothers me.
    Again, I thank you for letting me come.
    [The prepared statement of Steve Lindsey may be found at 
end of hearing.]
    Mrs. Chenoweth. I appreciate you very much, Mr. Lindsey for 
being here. Thank you very much.
    The chair now recognizes Mr. Denis Galvin of the Department 
of Interior.

  STATEMENT OF DENIS P. GALVIN, ACTING DEPUTY DIRECTOR OF THE 
                     NATIONAL PARK SERVICE

    Mr. Galvin. Thank you, Madame Chairwoman. I have a prepared 
statement that I will submit for the record and simply 
summarize the statement.
    It is our view that this legislation would impose 
inappropriate and unwise restrictions on the ability of Federal 
agencies to work cooperatively with states and other levels of 
government to achieve the benefits of international recognition 
for U.S. conservation and research sites.
    We strongly oppose this bill, and if this legislation 
passes Congress, we will recommend that the President veto it.
    The Administration does not have the authority nor the 
intention of ceding sovereignty over U.S. lands to 
international organizations, nor have the five previous 
Administrations, both Republican and Democratic, which have 
participated enthusiastically in the international conservation 
agreements targeted by this bill.
    H.R. 901 is an attempt to fix alleged problems which do not 
exist. It is not a sovereignty issue.
    Many of these lands have been preserved by law in the 
United States as national parks through acts of Congress. They 
include, to name a few, our first national park, Yellowstone; 
the complex cave and karst system of Mammoth Cave, and the 
Indian cliff dwellings at Mesa Verde.
    These international agreements have in no way been utilized 
to exclude Congress--in fact, World Heritage has been 
authorized by Congress, from land management decisions, nor do 
they have the ability to do so. The nomination processes are 
generally consultative, and are usually based on demonstrated 
initiative and commitment at the local level.
    International site recognitions defer land use decisions to 
the management entity within the nation, subject to the 
domestic laws in place, and they do not add any legal 
restrictions on land use. The United Nations does not have any 
authority to dictate Federal land management decisions.
    International site recognitions do not restrict land use or 
stop economic growth. On the contrary, many local areas see 
them as value-added designations. They provide opportunities 
for increased partnership and mutual benefit.
    Earlier, there was considerable discussion about the 
listing of Yellowstone Park as a World Heritage Site in Danger. 
Listing of a World Heritage Site in Danger has no legal 
implications on the domestic management of the site, and as 
several of the previous witnesses have pointed out, it was not 
just the New World Mine issue that resulted in that 
designation. There were also visitor use issues. There were 
exotic species issues, and the well publicized brucellosis and 
bison issues, and my testimony goes into that in some detail, 
Madame Chairwoman.
    With respect to the discussion of buffer zones, virtually 
all of the designations in both World Heritage sites, which are 
authorized by law and then biosphere reserves, which are 
authorized under an executive agreement, are confined to the 
boundaries of existing protected areas.
    For instance, the boundary of the World Heritage Site at 
Yellowstone is synonymous with the existing boundary of 
Yellowstone National Park.
    In one instance in the National Park system, Mammoth Cave, 
the boundary of the Man and the Biosphere site is larger than 
the boundaries of the park. That was because of local 
initiative. Local authority wanted a larger boundary so they 
could use it to clean up polluted water.
    The Congressional Research Service said in its May 3, 1996, 
report on the World Heritage Convention and U.S. National 
Parks, the Convention has no rule or authority beyond listing 
sites and of-

fering technical advice and assistance. The solicitor of the 
Department of Interior wrote on March 20, 1996, ``In our view, 
this obligation is discharged entirely within the framework of 
the appropriate U.S. and state laws.''
    Biosphere Reserves established in connection with UNESCO's 
Man and the Biosphere program similarly admit no international 
control of U.S. lands.
    The Convention on World Heritage, a foreign policy 
initiative of the Nixon Administration, has been a cornerstone 
of U.S. national and environmental policy for nearly a quarter 
of a century. In fact, the United States was the first 
signatory in 1972. It has benefited parks and adjacent 
communities. The widespread international acceptance of these 
designations is a continuous advertisement of America's 
prestige and global influence.
    Other World Heritage Sites internationally include the Taj 
Mahal, the Great Wall of China, the Serengeti Plain, and 
Vatican City. Additional information is contained in my 
prepared testimony.
    Madame Chairwoman, I see that my 5 minutes is up, and I 
will be glad to answer any questions the subcommittee has.
    [The prepared statement of Denis P. Galvin may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Galvin. The chair recognizes 
Mrs. Betty Beaver.

      STATEMENT OF BETTY ANN BEAVER, HOT SPRINGS, ARKANSAS

    Mrs. Beaver. Good afternoon. It is an honor to be able to 
come and to address you today.
    I want to tell you that I have no hidden agenda. I do not 
work for anyone. No one paid my way to Washington.
    I came because a group of citizens in the State of Arkansas 
discovered that they were about to be included in a biosphere 
reserve.
    In 1989, it appears that people from Federal agencies and 
state agencies, without the knowledge of any elected officials 
as far as we can determine, decided this would be a good 
designation to have. They put together a feasibility study, and 
then they put together a draft. This was to be signed September 
of last year, in 1996.
    On August 20, a little lady went to church and found out 
that there was--someone was talking about this, and she 
endeavored to go to the Park Service to find out. After a 
period of time and a lot of struggle through several intense 
days, she received a copy of the feasibility study.
    Part of the pages were not there, and this brought her to 
be very curious when she found out that some were missing. She 
went back and got the rest of the pages and put it together, 
and we put together a book. If you have not seen a feasibility 
study for a biosphere reserve, there will be a copy in the 
Resources Committee office. I could not afford to make you 100 
copies of this book. I am sorry about that.
    I do have a copy of my testimony that is written that I 
hope will be in the record.
    I would like to answer a few of the questions about people 
knowing about this ahead of time. I have heard an awful lot 
today from very knowledgeable people stating that everybody 
knows about it, but the 2,500,000 people that would have been 
involved in this Ozark Biosphere Reserve, and over 55,000 
square miles of land in Missouri and Arkansas and possibly a 
corner of Oklahoma and Kansas and Illinois, and it states in 
the feasibility study that hopefully it will stretch all the 
way to Kentucky and to the sea and touch the land between the 
lakes. They just have to hop across the Mississippi to make 
that happen.
    That is all in this feasibility study. It will be there if 
you would like to read it and check the accuracy of my words.
    I would like to share with you just a few statements 
directly out of this book. On page 53, it states, and this is 
concerning the steering committee that was steering this thing 
through a sovereign state, ``With concurrence from the steering 
committee, the interviewer decided that public meetings would 
not be a part of the interview process because such meetings 
tend to polarize the views of the public and may capture 
negative attention from the press.'' Indeed, I would think that 
it would polarize the views when they find out that they are 
involved in this without any voice.
    Also, it states, ``Interviewees were chosen to target the 
kinds of individuals, organizations, businesses, and special 
interest groups whose cooperation would be crucial to a 
Biosphere Reserve project,'' and it goes on to state in here 
that areas of land that might not be as nice as others, and 
maybe there won't be such an outcry from the people. In other 
words, if you are backward, in a backward part of the country, 
possibly they can designate this and fool the people part of 
the time.
    I appeal to the Congress to take the reigns of government 
back firmly in your hand, to do indeed make the laws of this 
land. For our 55,000 square miles, and we have heard millions 
of acres discussed today, please, please, you decide, because 
we can elect you or not. We have no voice in agencies and State 
Department people that are appearing in our communities. We 
have no voice there. We only have a voice in the people's 
House.
    Please.
    [The prepared statement of Betty Ann Beaver may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Mrs. Beaver. The chair now 
recognizes Dr. Rabkin.

  STATEMENT OF JEREMY A. RABKIN, ASSOCIATE PROFESSOR, CORNELL 
                  UNIVERSITY, ITHACA, NEW YORK

    Mr. Rabkin. Thank you. I want to talk about the principle 
at stake in this, because I think there really is an important 
principle. People talk about sovereignty, and some people talk 
about it with great passion, and other people's eyes glaze 
over.
    Let me just give you quickly a hypothetical. Think about it 
in this way. Let us say that the President--a Republican 
president, a different president--says, ``Moral issues are very 
important; therefore, before any American cabinet department 
issues any regulations dealing with sexual matters, the family, 
abortion, birth control, any of those controversial issues, I 
am issuing a directive that they first consult the Pope in Rome 
and get his advice.''
    People would go berserk. Our friends in the ACLU would 
certainly go berserk, and if the President said in response, 
``No, no, no, it is just consultation, the Pope has no 
authority at all, don't worry, he has no authority, we are 
still sovereign''--they would still go berserk, because they 
would say, ``This is an outside authority, why is it being 
brought in?''
    It won't impress the ACLU if thye President says, ``No, no, 
we are going to broaden it. It won't just be the Pope; it will 
be the Archbishop of Canterbury, a few Ayatollahs in Iran, and 
the Chief Rabbi of Israel.'' They will still go berserk. They 
will say--rightly, I think--that the American people elect 
their government, the government should be accountable to the 
American people, and the government should not be bringing in 
foreign spiritual authorities.
    The only thing that is different about these programs, 
essentially, is that instead of religious authorities, we have 
150 other governments, and in fact, we do have the Vatican as 
was mentioned before, and the Vatican is there with 150 other 
governments.
    These governments are not talking about moral issues; they 
are talking about environmental issues. But essentially, there 
is the same objection--which is that we are a sovereign 
country. Our government should be accountable to our people and 
should not be bringing in foreign authorities and parading them 
around as if they have some important say-so about what the 
American people do with their own resources in this country.
    I really think the principle is serious, and if it had been 
about religious authorities rather than international 
authorities, people would just expect that it would go to the 
Supreme Court and advocacy groups wouldn't say, ``Don't get 
excited, calm down.'' Instead they would say, ``Oh, yes, of 
course, this is an important principle, let us litigate it.''
    This is an important principle and if people are not ready 
to litigate it, I think it is fine that Congress asserts the 
principle. But let me just quickly mention what I think are 
also some practical considerations.
    The real problem here is not that these international 
authorities are so overbearing. It is actually that they are so 
weak and so loose that they are easily manipulated, and I think 
that there is a good deal of evidence that--particularly 
regarding the World Heritage Committee--is very politicized and 
very easily manipulated. What I am concerned about and what I 
think the Yellowstone affair illustrates is not that 
international authority would be manipulated against the United 
States, but that it would be manipulated by the United States, 
and then presented to the citizens of the United States as an 
independent international ruling.
    The government may then say, ``Gosh, this international 
authority told us we have to.'' That is essentially what 
happened in the Yellowstone affair, and I think there is 
evidence that this goes on in a systematic way.
    Before I finish, let me cite you two statistics that I 
think are very telling. There are 506 sites around the world 
listed as World Heritage Sites. Eighty percent of them around 
the world are cultural sites. They are historic buildings, 
works of art, some man-made monument. Only a minority of the 
sites, only 20 percent of them, if you take a global inventory, 
are natural areas, scenic areas, like wilderness preserves.
    In the United States, it is almost exactly the reverse. The 
overwhelming majority of the American sites are scenic areas. 
So the United States has a completely different set of 
priorities in the international listing, and that is clearly 
because we are nominating natural areas such as national parks, 
like Yellowstone, and not historic buildings, at least not to 
the same extent that other countries do.
    Why is that? I think it is pretty clear. That is our 
priority, and whose priority is it really? I think the priority 
of environmental advocacy groups, such as those involved in the 
dispute about mining near Yellowstone Park.
    One other figure that is really striking, there are 22 
sites listed as being ``in danger.'' Of those 22 sites which 
the World Heritage Committee has recognized as being threatened 
by some decay or degradation, two of them are in the United 
States--virtually 10 percent of them.
    If you look at where the other sites are, they are in 
really wretchedly poor, miserable countries. They are in 
countries that have recently experienced civil war, epidemics, 
massive floods, or some other natural disaster. They are in 
countries which are basically a kind of ``Who's Who'' of 
international charity cases. There is no other Western country, 
there is no other First World country, there is no other 
developed country which has a site on this list.
    How is it possible that the United States is in the same 
category as Bulgaria or Benin in terns of taking care of its 
World Heritage Sites? I think the only explanation can be that 
the United States is eagerly going to this committee saying, 
``Put us on the list, put us on the list.''
    This is not an impartial international judgment. This is a 
committee that is manipulated, and if we have time, I can give 
you other evidence indicating that is so.
    I think it is very reasonable of Congress to put its foot 
down and say we don't want to be involved in this, and 
certainly, we don't want to be involved in this without 
congressional say-so, case-by-case.
    Thank you.
    [The prepared statement of Jeremy A. Rabkin may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Dr. Rabkin. The chair recognizes 
the gentleman from Colorado, Mr. Schaffer.
    Mr. Schaffer. Thank you, Madame Chairman. I have a couple 
questions for Mr. Galvin.
    I would like you to comment on this New World Mine up in 
Montana and the relationship that it has to any of these 
international agreements that you may be aware of.
    Mr. Galvin. The New World Mine was on--the environmental 
impact statement that has been mentioned previously was being 
done by the Forest Service because the Forest Service and 
Bureau of Land Management had to issue the permits to allow the 
New World Mine development to go forward. It was not a 
development that was going forward at the time.
    It was very controversial. One of the earlier witnesses 
mentioned the fact that one of the effects of the World 
Heritage listing as in danger was on public opinion, and 
indeed, I believe that is an accurate observation.
    But it was not absent public opinion in the first place pro 
and con for the mine. It was a controversial issue.
    The reason the environment impact statement was stopped was 
because of an agreement between the mine operator and the U.S. 
Government that the U.S. Government would buy out their 
interest, thus preventing the mine development.
    Mr. Schaffer. Let me interrupt you there and ask, was there 
any relationship between any of these international agreements 
and the decision that the United States made to purchase the 
mine?
    Mr. Galvin. Only as it affects public opinion, and with 
respect to the negotiations, the negotiations actually started 
out, to be perfectly accurate, as a land exchange for the 
rights contained at the New World Mine. Those negotiations had 
started before the World Heritage Committee came to 
Yellowstone.
    Mr. Schaffer. The answer is--you said there seemed to be a 
relationship. I am not clear what it means when you say the 
relationship is only as it relates to public opinion.
    Can you clarify that?
    Mr. Galvin. There was no legal relationship between the 
decision on New World Mine and the World Heritage designation, 
no sovereignty question.
    The ultimate solution for the New World Mine proposed by 
the Administration was done entirely within the framework of 
U.S. law.
    Mr. Schaffer. Mr. Rabkin, you seem to be familiar based on 
the report from the staff and I know nothing of it other than 
your name is on the cover.
    Mr. Rabkin. I wrote it.
    Mr. Schaffer. Do you have anything to add to the questions 
I just raised about the relationship between these 
international agreements and the government's motivation to 
purchase this mine?
    Mr. Rabkin. This is true of most international agreements 
that they don't have direct effect in domestic law. 
Nonetheless, we are constantly being told that we have to do 
this because we promised in an international agreement, and we 
have to do that, because we promised in an international 
agreement.
    I think it is silly to say that because it doesn't go 
directly into U.S. law, an agreement has no meaning. An 
agreement is a promise by the United States to live up to 
certain standards, although, if you go back and actually look 
at the language of this particular treaty, it is rather 
ambiguous.
    The gist of it does seem to be that we take seriously our 
obligation to protect these sites, and that we agree to submit 
them to the scrutiny of this international committee. The 
implication is that we agree to do what they tell us to do. We 
are not absolutely required, but certainly, we have committed 
ourselves at least to take very, very seriously what they tell 
us to do. You can say, yes, the international committee is just 
an appeal to public opinion here, but I wouldn't say just 
public opinion.
    It is rather important when you present it to the public 
that an international authority has required us to do it or 
asked us to do it.
    Mr. Galvin. Just to set the record straight, the World 
Heritage body did not ask us to buy the New World Mine. They 
concentrated on water pollution issues, visitation issues.
    Mr. Schaffer. Mr. Galvin, let me ask you, you mentioned 
with the case of the Mammoth Cave land in Kentucky that--was 
this a biosphere reserve?
    Mr. Galvin. Yes, that is a biosphere reserve, sir.
    Mr. Schaffer. You said it exceeded the park boundaries----
    Mr. Galvin. Yes, it does.
    Mr. Schaffer. [continuing] but that was with the consent of 
the local--somebody, I don't know----
    Mr. Galvin. Right, actually, the Barren River area 
development district supported the enlargement of the boundary. 
I have a letter I can submit for the record here dated August 
29, 1996, that supports the notion that--I will just quote from 
it. ``We have never been able to do this, that is, get all 
these organizations that were involved in cleaning up that 
watershed together until we received the Biosphere Reserve 
designation.''
    Mr. Schaffer. Let me ask you, did that group include the 
property owners?
    Mr. Galvin. I will read out who it is. Certainly, property 
owners were affected by the solutions, because this got into 
putting sewer lines in, cleaning up pollution in Mammoth Cave, 
but the actual organizations cited in the letter are the 
National Park Service, the Army Corps of Engineers, the state 
Transportation Cabinet, Western Kentucky University Research 
Facility, and our area's chief locally elected officials.
    Mr. Schaffer. No property owners that you are aware of?
    Mr. Galvin. Well, no. They are not mentioned in the letter, 
but chief locally elected officials are, and private property 
owners were affected in the sense that the water pollution 
issues----
    Mr. Schaffer. With all due respect, the local elected 
officials don't own the land in this case. It is the property 
owners that I am most concerned about.
    Mr. Galvin. The problem here is a water pollution problem 
that required a large scale solution. It did not take anybody's 
property.
    Mr. Schaffer. But the question is, who owns the land?
    Mr. Galvin. Well----
    Mr. Schaffer. This could be a fundamental disagreement 
between----
    Mr. Galvin. Well, there is a lot of different kinds----
    Mr. Schaffer. [continuing] Congress and the White House.
    Mr. Galvin. [continuing] of ownership there, but private 
property, I don't know that private properties were within the 
boundaries of the Biosphere Reserve here. It is unusual for it 
to be that way, by the way.
    Mr. Schaffer. Thank you, Madame Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. The chair 
recognizes Mrs. Smith from Washington.
    Mrs. Smith. Thank you, Madame Chair. Mr. Lindsey, I will 
first state that I have been ever concerned about the way the 
agencies have treated individuals.
    In my state there have been several instances where 
individuals find out later that they were a part of 
consideration and not able to represent themselves in private 
property decisions.
    With that in mind, I didn't hear and have not read all your 
testimony, so this might be redundant. How did you first learn 
of the environmental group and how they had filed a petition 
against you? Who notified you of this, that you were nominated, 
actually?
    Mr. Lindsey. Madame, a friend of ours sent us an article 
out of the Republic, the Arizona Republic. It is a Phoenix 
newspaper, February 1, 1997.
    Mrs. Smith. So you weren't officially notified in any way 
that your property was going to be nominated as this wetland?
    Mr. Lindsey. No, madame, in no way.
    Mrs. Smith. Could you tell by that how long that process 
had been going on before you found out you were chosen?
     Mr. Lindsey. I have no idea, madame. I am sorry, I have no 
idea.
    Mrs. Smith. I just came across one in my area that they had 
been setting up for a long time to decide that there was going 
to be a trail head that encompassed these people's property, 
and they really didn't just tell them to the end, they didn't 
want to, but they had designated and planned for some time to 
take their property.
    Unfortunately, it didn't give them much of a chance to 
fight or even have their voice heard, because they were just 
had by the time it was all organized.
    That is as a big a concern that there is no due process.
    Mr. Galvin, would you be able to comment on that, why he 
would read it in the paper that his property was going to be 
basically confiscated for wetland, which means he couldn't use 
it?
    Mr. Galvin. I am just simply unfamiliar--you mean in Mr. 
Lindsey's case or in the case you talked about?
    Mrs. Smith. Yes, for Mr. Lindsey's case.
    Mr. Galvin. I just am not familiar with----
    Mrs. Smith. Why he read it in the paper as a----
    Mr. Galvin. I would offer that that is obviously very bad 
practice. I am not--I just simply am unaware of that case, of 
the listing or the designation.
    I would be glad to provide something for the record.
    Mrs. Smith. I would be very interested in it.
    The thing that always troubles me is, when there is an 
environmental impact statement, when I do one for property or 
we do one in our community, it is done over a period of time 
with public hearings. So much of that includes economic impacts 
to the community as well.
    Was there an economic impact to the ranching? It appears to 
me ranching would be a thing of the past if that was 
designated. You couldn't really use your property.
    Was there any impact statement on that?
    Mr. Lindsey. Not that I am aware of, madame. Not that I am 
aware of.
    Mrs. Smith. So that was not a consideration at all, the 
loss of income or the ability to manage your own property?
    Mr. Lindsey. No, madame.
    Mrs. Smith. Mr. Galvin, now this probably has a legitimate 
purpose, but I still haven't figured out why a meeting that you 
were holding or was being held on the Florida Everglades was 
held in Maine.
    Mr. Galvin. Held in?
    Mrs. Smith. Held in Maine. Now, this is just a news report, 
and I will say to those on my right at the table, news is not 
always accurate. Somebody might have written this and it isn't 
true, but a news report on the U.S. Man and the Biosphere 
program, according to the report, says the program has funded a 
grant concerning the restoration of the Florida Everglades.
    Now, this is in Florida, and the meeting is called to be at 
a resort in Maine. Can you give me some idea of how that has 
relevance to anything connected to Florida? Why would you have 
an overall meeting on the Florida Everglades in Maine?
    Mr. Galvin. Actually, I am not familiar with the meeting, 
but let me suggest this, that the U.S. MAB group probably meets 
fairly regularly at different locations in the United States.
    Since Everglades is a Biosphere Reserve, perhaps one of the 
agenda items on their meeting was the Everglades.
    Mrs. Smith. So this resort in Maine, maybe it was a more 
central location?
    Mr. Galvin. Not necessarily. It may have been just one 
location of a number that the U.S. MAB group meets at.
    Mrs. Smith. So there are national group meetings on the 
concern of the Florida Everglades which probably would mean the 
folks in Florida didn't have much to do with that meeting?
    Mr. Galvin. Well, if there are 47 Biosphere Reserves in the 
United States, and if the U.S. map committee meets on a regular 
basis, and a subsequent witness may be able to amplify that, 
then I would assume that they meet near some Biosphere 
Reserves, but far away from others.
    Mrs. Smith. That is probably the reason people feel so left 
out of it, that they don't feel that they are a part of the 
process. That might be part of it.
    Mr. Galvin. Well, there are requirements in World Heritage 
for public notification, and there are also requirements in Man 
and the Biosphere for local support.
    Mrs. Smith. It is awfully hard for the folks I know to go 
to Florida or Maine, if they are dealing with one on the West 
Coast. I guess what I am saying is that that might be the 
reason that so many people feel alienated or don't know what is 
happening, then when it hits them, they go----
    Mr. Galvin. I would agree with you. There should be good, 
local communication at the local level regarding these 
decisions.
    Mrs. Smith. Thank you.
    Mrs. Chenoweth. Thank you, Mrs. Smith. Dr. Rabkin, has 
Congress ever conferred power on the Department of Interior to 
acquire property under the Biosphere Reserve?
    Mr. Rabkin. No.
    Mrs. Chenoweth. Has the Biosphere Reserve ever been 
ratified? Has that treaty ever been ratified by the Senate?
    Mr. Rabkin. It isn't even a treaty. It has not been 
ratified by anybody. It is just an international venture in 
cooperation.
    Mrs. Chenoweth. Is there any umbrella of law that protects 
the agency or individuals operating inside the agency in moving 
ahead in this procedure?
    Mr. Rabkin. No.
    Mrs. Chenoweth. Have you ever heard of the Supreme Court 
decision, Bivins v. Six Unknown Agents?
    Mr. Rabkin. Yes.
    Mrs. Chenoweth. Do you think that that may apply here?
    Mr. Rabkin. If some official of the Interior Department 
went and tried to seize someone's land, yes, the landowner 
could sue under Bivins and have a lot of fun and maybe collect 
a lot of money.
    I would say more power to the landowner who did that, but I 
don't--let me just anticipate Mr. Galvin--I don't think the 
Interior Department is doing that, going out and seizing 
people's land.
    I think what people are worried about is that we are 
organizing a community of interest groups which is a very 
carefully selected community, including some local officials 
and perhaps some kinds of landowners and not others, and trying 
to orchestrate certain kinds of policies so that you use this 
program as a way of either encouraging or steamrolling local 
officials into making zoning changes and things like that.
    I don't think it is unreasonable for people to say, ``Whoa, 
wait, what is going on here? Why are Federal agencies 
coordinating local zoning changes, why are they doing this 
without any kind of statutory formula, without any involvement 
of Congress.'' I think it is reasonable for people to ask 
questions like that.
    Mrs. Chenoweth. Thank you. Thank you very much. Either Dr. 
Rabkin or Mr. Galvin, I would like to ask you, in Yellowstone 
National Park, the park itself is considered a World Heritage 
Site, right?
    Mr. Galvin. That is correct.
    Mrs. Chenoweth. And that treaty was ratified in 1952?
    Mr. Galvin. Nineteen seventy three.
    Mrs. Chenoweth. Nineteen seventy three. But outside the 
boundaries, the park itself and outside the boundaries is 
considered a Biosphere Reserve, right?
    Mr. Galvin. I believe some of the forest territory is 
included in the Biosphere Reserve.
    Mrs. Chenoweth. And the New World Mine was outside the 
boundaries of the Yellowstone National Park, correct?
    Mr. Galvin. That is correct.
    Mrs. Chenoweth. So under the Biosphere Reserve----
    Mr. Galvin. It was surrounded by forest.
    Mrs. Chenoweth. Under the Biosphere Reserve agreement, the 
New World Mine was seized, right?
    Mr. Galvin. No, that is not right. The New World Mine was--
the operator came to an agreement with the U.S. Government 
about either a land exchange or a purchase which is going 
forward.
    Mr. Rabkin. Could I just say a word about this?
    Mrs. Chenoweth. Yes.
    Mr. Rabkin. What Mr. Galvin said before was technically 
correct, that only the park itself is the World Heritage Site. 
But what got people upset--and I sympathize with them; I think 
it is upsetting--is that the World Heritage Committee came in 
and said although the park itself is the site, this mine which 
is outside the park--some three miles outside the park--is 
going to have an effect on the park, and since it is going to 
have an effect on the park, it is under our international 
jurisdiction.
    No, they don't have jurisdiction to seize it, they don't 
have jurisdiction to order anyone to do anything, but they did 
claim the authority to come and review it, to come and talk 
about it, and then to make a recommendation, which I would say 
was more than a recommendation.
    It was saying this mine is a danger to Yellowstone. They 
took it upon themselves to review what happens outside the 
site, and that is what is upsetting to people.
    We never said that we were submitting areas outside of 
Yellowstone to international supervision. Nonetheless, we had 
international supervision of an area outside Yellowstone Park.
    Mrs. Chenoweth. Were the operators the individuals who 
approached the government about having the government buy the 
mine?
    Mr. Galvin. I don't believe so. I believe the government 
approached them.
    Mrs. Chenoweth. Yeah. So you do change your testimony from 
your last statement?
    Mr. Galvin. No, I didn't change my testimony. I believe the 
word you used was seized. This is a transaction. They are 
getting consideration for the value of their mine. They agreed 
to it.
    Mrs. Chenoweth. Let me understand this a little better, Mr. 
Galvin.
    So the government comes in and stops the environmental 
impact statement, the process that is a lawful process on the 
expansion----
    Mr. Galvin. The government----
    Mrs. Chenoweth. [continuing] and development----
    Mr. Galvin. [continuing] approached the mine owners and 
struck a deal with them. Negotiated is the verb I would use.
    Mrs. Chenoweth. Well, is the operator the owner?
    Mr. Galvin. There is a question of title to the ground and 
title to the mining rights. The government worked with the 
people who own the mining rights.
    Mrs. Chenoweth. But there was another owner, wasn't there?
    Mr. Galvin. There is, I understand, another owner who has 
some legitimate title.
    Mrs. Chenoweth. And according to a national magazine, she 
was not dealt with and does not want to sell her mine.
    Mr. Galvin. That is what I have read in the press, not sell 
the mine, sell her interest. I believe the company owns the 
mineral interests.
    Mrs. Chenoweth. But you are not sure?
    Mr. Galvin. I can provide that.
    Mrs. Chenoweth. So if the owner of the mine owned the land 
and the mine was patented under her name----
    Mr. Galvin. I don't believe that is the case.
    Mrs. Chenoweth. Are you positive?
    Mr. Galvin. Clearly, the Canadian mine company has a 
property interest there. There is no dispute about that.
    There is another property interest here that needs to be 
dealt with, yes.
    Mrs. Chenoweth. So you had indicated there never was 
private property seized or taken?
    Mr. Galvin. That is right.
    Mrs. Chenoweth. And you still maintain it wasn't?
    Mr. Galvin. That is right. It is a negotiation and it was 
purchased or it is being purchased. It has not been purchased 
yet.
    Mrs. Chenoweth. How was the mine to be paid for?
    Mr. Galvin. How is it to be paid for? In the budget 
agreement, I believe there is an agreement that it will be paid 
for with land and water conservation funding.
    Mrs. Chenoweth. Is it not true that the first agreement 
with the operators, not the owner but the operators, was to pay 
$65,000,000 to a Canadian company out of the CRP funds that 
Congress had designated for CRP, not for mining interest?
    Mr. Galvin. I believe the initial agreement was for land 
exchange. The current budget agreement calls for land and water 
conservation funds to pay for it.
    Mrs. Chenoweth. Originally, it was to be paid for out of 
the CRP funds?
    Mr. Galvin. That could be. I am not aware of that.
    Mrs. Chenoweth. Yes, that is the case. Are you familiar 
with the UNESCO policy dealing with Biosphere Reserve called 
the Operational Guidelines for the Implementation of the World 
Heritage Convention?
    Mr. Galvin. Generally.
    Mrs. Chenoweth. Do you realize that their guidelines state, 
``In all cases as to maintain the objectivity of the evaluation 
process and to avoid possible embarrassment to those concerned, 
state parties,'' which means national parties, ``should refrain 
from giving undue publicity to the fact that a property has 
been nominated, inscription pending the final decision of the 
committee on the nomination in question. Participation of the 
local people in the nomination process is essential to make 
them feel a shared responsibility with the state party in the 
maintenance of this site, but should not prejudice future 
decisionmaking by the committee.''
    Mr. Galvin, do you know who the committee is? Do you know 
what countries are represented on the World Heritage Committee?
    Mr. Galvin. I don't know right now, no, but I know that the 
United States has chaired the committee.
    Mrs. Chenoweth. Did you know that the country of Benin and 
Red China and Cuba and Cyprus, Egypt, Lebanon, Morocco are all 
part of the committee?
    Mr. Galvin. And France, England, Germany, yes. It is indeed 
an international committee.
    Mrs. Chenoweth. And you still maintain after we have gone 
through this exercise of reviewing the process of how the New 
World Mine was going through the NEPA process was interrupted 
midway; money was to be taken out of an appropriated fund by 
the Congress, and you still maintain that nothing that has been 
done has ever bypassed congressional authority?
    Mr. Galvin. No, I am saying that what has been done is 
under existing congressional authority.
    Mrs. Chenoweth. And what would that existing authority be?
    Mr. Galvin. Section 401 of the National Historic 
Preservation Act recognizes and directs, in fact, the Secretary 
of Interior to participate in the World Heritage Convention, 
and in fact, H.R. 901 amends that act, so it--there is existing 
law for World Heritage. It is clear. This act we are 
considering amends the National Historic Preservation Act.
    Mrs. Chenoweth. Let me go back again. We are looking at 
Yellowstone National Park. The World Heritage area is within 
the boundaries of Yellowstone National Park.
    Mr. Galvin. That is correct.
    Mrs. Chenoweth. The mine was outside the boundaries and it 
is under the Biosphere Reserve agreement, which has never been 
ratified by Congress.
    Mr. Galvin, do you still maintain that this is not going 
outside the authority of Congress?
    Mr. Galvin. Yes, I do.
    Mrs. Chenoweth. Would you like to----
    Mr. Galvin. I believe all the authorities used in the 
purchase of the New World Mine were legal, were appropriate 
under existing law, and were authorized by the Congress. Yes, I 
do maintain that.
    Mrs. Chenoweth. Then would you send this Committee a 
written legal opinion that your department is willing to stand 
on legally?
    Mr. Galvin. I would be happy to do that.
    Mrs. Chenoweth. Will you have it in here in 30 days?
    Mr. Galvin. I think I can do that, yes.
    Mrs. Chenoweth. Thank you. Mr. Schaffer, do you have any 
other questions for the committee?
    Mr. Schaffer. Yes, I do. Again, for Mr. Galvin, there is a 
staff briefing that was prepared for the committee regarding 
H.R. 901. It says that the Champlain-Adirondacks Biosphere 
Reserve is located in upstate New York, and another Biosphere 
Reserve encompassing the Catskill Mountains was proposed 
recently.
    It says local elected officials from both of these regions 
testified that they were never consulted about plans to 
designate the biospheres.
    Are you familiar with that particular proposal and can you 
comment----
    Mr. Galvin. Generally speaking----
    Mr. Schaffer. [continuing] on why they were not----
    Mr. Galvin. Champlain-Adirondack is a Biosphere Reserve. 
Catskills is not, and because of lack of local support for 
Catskills, I believe the nomination was withdrawn, which is the 
case with a couple of the other areas that were testified to 
earlier.
    There is some indication that local support has an 
influence on the decision, because at least three areas have 
been withdrawn from nomination as a result of local opposition.
    Mr. Schaffer. That is encouraging, because the state of 
Kentucky just 2 weeks ago passed a resolution that they 
forwarded to the Congress asking Members of the Congress of the 
United States and I will quote, ``to oppose ratification of the 
treaty and the inclusion of any land within the Commonwealth of 
Kentucky in any biosphere program of the United Nations.''
    Is Kentucky's resolution going to be compelling with the 
Department of Interior?
    Mr. Galvin. I certainly would think it would be 
influential. Yes, absolutely. As I said----
    Mr. Schaffer. Just for the comfort level of the people in 
Kentucky, in what way do you think this resolution will be 
influential?
    Mr. Galvin. Well, Kentucky has a Biosphere Reserve right 
now which has a lot of local support, Mammoth Cave. I guess a 
decision would need to be made about whether that is going to 
stand or not.
    I don't know of any proposed additional Biosphere Reserves 
in the state of Kentucky.
    Mr. Schaffer. The state legislature, being the prevailing 
authority in Kentucky and having the prevailing opinion, 
according to the Constitution, anyway--I still believe it is 
relevant, believe it or not. Do you anticipate there will be a 
hearing? When would a decision be made on something like this 
by the Department of Interior?
    Mr. Galvin. I don't anticipate there will be a hearing if 
there are no nominations for new Biosphere Reserve sites, but--
--
    Mr. Schaffer. I mean with respect to repealing or not 
including any land in the Commonwealth of Kentucky in any 
biosphere program.
    Mr. Galvin. Then we have got a decision to make about 
Mammoth Cave that is going to require some local consultation.
    Mr. Schaffer. So you do have a decision to make about 
Mammoth Cave?
    Mr. Galvin. I would say so, because they have got existing 
Biosphere Reserve recognition in Kentucky that the local 
authorities seem to be pretty happy about.
    Mr. Schaffer. Well, the state is not.
    Mr. Galvin. Apparently not.
    Mr. Schaffer. They are the ones that matter in this case. 
In fact, I would submit they are the only ones that matter at 
this point.
    Do you think the Department of Interior would disagree with 
that?
    Mr. Galvin. I would say there is a disagreement at the 
local level that will have to be dealt with.
    Mr. Schaffer. But with respect to the understanding we have 
about the role of states, the proper role of states in 
relationship to the Federal Government, do you agree that this 
is the only opinion that matters in Kentucky presently?
    Mr. Galvin. It matters in the sense of new Biosphere 
Reserves, yes. Matters in the sense of Mammoth Cave, we will 
take the case very seriously under consideration, but there are 
local development authorities that support that Biosphere 
Reserve, so we would have to get those parties together to see 
if in fact they want that designation repealed.
    Mr. Schaffer. Is it fair to say that your department's 
concern for public opinion values the opinion of the state as 
much or less than the local opinions?
    Mr. Galvin. As much, certainly. We take state action very 
seriously and always do.
    Mr. Schaffer. So you view it as equivalent?
    Mr. Galvin. I don't think I said that.
    Mr. Schaffer. You said as much.
    Mr. Galvin. We take it very seriously. I think you have got 
to look at the individual cases to see where we would come out 
on an individual case.
    Mr. Schaffer. Mr. Lindsey, I would like to ask you just 
briefly. I was going through your testimony, and this group 
that you mentioned, the Southwest Conservation----
    Mr. Lindsey. The Southwest Center for Biodiversity.
    Mr. Schaffer. Do you know how they are funded? Do you know 
where their funding comes from, that organization? They are the 
ones who filed for the endangered species designated of--I 
can't remember. Is this an animal or plant that lives on your 
land?
    Mr. Lindsey. It is a plant, sir.
    Mr. Schaffer. This is a plant?
    Mr. Lindsey. Yes, sir.
    Mr. Schaffer. They are the ones who filed for the 
designation?
    Mr. Lindsey. Yes, sir.
    Mr. Schaffer. Do you know how they are funded?
    Mr. Lindsey. No, sir, I do not.
    Mr. Schaffer. Thank you, Madame Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. I just have a 
couple more questions. I did want to make a statement also.
    The Canadian mining company's interest in the New World 
Mine is a lease interest. Now, I know that for a fact, and if 
you presume, Mr. Galvin, that it is a lease interest, why is it 
then that the government is negotiating with an entity that has 
no ownership interest for the sale of the property?
    Mr. Galvin. I am sure that the lease interest--excuse me. 
The lease interest has a value, and basically, with respect to 
mining, the government would buy out whatever the value of that 
lease is.
    Mrs. Chenoweth. If there is a lease without the value of 
the minerals and if that site has been patented, do you think 
the lease is worth $65,000,000 to go to the operators in 
Canada?
    Mr. Galvin. Not if all those conditions exist. Certainly, 
if there is not mineral value attached to that lease or the 
value to extract the minerals, then the site is of considerably 
less value, but the government purchase of any right is subject 
to an appraisal.
    Mrs. Chenoweth. You mentioned with regard to the Mammoth 
Cave that there were some outside interests, development 
interests that were nudging this ahead.
    Could you indicate for the record who those interests are?
    Mr. Galvin. Yes. It is the Barren River Area Development 
District.
    Mrs. Chenoweth. The Barren River----
    Mr. Galvin. Area Development District.
    Mrs. Chenoweth. And what kind of entity is that?
    Mr. Galvin. It is a state-chartered organization that is a 
regional organization to deal with regional problems in the 
Mammoth Cave area.
    Mrs. Chenoweth. Is----
    Mr. Galvin. It was chartered by the state legislature.
    Mrs. Chenoweth. Did you say it is funded by the state 
legislature?
    Mr. Galvin. I don't know where they get their funding.
    Mrs. Chenoweth. Mrs. Beaver, I wanted to call on you just 
one more time to see if--I noticed sometimes you had an answer 
for the questions that weren't directed to you.
    I want to give you a chance to speak.
    Mrs. Beaver. I was frustrated about the local people who 
are initiating this.
    In the Ozark biosphere, the lead people were the park 
superintendent at Buffalo National River, and I assume he could 
be transferred, so he works for the Park Department, and the 
Forest Service people who are transferred regularly in and out 
of districts.
    True, they are temporarily local, but this gives the 
feeling that it is government agencies doing this. This was a 
total surprise to the people, if you take the grass roots 
people of the state of Arkansas.
    It was also a total surprise to the Governor. It was a 
surprise to the elected state representatives and the county 
officials that were talked to, and it was a surprise to Tim 
Hutchinson, then U.S. Representative, and now U.S. Senator, 
when he was handed this notice at a church service one morning.
    I don't understand the local thing. I guess I have a real 
problem. All through this feasibility study, it states in 
several places that we should keep this low key, not to arouse 
the natives, so to speak, and I think that needs to be brought 
out.
    That is all I have heard all day long, that the local 
people want it. I happen to know the people over by Mammoth 
Cave. I got a phone call from a man over there, and he is not 
thrilled at all about that, and he is local. Where is his 
voice? He is going to have a meter put on his well out in the 
country because he is using natural resources. Excuse me?
    We have a problem in the local area.
    Mrs. Chenoweth. Thank you, Mrs. Beaver. Mr. Lindsey, I 
understand that you recently wrote a poem about government 
threats to your private property. Would you mind sharing that 
with the Committee?
    Mr. Lindsey. No, madame. I will give it a try.
    This is all about my family. It is about my ranch, and it 
is about the ranch that my family has and the ranch that we 
have had for years. It is about--I have nine kids, and five 
boys, good boys, and what it means to me.
    ``We were riding on the mountain above the Old Page Place; 
smack dab on top of Page Peak overlooking a lot of space; to 
the Northeast lay Algerita, and to the south there lay the 
Rough, gathering cows in this country is usually pretty tough.
    ``But today, I wasn't worried, because I knew I had the 
best; I had my five boys with me, there was Joshua and Jake and 
Nest; and Little Joe and Nathan, they were riding with us, too, 
and when it comes to catching wild cows, those boys have caught 
a few.
    ``So I sent Joshua and Jake to the northeast, and the rest, 
they all went south; that left me and my cow dog, Sally, and 
she's a-foaming at the mouth.
    ``But I says wait a minute, Sally, I need some time to 
think, and I leans across my saddle, and my heart begins to 
sink.
    ``There goes the sixth generation to ranch this old rock 
pile; the country life is what they want, they don't want that 
city style.
    ``But it seems some armchair ecologists don't think six 
generations is enough, because they got all that college 
learning and that book-reading stuff.
    ``Well, they found an endangered orchid and a water dog and 
a floating plant, and next, you know they will find a bug or 
some endangered ant.
    ``They want to take away my ranch and take away my right to 
graze, and now an international treaty has been added to this 
maze.
    ``Soon one nation indivisible will be governed by foreign 
laws, by countries that can't even run themselves, they got too 
many flaws.
    ``Well, my great-great grandpa, my great-grandpa, my 
grandpa and my dad each passed this ranch on to their boys, and 
be it good or bad; this ranch is in good enough shape to run 
Javelina and lions and deers, things I see most every day and 
their extinction isn't near.
    ``I guess I will just quit worrying; Sally is chomping at 
my legs; she wants to catch a cow so bad, she is like a powder 
keg.
    ``Look, them boys caught a cow and got her underneath a 
tree; I guess I will just quit worrying and ride on down and 
see.''
    Mrs. Chenoweth. Thank you, Mr. Lindsey. Thank you, Mr. 
Galvin. Mrs. Beaver and Dr. Rabkin, thank you all for being 
here.
    The chair recognizes the next panel. We will be hearing 
from Mr. Rafe Pomerance, Deputy Assistant Secretary for Oceans 
and International Environmental and Scientific Affairs, U.S. 
Department of State, Washington, DC.
    Mr. Pomerance, I thank you for your long wait and your 
patience. Between a lot of other committee hearings and votes 
and so forth, we have been kind of depleted, but your testimony 
is exceedingly important and the record that we are building is 
very important.
    I would like to offer the next few minutes to you for your 
testimony.

  STATEMENT OF RAFE POMERANCE, DEPUTY ASSISTANT SECRETARY FOR 
OCEANS AND INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC AFFAIRS, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Pomerance. Thank you very much, madame. Madame 
Chairman, I have testified a number of times before Congress 
but never after a poet, so it is a particular pleasure to 
appear here this afternoon. Actually, it was useful and 
informative to listen to the previous panel, so I was glad to 
be here.
    Thank you for providing the opportunity for us at the 
Department of State to comment on H.R. 901, and I would like to 
submit my prepared statement for the record.
    I am here today because your bill includes specific 
provisions relating to oversight of the World Heritage 
Convention and the U.S. Man and the Biosphere program.
    The Department of State supports both of these initiatives. 
They are components of the Administration, and I might say 
previous administrations' international environmental 
diplomacy.
    Today, as has been building over past decades, environment 
issues are an important component of U.S. foreign policy. This 
is because previous administrations and this one understand 
that investments on behalf of the environment, at home and 
abroad, bring significant payoffs to our national economy, our 
health, domestic environment, and quality of life.
    The World Heritage Convention and the U.S. Man and the 
Biosphere program contribute to this overall mission. Both 
function well at minimal cost. Aside from aiding in 
international environmental diplomacy, they provide economic 
benefits to the U.S., especially with regard to tourism. Our 
U.S. Man and the Biosphere program provides a valuable 
framework for international scientific cooperation.
    The World Heritage Convention is a landmark conservation 
treaty that helps draw international attention to the unique 
natural or cultural significance of sites such as the pyramids, 
Serengeti National Park, the Taj Mahal, and our own Grand 
Canyon.
    The United States was the principal architect of this 
convention. At that time, then-President Nixon stated, ``It 
would be fitting by 1972 for nations of the world to agree to 
the principle that there are certain areas of such unique 
worldwide value that they should be treated as part of the 
heritage of all mankind and accorded special recognition as a 
World Heritage Trust. Such an arrangement would impose no 
limitations on the sovereignty of those nations which choose to 
participate, but would extend special international recognition 
to the areas which qualify.''
    The World Heritage Convention, with its 148 signatory 
countries, has very broad participation and provides a 
mechanism for U.S. leadership and influence with many of its 
international partners.
    Man and the Biosphere was established by resolution of the 
16th Conference of UNESCO in 1970 as a program of scientific 
research, education and training to promote the better 
understanding of the interaction of the earth's human and 
natural systems.
    When the U.S. left UNESCO in 1984, the Reagan 
Administration continued to provide funds to allow for a wholly 
independent U.S. Man and the Biosphere program. The Department 
of State oversees a small administrative secretariat to 
coordinate the U.S. Man and Biosphere program with the 
collaboration and support of 15 Federal agencies.
    U.S. MAB program promotes the development of scientific 
information-sharing among MAB sites for biosphere reserves 
around the world. U.S. MAB's various software innovations have 
been adopted in North America, Europe, and Latin America, 
making U.S. MAB a leader in efficient data exchange among 
protected areas.
    U.S. MAB coordinates the network of U.S. Biosphere 
Reserves, which are entirely independent of U.N. oversight. 
Biosphere Reserve is not a land-use designation. I think this 
is an important difference, but instead, is a recognition to 
protected areas or a series of protected areas that conduct 
exemplary programs in conservation, science, and management of 
natural resources.
    A typical reserve is coincident with a national park or 
national forest. Nominations for U.S. Biosphere Reserves are 
prepared by locally established committees which coordinate the 
initial planning for the nomination effort, including letters 
of concurrence from local and state government representatives.
    The U.S. Biosphere Reserve program is voluntary and focuses 
on generating, sharing, and disseminating reliable scientific 
information collected from the reserve network.
    As with World Heritage and Ramsar wetland sites, the MAB 
sites in the U.S. are managed under the relevant Federal and/or 
state laws and regulation. MAB also supports a range of 
projects that further U.S. interests including, for example, a 
project that fostered an agreement between Arizona and the 
adjacent Mexican state of Sonora to promote cooperation among 
Biosphere Reserves of the region. This cooperative decree was 
recently signed by the Governor of Arizona and his counterpart 
from Sonora.
    I shouldn't be more than two more minutes. I notice the red 
light is on. Is that all right?
    Mrs. Chenoweth. You may continue.
    Mr. Pomerance. It is clear, however, that MAB is often 
misunderstood. We are committed to both clarifying the 
program's operations and ensuring appropriate congressional 
notification and consultation during the nomination process.
    We believe that recently submitted H.R. 1801, supported by 
Congressmen Brown and Miller, addresses these issues and 
provides a good legislative base for improved functioning of 
U.S. MAB.
    For its part, H.R. 901 appears to be based on the mistaken 
belief that World Heritage Convention and U.S. MAB seriously 
impact U.S. sovereignty and private land rights and ignore 
local decisionmaking in the process.
    Instead, looking back historically, we can see that these 
initiatives have worked well and with ample local involvement.
    U.S. participation and leadership in the World Heritage 
Convention, and identification of U.S. Biosphere Reserves 
encourages other nations to similarly cherish and care for such 
significant sites in their country.
    In conclusion, the Department of State strongly opposes 
H.R. 901 and believes that H.R. 1801 resolves many of the 
issues that have been addressed.
    This concludes my statement, Madame Chairman, and I would 
be happy to answer any of your questions.
    [The prepared statement of Rafe Pomerance may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, sir. Could you advise me what 
H.R. 1801 is? I haven't seen that.
    Mr. Pomerance. It is a piece of legislation that has been 
recently introduced. I think we may have a copy that we could 
give to the committee.
    Mrs. Chenoweth. I just asked the counsel, and they hadn't 
seen it.
    Mr. Pomerance. I think it has been recently introduced.
    Mrs. Chenoweth. And is it the Administration's legislation?
    Mr. Pomerance. No, I think it was introduced by Congressman 
Brown and joined by Congressman Miller.
    Mrs. Chenoweth. From California?
    Mr. Pomerance. Both of them are from California, I think, 
George Brown.
    Mrs. Chenoweth. There are two Millers, too. You mentioned 
in your testimony, sir, that when the U.S. left UNESCO in 1984, 
why did the U.S. leave UNESCO?
    Mr. Pomerance. Well, I was not involved in the decision, 
but I think we had problems with the management and decisions 
that were being made at UNESCO, and therefore, we left. When we 
did, we decided that some of their programs had value, and we 
continued to maintain those.
    Mrs. Chenoweth. Now, didn't the Reagan Administration pull 
out of UNESCO because----
    Mr. Pomerance. Yes, and also stayed in MAB.
    Mrs. Chenoweth. [continuing] of gross financial 
mismanagement?
    Mr. Pomerance. That may have been the reason.
    Mrs. Chenoweth. Yes, I think it was. You talked about the 
MAB program moving ahead in spite of the fact that the Reagan 
Administration pulled out of it, that there was----
    Mr. Pomerance. No, I think they pulled out of UNESCO, not 
out of MAB.
    Mrs. Chenoweth. Pulled out of UNESCO.
    Mr. Pomerance. Right.
    Mrs. Chenoweth. Then you tied UNESCO with MAB in your 
testimony here on page 3.
    Mr. Pomerance. I think what I meant to say is that MAB was 
generated or originated at a UNESCO meeting and was a program 
of UNESCO at the time and still is.
    Mrs. Chenoweth. I think your statement says there will be 
continued cooperation between U.S. MAB and the UNESCO MAB 
program.
    Mr. Pomerance. Right. I think we do that still, even though 
we are not in the overall UNESCO organization.
    Mrs. Chenoweth. Under the U.S. Man and the Biosphere 
program, you talked about the collaboration and support of 15 
Federal agencies.
    Mr. Pomerance. Right.
    Mrs. Chenoweth. Since this is an agreement that has never 
been authorized by Congress, never been ratified as a treaty, 
where is the authority for 15 agencies to engage in this?
    Mr. Pomerance. Well, I think the reference is focused on 
the MAB research effort which funds a variety of research on 
the relationship between natural areas and their conservation 
and human activity, and these agencies have research 
components, and they put up or they contribute a small, 
relatively--really a very small amount of money to conduct 
research mainly on Biosphere Reserves.
    Their authority stems from their ability, which is a 
function of all the natural resource agencies to continue to do 
research.
    The MAB program was established under a directive of the 
Office of Management and Budget, I think in the late 1970's, 
and is a program that we operate like many interactions with 
other countries or international institutions under the 
executive branch of the government.
    Mrs. Chenoweth. If the New World Mine was taken over by an 
entity, and of course, as you well know, we have newspaper 
reports that it was not indeed just the Park Service, with the 
initiation under Interior of bringing in UNESCO; of course, 
that mine's process under NEPA was interrupted.
    What authority is there to interrupt the process and what 
authority is there to expend $65,000,000 and give the money to 
a foreign country?
    Mr. Pomerance. Well, I shouldn't comment on a matter that 
is before the Department of Interior. The State Department 
doesn't get involved in U.S. land use decisions certainly of 
that sort, and let me just say that--I can tell you this, that 
the World Heritage Convention has nothing to do with the 
regulatory decisions of the U.S. Government through the 
Department of Interior, the Forest Service.
    Those decisions are made on the basis of U.S. law.
    Mrs. Chenoweth. Well, but just to make sure, Mr. Pomerance 
that we are not going off in a direction I did not aim my 
question, the New World Mine process was interrupted under the 
Man and Biosphere reserve agreement.
    Mr. Pomerance. No, I don't think that is possible.
    Mrs. Chenoweth. Let me go back over this then.
    Mr. Pomerance. OK.
    Mrs. Chenoweth. The Yellowstone National Park is under the 
World Heritage Site, right?
    Mr. Pomerance. The Yellowstone National Park is a World 
Heritage Site. It is not under it; it is a site.
    Mrs. Chenoweth. And the New World Mine was outside of the 
boundaries of Yellowstone, right?
    Mr. Pomerance. As best as I know. I think so.
    Mrs. Chenoweth. The World Heritage Site and its authority 
did not extend to the New World Mine. What authority did 
extend?
    Mr. Pomerance. I don't think that the World Heritage has 
any authority to manage Yellowstone National Park or any areas 
or sites.
    Mrs. Chenoweth. But I didn't ask that. What I did ask was 
what authority is there to extend an activity into the New 
World Mine?
    Mr. Pomerance. Well, under U.S. law?
    Mrs. Chenoweth. Under U.S. law or even international law.
    Mr. Pomerance. Well, under international law, I don't think 
there is any authority to regulate that mine. Under U.S. law, I 
assume that the Department of Interior, in order to do the 
negotiation that the previous witness testified, has the 
authority to do that. If they didn't have the authority, they 
couldn't negotiate an agreement, and they couldn't pay off 
those who have the lease.
    Mrs. Chenoweth. In your capacity in the State Department, 
are you familiar with the Seville Strategy for Biosphere 
Reserves?
    Mr. Pomerance. I think that was a meeting of Biosphere 
Reserve managers to discuss issues of Biosphere Reserves. I am 
not familiar with it in detail, no.
    Mrs. Chenoweth. It has been stated for the record here that 
it was never the intent of the government or anyone to really 
deal outside of certain boundaries or impact private property, 
but under this Seville Strategy for Biosphere Reserves, it does 
say promote Biosphere Reserves as a means of implementing the 
goals of the Convention on Biological Diversity, and, of 
course, we haven't ratified that.
    It further says, ``establish, strengthen, or extend 
Biosphere Reserves as necessary, giving special attention to 
fragmented habitats, threatened ecosystems, and fragile and 
vulnerable environments both natural and cultural.''
    It further says, ``Encourage the establishment of trans-
boundary Biosphere Reserves as a means of dealing with the 
conservation of organisms, ecosystems, and genetic resources 
across national boundaries.''
    Do you still maintain that this is all very lawful and that 
Congress indeed has been notified of all of these activities?
    Mr. Pomerance. Any action taken by a U.S. land agency on 
the ground to implement or do anything would have to come under 
the laws that the Congress has authorized that were under their 
authority.
    That document sounds like it was a document agreed to by a 
committee that makes suggestions for national governments, 
Biosphere Reserve managers to consider as part of their 
efforts.
    There is nothing mandatory about that. It is at the 
discretion of national governments or local governments.
    The other thing I would say is that you are correct. The 
United States has not ratified the Convention on Biological 
Diversity; therefore, no actions that we take in this country 
would be--as a result of such ratification.
    President Clinton did sign the Biodiversity Convention. The 
Administration supports it. We have sent ratification 
legislation to the Senate, but it has not been agreed to.
    Mrs. Chenoweth. So then let me just wind up my questions by 
asking you under what authority was the action taken on the New 
World Mine?
    Mr. Pomerance. Which action are you referring to? The 
purchase of the lease?
    Mrs. Chenoweth. The purchase of the lease and the 
interruption of the NEPA process.
    Mr. Pomerance. I actually--let me just say that I think--I 
would love to answer the question, but it would be an 
impression of mine, because I am not at the Department of 
Interior, so I don't actually literally know. I would just be 
guessing.
    I will just assume that whatever--if they did act, they had 
the authority to do so, and I would just be guessing under the 
authority and what I know about Federal law, but I think that 
is a question that they should really answer as our partners in 
the Federal Government.
    Mrs. Chenoweth. Mr. Pomerance, would you mind having your 
attorneys from the State Department write a legal opinion for 
the committee as to the authority under which this action was 
taken on the New World Mine?
    Mr. Pomerance. I will certainly do my best to respond to 
that. I will consult with our legal department and we will get 
you an answer on that issue.
    Mrs. Chenoweth. Would you mind having the opinion in within 
30 days?
    Mr. Pomerance. Right. Let me just say that the issue of--I 
don't mean to be difficult about this, but that is really not 
an area of--I believe your question is not in the area of State 
Department expertise but has to do with the management of U.S. 
Federal lands and private lands nearby which is nothing--the 
State Department has nothing to do with it.
    I will ask our legal department to do their best. I just 
don't want to promise something that we don't know anything 
about.
    Mrs. Chenoweth. In your capacity on international 
environmental and scientific affairs, it is within that 
capacity that I am asking for the opinion.
    Mr. Pomerance. I appreciate that. I will do my best.
    Mrs. Chenoweth. Thank you very much.
    Mr. Pomerance. Thank you.
    [The information referred to follows:]

    This matter involves domestic legal authorities 
administered by the Department of the Interior. The Department 
of the Interior, therefore, is in the best position to provide 
the requested information and analysis. The Department of the 
Interior is preparing a legal opinion on the matter. The 
Department of State is coordinating with the Department of the 
Interior as appropriate.
    In this regard, the Department of State notes that, 
although Yellowstone National Park has been designated since 
1978 as a World Heritage site pursuant to nomination by the 
United States of Yellowstone as a site of outstanding universal 
value, such designation does not include land outside of the 
national park area and does not alter state or private property 
rights over any land in the United States. such as the New 
World Mine in Crown Butte, Montana. Article 6 of the Convention 
for the World Cultural and National Heritage expressly provides 
for full respect of the sovereignty of the Nation on whose 
territory the heritage site is located and provides that the 
Convention is ``without prejudice to property rights provided 
by national legislation.''
    Yellowstone National Park had also been recognized as a 
biosphere reserve. This recognition applies solely to the 
national park area and does not cover any non-park property. 
Recognition of the Park as a biosphere reserve has no legal 
bearing on the New World Mine matter.

    Mrs. Chenoweth. With that, we will call the next panel. We 
look forward to hearing from Mr. Donald Wesson, Pulp and 
Paperworkers' Resource Council, from McGehee, Arkansas; Mr. 
William Chandler, Vice President for Conservation Policy, 
National Parks and Conservation Association, Washington, D.C.; 
Mr. Gustavo Araoz, Executive Director , United States Committee 
of the International Council of Monuments and Sites, 
Washington, DC; Mr. David B. Howard, Adirondack Blueline 
Confederation, Gloversville, New York; and Mr. Henry Lamb, 
Executive Vice President, Environmental Conservation 
Organization, Hollow Rock, Tennessee.
    We will begin the testimony with Mr. Donald Wesson.

  STATEMENT OF DONALD WESSON, PULP AND PAPERWORKERS' RESOURCE 
                   COUNCIL, McGEHEE, ARKANSAS

    Mr. Wesson. Thank you, Madame Chairman. Good afternoon. My 
name is Don Wesson. I am the Vice President of United 
Paperworkers' International Union, Local 1533, located in 
McGehee, Arkansas.
    I serve as the Southern Pine Regional Director of the Pulp 
and Paperworkers' Resource Council. I am currently employed by 
the Potlatch Corporation Pulp and Paper Mill located in 
McGehee, Arkansas, as an industrial maintenance mechanic.
    I am a constituent of the fourth congressional district in 
the state of Arkansas.
    I would like to take this opportunity to thank Chairman 
Young for inviting me to attend and testify before this 
hearing. I am very pleased with the fact that an electrician 
from a paper mill located in southeast Arkansas would be 
allowed to testify before you today on such an important issue.
    I am here today for several reasons. I am a third-
generation paperworker who is very concerned about not only 
losing my job but also my industry. I am one of over 300,000 
pulp and paperworkers, and some 900,000 wood products workers 
throughout this country. We are growing deeply concerned over 
how our natural resources become locked up or given away in 
Biosphere Reserves.
    Due to various other government regulations which Congress 
does have control over, we have lost about 100,000 jobs in our 
industry in the past 6 years. Now, we are being faced with a 
new problem, and we want to know where is it all going to stop.
    I became aware of the American Land Sovereignty Protection 
Act due to several different meetings that I have attended 
during the past year. I have seen maps and read stories written 
by Dave Foreman, co-founder of Earth First. I have read the 
book entitled the Rewilding of America. I have even read Vice 
President Al Gore's book entitled Earth in the Balance. All of 
these, I always attributed to someone's fantasy or dream world 
and just shrugged them off.
    Last September, my eyes were opened through a different 
arena. I went to Winnipeg, Canada, and testified before the 
World Commission of Forestry and Sustainable Development. I 
went there to represent labor, because our voice is seldom 
heard in this type of arena.
    We are not an established NGO and cannot obtain this status 
due to certain governmental regulations, so therefore, we are 
not part of the equation.
    During this meeting, there were four representatives from 
the PPRC who testified. We did make our input known. During 
this meeting in Canada, my eyes became opened.
    There were many discussions concerning the United Nations 
controlling the world's forests and the paying of stumpage fees 
to the United Nations. There were also many maps and graphs 
either on display or shown by overhead projector relating to 
this.
    There were maps showing the United States, Canada, and 
Mexico being all one country divided into biosphere regions. On 
thinking back to Dave Foreman's book entitled Rewilding of 
America, this seemed to hit home.
    Then came the final blow that really put the icing on the 
cake. I returned to my home in Arkansas only to find that they 
were trying to turn 50,000 square miles of mostly private land 
in Arkansas, Oklahoma, Kansas, and Missouri into a United 
Nations Ozark Man and the Biosphere Reserve.
    Due to the fine work of grass roots such as Take Back 
Arkansas, this hopefully has been stopped, at least until 
Congress can do something about it, and that is why I am 
standing before you today.
    It has been brought to my attention that two major 
designations of international status by the United Nations 
currently take place with no need of congressional approval or 
any public input, that being Biosphere Reserves and World 
Heritage Sites.
    Over 68 percent of the land currently in our national 
parks, preserves, and monuments are designated as United 
Nations World Heritage Sites, Biosphere Reserves, or both.
    Biosphere Reserves are part of the U.S. Man and the 
Biosphere program, which operates in conjunction with the 
worldwide UNESCO reserve program, operating under the Statutory 
Framework of the World Network of Biosphere Reserves.
    This U.S. MAB program operates without any legislative 
direction and has no authorization from Congress.
    A Biosphere Reserve is federally zoned and coordinated 
region consisting of three areas or zones that meet certain 
minimum requirements established by the United Nations. The 
inner or most protected zone, or the core zone, is usually 
Federal land where the outer two zones contain mostly 
individually owned private property. This is a direct violation 
of the Fifth Amendment of the United States Constitution.
    The United States currently has 47 Biosphere Reserves which 
contain a total area larger than the size of the state of 
Colorado, our eighth largest state. When the two zones outside 
the core zone are included, millions of additional acres 
potentially lie within these Biosphere Reserves.
    That is why it is very disturbing to me and the workers in 
our industry as well as millions of other people. The natural 
resources that keep America working, keep the food on our 
tables, and a roof over our heads could all be taken away from 
us by the stroke of a pen from the President or any of his 
Administration.
    Congress, the people who we elected to take care of us, 
cannot do anything about this until H.R. 901 is passed. It is 
hard for me to understand why anyone would be willing to give 
any of our precious American soil to the United Nations or 
anyone else, for that matter.
    This country was founded by honest, God-fearing, hard-
working men and women who plowed the fields, cut the timber, 
raised the cattle, and worked the mines that developed this 
nation under God into the greatest nation in the world.
    Now, our leaders are wanting to stop the farmers, stop the 
timber harvest, shut the mines down, do away with our grazing 
rights and give our precious land to the United Nations, land 
that our forefathers and some of us have fought many battles 
over, land that many people have lost their lives trying to 
protect, land where if properly managed could sustain this 
nation for many, many generations to come.
    We have enough problems in this nation concerning land 
rights. We do not need to get Third World countries involved.
    Mrs. Chenoweth. Sir, we are limited to a 5-minute 
testimony, so I will give you a little time to wrap it up.
    Mr. Wesson. I am on my last page.
    Mrs. Chenoweth. All right.
    Mr. Wesson. I am here this afternoon to ask all of our 
congressional delegates, including all of those who are not 
present, especially the friends of labor--I want you to ask 
yourself where is it going to end?
    I was raised in a small town in Louisiana and grew up in a 
yellow dog Democrat society. My father would turn over in his 
grave if he knew I was trying to help a Republican get a bill 
passed.
    By the same token, however, my father fought in World War 
II, was a union leader for 26 years, and an honest, God-
fearing, hardworking man. He would really understand why I am 
trying to get this bill passed. It would be very hard for him 
to understand why this bill is even needed.
    We have already seen the coal mine closed in Utah, the gold 
mine near Yellowstone Park be shut down. We have witnessed 
millions of acres of timberland be locked up.
    We see this also happening to the Land Between the Lakes of 
Tennessee and Kentucky, the Southern Appalachian MAB, the 
Everglades, Big Thicket in Texas, just to name a few, and all 
of this just in the past few years if not months that have been 
designated or locked up.
    In closing, I would like to ask for complete bipartisan 
support of H.R. 901, the American Land Sovereignty Protection 
Act. Keep in mind, I do not represent the industry, but I 
represent the workers who work in those mills. I also represent 
the veterans and the honest hardworking men and women who 
helped shape this nation into the greatest nation on earth 
under God.
    If there ever was a time for all of you elected officials 
to get together and vote on a bill that would save our American 
sovereignty, the time is now. If you care anything about your 
country, there is absolutely no reason not to vote for this 
bill.
    If all you want to do is give away our precious land, then 
please resign from your office, move away from this great land, 
because I don't believe you truly represent the people who 
elected you in the first place.
    If a yellow dog Democrat such as myself has the nerve to 
stand up before you with a Republican for something he believes 
in, then why can't you have the nerve to vote for this bill?
    It is time for us to put parties to the side and vote the 
way our hearts tell us. Remember, the American people and this 
great country is what we will lose if you vote the wrong way.
    Mrs. Chenoweth. Thank you, Mr. Wesson. The chair recognizes 
Mr. Chandler for your testimony.

     STATEMENT OF WILLIAM J. CHANDLER, VICE PRESIDENT FOR 
     CONSERVATION POLICY, NATIONAL PARKS AND CONSERVATION 
                  ASSOCIATION, WASHINGTON, DC

    Mr. Chandler. Thank you, Madame Chairman. My name is 
William J. Chandler, and I am vice president for Conservation 
Policy with the National Parks and Conservation Association, a 
nonprofit, citizens organization of about 500,000 members. I am 
pleased to present our views on H.R. 901 today.
    NPCA opposes enactment of H.R. 901 because we believe it 
would straitjacket U.S. implementation of the World Heritage 
Convention and other international treaties, and voluntary 
programs designed to conserve our natural and cultural 
heritage.
    We do not agree with the bill's underlying assumptions that 
international conservation and preservation programs or the MAB 
program are violating U.S. or state sovereignty, lowering 
property values, or restricting the use of private property 
anywhere in the United States. There is simply no credible 
evidence that I have heard today or seen that those results 
have occurred.
    First, let me talk about the World Heritage Convention, if 
I might. There are 20 World Heritage Sites in the United 
States, including 17 areas within the national park system. 
This is a convention, Madame Chairman, ratified by the U.S. 
Senate, which the last time I checked was a Member of Congress, 
was one of the two bodies of Congress.
    To say that the convention has no authority, I think is an 
error. This convention does have congressional authority. It 
was approved by your colleagues in the Senate.
    In hearings held last year on H.R. 3752, the predecessor 
bill to the current one, concerns were expressed that adding a 
site to the list somehow threatens local economies, private 
property, and individual freedom. I challenge the opponents of 
the program today to produce credible evidence that those 
consequences have occurred. I know of no documented case where 
the designation of any World Heritage Site in the United States 
has led to those consequence.
    Fears also were expressed that restrictive buffer zones 
would be created around listed sites. Again, Madame Chairman, I 
know of no instance in the United States where that has 
occurred.
    There does appear to be some need to get out the word 
publicly about these areas and sites, and NPCA supports public 
involvement in the nomination process and would support 
reasonable means to engage the public in their consideration. 
We believe it would be a mistake to alter the U.S. nomination 
process as specified under H.R. 901.
    Let me move on to the Biosphere Reserves. This is a program 
that is voluntary and that involves partnerships between 
Federal, state, and local agencies. You asked, Madame Chairman, 
about what authority this program has. I have attached to my 
testimony a paper entitled misinformation about the MAB 
program. In that paper, prepared by the executive director of 
the U.S. director of MAB, is an answer to that question. There 
are a number of general authorities under which Federal 
agencies can do cooperative things with each other, with other 
Federal agencies, and to support programs that they think 
reinforce their legally constituted authorities.
     There is, however, as has been noted today, no specific 
legislative authority for MAB.
    What happens when a biosphere gets designated? We have 
heard in the past and today about several efforts around the 
country where Biosphere Reserve designation processes were 
terminated because local citizenry came in and said they didn't 
want them. Well, that is the way it works. If the local 
citizens don't want it and the local government authorities 
don't support it, then the MAB committee, according to the 
regulations I have read, are not going to be approving any 
Biosphere Reserves in those areas.
    But there are a lot of good things happening, Madame 
Chairman, around the country in MAB areas, and we haven't heard 
from anybody today from places like the Southern Appalachian 
Biosphere Reserve designated in 1988 or the Mammoth Cave 
Biosphere Reserve.
    Both of those efforts have local governments, academia, 
industry, landowners working together to conserve their natural 
resources, their cultural heritage, and to implement programs 
voluntarily that they all agree are necessary for their own 
socioeconomic development.
    I would urge this committee to go to the field again and 
visit some of these sites, and listen to some of the programs 
that are working. I think that if you do that, you will 
conclude that the Biosphere Reserve program is playing a 
constructive role in the conservation and management of our 
nationally significant resources, state and local environments, 
and local economies. Thank you.
    [The prepared statement of William J. Chandler may be found 
at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Chandler. Mr. Araoz.

   STATEMENT OF GUSTAVO F. ARAOZ, EXECUTIVE DIRECTOR, UNITED 
STATES COMMITTEE OF THE INTERNATIONAL COUNCIL OF MONUMENTS AND 
                     SITES, WASHINGTON, DC

    Mr. Araoz. Thank you, Madame Chairman, and I would like to 
thank the committee for inviting me to testify here.
    My name is Gustavo Araoz. I am the executive director of 
US/ICOMOS, the United States Committee of the International 
Council on Monuments and Sites, a nongovernmental, nonprofit, 
U.S. membership organization, and also the U.S. component of 
ICOMOS, the world's only nongovernmental organization of 
professionals who work together to preserve and protect 
historic properties and buildings and archaeological sites.
    Because of this expertise, my testimony is limited to those 
aspects of the bill that concern the World Heritage Convention.
    The World Heritage Convention is a benign convention. It 
presents none of the threats or limitations that the proposed 
bill will allegedly dispel.
    Insofar as the convention is concerned, H.R. 901 appears to 
solve no problems but will create many new ones.
    In contravention of our obligations under the Convention, 
the bill diminishes the effectiveness of the current 
professional process of identification and nomination of U.S. 
sites for the World Heritage List as well as its reporting 
mechanisms.
    By requiring complex, nonprofessional approval for 
endangered U.S. sites to be placed on the List of World 
Heritage in Danger, the bill diminishes the capability of the 
United States to manage professionally the threats that 
endanger our nation's World Heritage Sites.
    Most far reaching of all, H.R. 901 seeks to weaken the 
overall protection of our cultural sites by requiring 
elaboration of what is in substance an unrestricted economic 
impact statement for an area of ten miles around the site 
boundaries prior to its nomination to the World Heritage List. 
The proven universal and enduring value of these most important 
sites are made subservient to more immediate and transient 
economic concerns that often benefit only a few.
    Existing procedures for implementing the Convention in the 
United States already limit our participation. Such 
limitations, for example, prevented the enthusiastic city and 
citizens of Savannah, Georgia, from achieving the listing of 
their extraordinary city on the World Heritage List 2 years 
ago.
    Contrary to the claim of Mr. Young that World Heritage 
Sites are proliferating in the United States, the U.S. roster 
of World Heritage Sites remains small and has little growth, 
especially in view of our vast territory and our cultural and 
natural riches.
    To illustrate, there are 20 World Heritage Sites in the 
United States. Mexico, with one-eighth of our territory, has 16 
sites. France has 22; Spain has 23; Great Britain, 16; Germany, 
19. Even India, renowned for the zealous protection of its 
internal affairs has 21 sites.
    As guaranteed by articles 4 and 6, the World Heritage 
Convention does not threaten the sovereignty of any of its 
ratifying nations. The Convention only obligates participating 
countries to apply existing legislation to protect its cultural 
and natural sites.
    In this sense, we Americans are fortunate that over the 
past century, our leaders in Congress have enacted a great 
corpus of law that reflects the unwavering popular support for 
our natural and cultural heritage.
    Our preservation laws and institutions are examples admired 
and emulated by many other nations in the world, but more 
relevant to our topic here today, those Federal, state, and 
local laws and institutions not only provide the protection 
required for inclusion in the World Heritage List, they exceed 
it.
    Any and all development limitations imposed on a U.S. World 
Heritage Site derive exclusively from existing Federal, state, 
or local legislation and not from any internationally imposed 
standards under the Convention. All U.S. World Heritage Sites 
are protected because and through their listing in our National 
Register of Historic Places, their designation as National 
Historic Landmarks, and from other Federal, state, and local 
designations.
    Limiting our World Heritage Sites, even withdrawing from 
the Convention, if you will, will have absolutely no effect in 
diminishing their protection which is solely the obligation of 
existing Federal, state, and local law, but it will limit the 
many practical benefits available to all World Heritage Sites, 
such as enhancement of foreign tourism, which helps our 
country's balance of trade, and fostering financial support 
from the private sector who seeks to associate their name with 
the prestige of World Heritage designation.
    Thank you.
    [The prepared statement of Gustavo F. Araoz may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, sir. At this time, I must ask 
that we recess the committee temporarily. I think I will be 
gone for about 20 minutes. They have called for two more votes, 
one 15-minute vote and one 5-minute vote.
    I am very sorry that the House floor is not cooperating 
with us today, and that you are having to wait, but I will be 
back just as quickly as I can. Thank you.[Recess]
    Mrs. Chenoweth. The committee will come to order. I thank 
the panel again for your patience. I know this isn't what you 
had planned on doing at this hour. It isn't what I had planned 
on doing either. I am missing a speech and two receptions, but 
this is very important, so I just share this enduring race that 
we have here.
    With that, I would like to call on our next witness, Mr. 
David Howard from the Adirondack Blueline Confederation in 
Gloversville, New York. Mr. Howard.

       STATEMENT OF DAVID B. HOWARD, ADIRONDACK BLUELINE 
             CONFEDERATION, GLOVERSVILLE, NEW YORK

    Mr. Howard. Madame Chairman, I would like to thank this 
committee for the opportunity to comment in support of H.R. 
901.
    My name is David Howard. I am here as a member of the 
Adirondack Blueline Confederation of Bleecker, New York, a 
small grass roots property rights organization, and as a 
director of Liberty Matters, a national grass roots educational 
and communication organization.
    Having been immersed in the issue of property rights 
protection for the last 7 years, it has become increasingly 
evident to me that the original constitutional guarantees 
pertaining to the ownership and enjoyment of property are no 
longer sufficient.
    We have noted the destruction of local control first 
through county regional arrangements such as the Adirondack 
Park Agency, which has progressed to a proposed interstate 
regional authority, the Northern Forest Lands Project, and now 
to the ultimate in unelected and unresponsive planning 
bureaucracies, the United Nations.
    The primary goal of these programs seems to be the 
replacement of any kind of elected authority with appointed 
ones. They include but are not limited to Biosphere Reserves 
and World Heritage areas.
    The most revealing part of these programs is the process 
through which they are created and implemented. At each state 
of the delocalization of authority, the method of operation is 
one of stealth. Notice of public meetings, when there are any, 
are advertised primarily within the environmental organizations 
whose assignment it has been to implement these programs, 
coupled with some small, innocuous note in the newspaper with 
phone calls to only ``sympathetic'' local officials.
    We have found that quite often, the designations are made 
by unelected bureaucrats within the state and county 
governments. This pattern, I believe, has become quite clear in 
prior testimony.
    One of the common threads binding all of these programs 
seems to be the inclusion of everyone in the process except the 
people most impacted, the individual landowners. It should be 
noted here that the individual's right to own and hold property 
for his or her personal benefit is the cornerstone of a free 
society and has provided the foundation upon which this great 
nation has become the envy of the world.
    As these undercover international designation projects 
proceed, they are discovered from time to time by concerned 
landowners and exposed. The operations then shift to the denial 
phase.
    The most generally used press barrage will include 
statements touting ``what an honor it is to have our region 
internationally recognized for its uniqueness,'' coupled with 
statements that indicate that the designation doesn't signify 
anything, and that there are no enforcement mechanisms 
provided.
    Questions that must be asked and answered are, if the 
designation means nothing but a feel-good recognition, why are 
these operations not completely open to the community for 
discussion and referendum; why is there so much grant money 
allocated to push these designations; why are these 
designations not presented to the full elected body of the 
local legislative jurisdiction for debate and consideration; 
why are these commissions and management plan architects not 
elected by the people of the affected area; and finally, why is 
an international body even considered when it comes to the 
management decisions of lands within the borders of the United 
States.
    As you ponder these questions, it may be instructive to 
understand how the United Nations and its myriad of agencies 
regard the concept of private property. The following is 
excerpted from the United Nations Conference on Human 
Settlements, otherwise known as Habitat 1.
    ``Land cannot be treated as an ordinary asset controlled by 
individuals and subject to the pressures and inefficiencies of 
the market. Private landownership is also a principal 
instrument of accumulation and concentration of wealth, and 
therefore contributes to social injustice. If unchecked, it may 
become a major obstacle in the planning and implementation of 
development schemes. Public control of land use is therefore 
indispensable.''
    Add to the mix the statement of the former president of the 
Audubon Society, Peter Berle, an organization that is an active 
supporter of Biosphere Reserves in the Adirondack region 
through the Adirondack Council, when he stated, ``We reject the 
concept of private property.''
    If this were not bad enough, the executive branch seems to 
believe that we Americans can't handle our own affairs and must 
surrender our independence in this and all other matters. This 
paradigm shift seemed to be outlined by the President's 
response to a reporter in a March 7, 1997, press conference 
when he seemed to question whether we should even by a 
sovereign country, stating, ``How can we be an independent 
sovereign nation leading the world in a world that is 
increasingly interdependent?''
    Given that this country is by definition still a 
constitutional republic, and that government is instituted to 
protect the rights and property of its citizens, these 
proposals, plans, and programs of international intervention in 
the internal affairs of this country are not only 
reprehensible, they are by classical definition treasonous.
    Thank you very much.
    [The prepared statement of David B. Howard may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Howard, for that 
testimony.
    The chair now recognizes Mr. Henry Lamb, Executive Vice 
President, Environmental Conservation Organization, Hollow 
Rock, Tennessee.
    Mr. Lamb.

      STATEMENT OF HENRY LAMB, EXECUTIVE VICE PRESIDENT, 
ENVIRONMENTAL CONSERVATION ORGANIZATION, HOLLOW ROCK, TENNESSEE

    Mr. Lamb. Thank you. I really appreciate the opportunity to 
be here today speaking in support of H.R. 901. I think it is a 
vital piece of legislation that will provide three extremely 
important functions.
    It will allow Congress to take back its constitutional 
authority to manage Federal lands, and it will provide 
landowners recourse to elected officials when their private 
property rights are infringed by U.N. designations. It will 
allow Congress rather than an agency of the United Nations to 
determine the appropriate use of American land and resources.
    Now, we have been told repeatedly and here today that 
United Nations designation of land as Biosphere Reserves or 
World Heritage Sites has no real authority. It is a benign, 
honorary designation.
    I want to take some exception to that, because according to 
the Seville Strategy for Biosphere Reserves, which you referred 
to earlier, each and every Biosphere Reserve must meet a 
minimal set of criteria and must adhere to a minimal set of 
conditions before being admitted to the World Network of 
Biosphere Reserves.
    Now, these criteria and conditions are established by 
UNESCO, or the international community, not the Congress of the 
United States. We feel that it is absolutely imperative that 
the Congress review the land management policies established in 
the United Nations community, because quite frankly, there are 
concerns that are not expressed by the opponents to this bill.
    While the opponents of this bill say that there is no 
authority, the United Nations sees the Biosphere Reserves, for 
example, as the primary means for implementing the Convention 
on Biological Diversity.
    Mr. Peter Bridgewater appeared before the Conference of the 
Parties to the Convention on Biological Diversity and said we 
have 328 Biosphere Reserves that will be very useful in 
implementing the articles of the Convention on Biological 
Diversity.
    The land management scheme expressed in the Seville 
Strategy for Biosphere Reserves is precisely the same land 
management scheme presented in the last 300 pages of the Global 
Biodiversity Assessment, which is an 1140-page publication of 
the United Nations Environment program that was prepared 
especially for the people who are involved with the 
implementation of the Convention on Biological Diversity.
    Because the Biosphere Reserve designation requires 
adherence to these criteria and conditions, all of the 47 
Biosphere Reserves in this country are being managed to 
implement the provisions of the Convention on Biological 
Diversity which has not been ratified by the Senate of the 
United States.
    I call your attention to some of the land management 
concerns expressed in the Global Biodiversity Assessment that I 
think Congress needs to be aware of.
    The United Nations believes, for example, that we should 
accept biodiversity as a legal subject and supply it with 
adequate rights. This could clarify the principle that 
biodiversity is not available for uncontrolled human use. It 
would therefore become necessary to justify any interference 
with biodiversity and to provide proof that human interests 
justify damage caused to biodiversity.
    Now, America has prospered in the belief and in the 
practice that biodiversity should be controlled by its owner 
without interference by government unless the owner's use is 
demonstrably infringing upon the property rights of another 
person.
    The idea of having to justify the use of private property 
to any government, especially to the United Nations, is an idea 
that has absolutely no place in America.
    The Congress of the United States is the only authority 
high enough to stop the intrusion of land management practices 
that are formulated by the international community, being 
implemented by ``voluntary agreement by the Administration'' 
infringing on private property rights of people surrounding the 
area and buffer zones that are designated by a variety of U.N. 
designations, particularly the Biosphere Reserve.
    Therefore, the organizations that I represent urge this 
Congress to not only pass this bill but to do so with a 
majority sufficient to override the threatened Presidential 
veto. Thank you.
    [The prepared statement of Henry Lamb may be found at end 
of hearing.]
    Mrs. Chenoweth. Mr. Lamb, thank you very much. In your 
testimony, what you are saying is there may not be laws, there 
may not be policies that adhere to the Biosphere Reserve 
agreement, but there are conditions that are laid down. Does 
that have the same force and effect of enforcing policy?
    Mr. Lamb. The Seville Strategy clearly says that these 
criteria and conditions must be met and adhered to before 
Biosphere Reserves can be admitted to the World Network of 
Biosphere Reserves.
    It is pretty clear, reading the Seville Strategy, that this 
strategy includes very extensive land management practices and 
principles.
    True, the United Nations organization has no authority to 
enforce those rules, but by voluntary agrement, the 
Administration is implementing through existing statutes and 
regulations the provisions of not only the Seville Strategy but 
of the Convention on Biological Diversity without ratification 
of the Senate or without congressional oversight or 
involvement.
    Mrs. Chenoweth. Thank you. Mr. Howard, I have here attached 
to your testimony a letter to a Dr. Gregg, written by an Edward 
Hood. To your knowledge, Dr. William Gregg, the recipient of 
this letter, and Edward Hood, the author of this letter, do 
they receive their salary from the Federal Government?
    Mr. Howard. They do not. As far as I am concerned, Mr. Hood 
is an employee of the Adirondack Park Agency; Mr. Gregg, I 
believe at the time this letter was written was indeed an 
employee of the Department of Interior.
    Mrs. Chenoweth. How big is the Biosphere Reserve program in 
the Adirondacks?
    Mr. Howard. It is approximately 10,000,000 acres. It takes 
in part of the state of New York as well as part of the state 
of Vermont. It is known as the Champlain-Adirondack Biosphere 
Reserve, and it is Lake Champlain that is basically the center 
of it.
    Mrs. Chenoweth. Has it had any impact on private ownership, 
private property?
    Mr. Howard. It has had a chilling effect in terms of the 
way the Adirondack Park Agency manages private land within the 
park. The Adirondack Park Agency basically is the zoning agency 
for the 103 towns within the boundary of the state park.
    A lot of the policy that is being brought down by and 
enforced by the Adirondack Park Agency is taking into 
consideration those wishes of the Biosphere Reserve program, 
and they openly state that.
    Mrs. Chenoweth. How does that impact the purchase of 
property or the selling of one's property?
    Mr. Howard. The property values have been extremely 
depressed. It is incredibly difficult to find funding for 
either businesses and in some cases homes because of the 
oppressive way in which these regulations are administered.
    Mrs. Chenoweth. I have heard it testified to this afternoon 
that there has been absolutely no impact with regard to the 
Biosphere Reserve agreement on private property.
    Mr. Howard. I believe that to be false. It is rather hard 
to quantify it, but I can tell you as a resident of the 
Adirondack Park and someone who has been there for 15 years, 
that the property that falls within this biosphere designation 
is severely impacted. Its value has plummeted, and the ability 
of people to start businesses and make a living--the economy of 
the entire area is basically just falling apart.
    Mrs. Chenoweth. Mr. Chandler, your testimony states that 
H.R. 901 would straitjacket U.S. implementation of Biosphere 
Reserves and World Heritage Sites.
    Would you please explain in detail how this is so?
    Mr. Chandler. I will. Thank you for the question.
    Let me start with the Biosphere Reserve program first. This 
is nothing more than a tool for voluntary cooperation among 
consenting agencies, academics, governmental units to do a 
better job of managing their environment, and for the Congress 
to step in and say you cannot do that, you cannot voluntarily 
get together as state and local agencies, as Federal agencies, 
and try to conserve your resources and try to build a 
sustainable economy, I think someone looking at that situation 
could argue very strongly that that is interfering in these 
folks' daily lives, which seems to be a major concern of this 
committee, and it should be so.
    The gentleman brought up the Barren River Area Development 
District in Kentucky. That is a local unit of government, Ms. 
Chairman, which has been duly constituted at the local level, 
and all they are doing is trying to do a better job of managing 
their natural resources, protecting their environment, and 
trying to be consistent with the goals of the national park in 
the area so that Mammoth Cave doesn't get polluted by runoff 
waters that leak into the cave or that go down into the cave.
    Nobody's property has been affected, and nobody's property 
has been taken away, and if somebody doesn't like what these 
local units of government are doing, they can certainly step 
forward and unelect these people, but this has been a very 
successful program.
    I have been there. I have seen the area. I have attached to 
my testimony a description of what is going on down there, the 
successes they have achieved, and I think that this committee 
ought to hear from these folks to see what a successful program 
does and how they seem to be happy with their program.
    As to the World Heritage Site, just briefly, let me say 
again, I know of no specific evidence that has been presented 
today or that I have ever seen that says the fact that 17 
national parks also have been called World Heritage Sites has 
diminished the value of any private property outside the park.
    Mrs. Chenoweth. Now, the Adirondacks' 10,000,000 acres is 
not a World Heritage Site, is it?
    Mr. Chandler. No. I am not as familiar with that particular 
example as I am with some of the others. It is my understanding 
today that this is a biosphere planning area.
    Again, it has got to be implemented by somebody under 
local, state, and Federal laws, and the fact that they are a 
Biosphere Reserve has got nothing to do with the U.N. telling 
them what to do. It is simply their planning device to try to 
figure out how to build a sustainable economy and manage their 
lives better there.
    As to the question about the local economy being in a 
tailspin, I would have to ask the gentleman what other factors, 
other than the Biosphere Reserve designation, might be 
contributing to the area's poor economic showing.
    Mrs. Chenoweth. Thank you, Mr. Chandler. I will ask the 
questions.
    Mr. Chandler. Thank you.
    Mrs. Chenoweth. Mr. Araoz, your organization's worldwide 
web site states that, ``The sponsors of H.R. 901 have enlisted 
the strong endorsement of tremendously powerful economic and 
commercial interests whose sole aim is financial gain through 
the unrestricted exploitation of the land.''
    Would you please tell the committee which of today's 
witnesses represent those powerful economic and commercial 
interests?
    Mr. Araoz. At the time, I did not know the list of 
witnesses. However, based on the testimony last year, the 
interests that are represented here are basically commercial 
interests.
    We have not seen anybody speaking for the true American 
values which are the value of our heritage and the value of our 
country's natural sites, and also the value of this country as 
it will be deeded over to the next generation of Americans.
    The mining industries, the logging industries, these are 
indeed justifiable concerns and concerns that affect us all 
because we all have to survive. We all have to feed our 
children and we all have to pay for a roof over our head.
    But the fact is that our basic values are so broad and so 
broadly accepted that in order to bring the people who support 
our National Park system, for instance, we would have the 
entire--per-

haps not the entire, but most of the population of this country 
here. These values are so broadly shared that nobody feels that 
it is in their specific interest to come here and testify.
    The people that we have here testifying, or most of the 
people I would say, and many of the people who support this 
bill, from my understanding, are the ones who have an economic 
interest, a selfish economic interest, I might add, which is 
valid, because that is indeed what is guaranteed by our 
Constitution.
    But at the same time, our personal gain has got to be 
measured by the public good and it has to be weighed against 
it, and that is what I would have meant.
    Mrs. Chenoweth. Do you own your own home?
    Mr. Araoz. Yes, I do, madame.
    Mrs. Chenoweth. So you are a private property owner?
    Mr. Araoz. Yes, I am, and I have in fact in the back of my 
land, I abut a National Park, and in order to respect the 
National Park, there has been--I have been told, I haven't 
actually checked, but we have been told that we are not to cut 
trees, and I agreed with the restriction that I am not to cut 
trees in the rear part of my property because it would affect 
the landscape value that is for public enjoyment.
    I gladly yield the specific right that I would have to cut 
down the trees in my back yard for the public good, for the 
enjoyment of the public good which cannot be measured in 
dollars, because this is the recreation aspect that actually 
enriches us and enables us to become human beings and to think 
better and to understand a little better the greatness of this 
country.
    Mrs. Chenoweth. So by your answer, we have pretty well 
eliminated private property owners, homeowners, from that 
special interest?
    Mr. Araoz. Well, I would point out----
    Mrs. Chenoweth. I think I just need a yes or no.
    Mr. Araoz. Could you repeat the question then?
    Mrs. Chenoweth. Yes. By your answer before, we have pretty 
well eliminated private property homeowners from the list of 
special interests, right, that you were referring to before?
    Mr. Araoz. I would have to think about that. I am not ready 
to say a yes or a no, because I believe that I am not 
understanding very clearly where we are going with this or 
where you are coming from or what the intent of the question 
is.
    Mrs. Chenoweth. So that pretty well leaves loggers and 
miners as the special interests?
    Mr. Araoz. The special interests are broad and many. I 
mean, they can be the tourism industry, they can be people who 
live off the land, they can be people who exploit the 
visitation to the sites.
    The interests are many, and obviously, people who are bound 
to scream the loudest are the ones whose toes are stepped on 
the hardest.
    Mrs. Chenoweth. Mr. Howard.
    Mr. Howard. I would like to respond to this. I guess I am 
here because of personal greed.
    For the last 5 years of my life, I have fought for property 
rights in local and national organizations, have started 
national organizations, and have funded it out of my own 
pocket, a small inheritance I got from my mother, and the fact 
that my wife refused to let me stop and went back to work.
    If that is personal greed, so be it, and I would like to 
ask the gentleman sitting next to me who just made those 
statements, do you consider these people who exploit the land 
who are so horrible, they happen to be the people who feed you 
and house you, and with that, I will end my statement.
    Mrs. Chenoweth. Thank you. Mr. Lamb.
    Mr. Araoz. Was that a question?
    Mrs. Chenoweth. I will ask the questions.
    Mr. Lamb. I just want to clarify that the Environmental 
Conservation Organization and Sovereignty, International are 
certainly not among the rich and famous and powerful 
organizations that support this bill.
    The 700 and more grass roots organizations that the 
Environmental Conservation Organization represents has a great 
deal of difficulty just keeping the lights on and their 
organization operating.
    The values that we want to pass on to our children include 
not only the trees and the environment and biodiversity, but 
those values of individual freedom and private property rights 
and free markets, and above all, national sovereignty.
    Mrs. Chenoweth. Thank you. Mr. Wesson, could you briefly 
tell us about the Pulp and Paperworkers' Resource Council, 
please?
    Mr. Wesson. Yes, madame. We got started four or 5 years ago 
in the Pacific Northwest due to the endangered species and the 
spotted owl. We have lost over 100,000 jobs in the last 6 years 
due to government regulations.
    We do not represent the industry. When you have an industry 
lobbyist come up here, he is not speaking for me, but at the 
same time, if we don't show up, the environmental extremists 
say they are speaking for me, and that is not true.
    The environmental extremist wants to put me out of a job. 
If I am here for personal greed also, I don't even have a 
family anymore. I spend three-fourths of my time working on 
these issues so I can keep working, and I would like some of 
that personal greed, really.
    Mrs. Chenoweth. Mr. Wesson, has the Pulp and Paperworkers' 
Resource Council adopted a formal position on H.R. 901?
    Mr. Wesson. Yes, madame, we have.
    Mrs. Chenoweth. And what is that?
    Mr. Wesson. We are endorsing it wholeheartedly, because we 
feel like it is an avenue for at least Congress to have control 
before our private land is locked up in United Nations reserves 
or any other Biosphere Reserve.
    We are endorsing H.R. 901, and that is labor endorsing a 
Republican bill. Keep that in mind.
    Mrs. Chenoweth. I don't think your dad would really mind 
that. Mine wouldn't either.
    You have all waited so very long, and I want to make sure 
that you have had ample opportunity to speak to the record.
    Is there anyone else who would like to add anything? Mr. 
Chandler.
    Mr. Chandler. First, thank you for allowing me to testify 
today. Second, I would like to go back to an issue raised by a 
number of the members of this committee, and that is that it 
appears that not the best job is being done to publicly explain 
what these programs are about, what they mean, and what effects 
they really have.
    I can certainly understand that people would show up here 
today and be concerned that their property values or rights 
might somehow in some way be impacted by these designations. To 
the best of my knowledge, they are not, but these folks deserve 
to know that, and as I pointed out in my testimony, we believe 
a much better job needs to be done in explaining what a 
Biosphere Reserve is, what it does and doesn't do, and I would 
point out--and the same thing with the World Heritage 
nominations and designations.
    I would point out that the process, Ms. Chairman, does seem 
to be working in that when people get angry or unhappy about 
these things, they don't happen, but we do have 47 of these 
that have been established, so I don't know how much mail you 
are getting from all these other areas where these sites exist 
and these reserves exist, but to my knowledge, they seem to be 
working very well, and I would call the committee's attention 
to look at those as well.
    Mrs. Chenoweth. Thank you, Mr. Chandler, and we will. My 
concern still remains that the Biosphere Reserves do not have 
any legal underpinnings, and so we will pursue this, and I do 
want you to know that the record will remain open for 10 days, 
and any of you who would like to supplement your testimony or 
add to the record are certainly welcome to do that.
    Again, I want to thank you all for your patience. I want to 
thank the witnesses for your valuable testimony. Thank you very 
much, and the hearing is adjourned.
    [Whereupon, at 5:37 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T3911.001
    
    [GRAPHIC] [TIFF OMITTED] T3911.002
    
    [GRAPHIC] [TIFF OMITTED] T3911.003
    
    [GRAPHIC] [TIFF OMITTED] T3911.004
    
    [GRAPHIC] [TIFF OMITTED] T3911.005
    
    [GRAPHIC] [TIFF OMITTED] T3911.006
    
    [GRAPHIC] [TIFF OMITTED] T3911.007
    
    [GRAPHIC] [TIFF OMITTED] T3911.008
    
    [GRAPHIC] [TIFF OMITTED] T3911.009
    
    [GRAPHIC] [TIFF OMITTED] T3911.010
    
    [GRAPHIC] [TIFF OMITTED] T3911.011
    
    [GRAPHIC] [TIFF OMITTED] T3911.012
    
    [GRAPHIC] [TIFF OMITTED] T3911.013
    
    [GRAPHIC] [TIFF OMITTED] T3911.014
    
    [GRAPHIC] [TIFF OMITTED] T3911.015
    
    [GRAPHIC] [TIFF OMITTED] T3911.016
    
    [GRAPHIC] [TIFF OMITTED] T3911.017
    
    [GRAPHIC] [TIFF OMITTED] T3911.018
    
    [GRAPHIC] [TIFF OMITTED] T3911.019
    
    [GRAPHIC] [TIFF OMITTED] T3911.020
    
    [GRAPHIC] [TIFF OMITTED] T3911.021
    
    [GRAPHIC] [TIFF OMITTED] T3911.022
    
    [GRAPHIC] [TIFF OMITTED] T3911.023
    
    [GRAPHIC] [TIFF OMITTED] T3911.024
    
    [GRAPHIC] [TIFF OMITTED] T3911.025
    
    [GRAPHIC] [TIFF OMITTED] T3911.026
    
    [GRAPHIC] [TIFF OMITTED] T3911.027
    
    [GRAPHIC] [TIFF OMITTED] T3911.028
    
    [GRAPHIC] [TIFF OMITTED] T3911.029
    
    [GRAPHIC] [TIFF OMITTED] T3911.030
    
    [GRAPHIC] [TIFF OMITTED] T3911.031
    
    [GRAPHIC] [TIFF OMITTED] T3911.032
    
    [GRAPHIC] [TIFF OMITTED] T3911.033
    
    [GRAPHIC] [TIFF OMITTED] T3911.034
    
    [GRAPHIC] [TIFF OMITTED] T3911.035
    
    [GRAPHIC] [TIFF OMITTED] T3911.036
    
    [GRAPHIC] [TIFF OMITTED] T3911.037
    
    [GRAPHIC] [TIFF OMITTED] T3911.038
    
    [GRAPHIC] [TIFF OMITTED] T3911.039
    
    [GRAPHIC] [TIFF OMITTED] T3911.040
    
    [GRAPHIC] [TIFF OMITTED] T3911.041
    
    [GRAPHIC] [TIFF OMITTED] T3911.042
    
    [GRAPHIC] [TIFF OMITTED] T3911.043
    
    [GRAPHIC] [TIFF OMITTED] T3911.044
    
    [GRAPHIC] [TIFF OMITTED] T3911.045
    
    [GRAPHIC] [TIFF OMITTED] T3911.046
    
    [GRAPHIC] [TIFF OMITTED] T3911.047
    
    [GRAPHIC] [TIFF OMITTED] T3911.048
    
    [GRAPHIC] [TIFF OMITTED] T3911.049
    
    [GRAPHIC] [TIFF OMITTED] T3911.050
    
    [GRAPHIC] [TIFF OMITTED] T3911.051
    
    [GRAPHIC] [TIFF OMITTED] T3911.052
    
    [GRAPHIC] [TIFF OMITTED] T3911.053
    
    [GRAPHIC] [TIFF OMITTED] T3911.054
    
    [GRAPHIC] [TIFF OMITTED] T3911.055
    
    [GRAPHIC] [TIFF OMITTED] T3911.056
    
    [GRAPHIC] [TIFF OMITTED] T3911.057
    
    [GRAPHIC] [TIFF OMITTED] T3911.058
    
    [GRAPHIC] [TIFF OMITTED] T3911.059
    
    [GRAPHIC] [TIFF OMITTED] T3911.060
    
    [GRAPHIC] [TIFF OMITTED] T3911.061
    
    [GRAPHIC] [TIFF OMITTED] T3911.062
    
    [GRAPHIC] [TIFF OMITTED] T3911.063
    
    [GRAPHIC] [TIFF OMITTED] T3911.064
    
    [GRAPHIC] [TIFF OMITTED] T3911.065
    
    [GRAPHIC] [TIFF OMITTED] T3911.066
    
    [GRAPHIC] [TIFF OMITTED] T3911.067
    
    [GRAPHIC] [TIFF OMITTED] T3911.068
    
    [GRAPHIC] [TIFF OMITTED] T3911.069
    
    [GRAPHIC] [TIFF OMITTED] T3911.070
    
    [GRAPHIC] [TIFF OMITTED] T3911.071
    
    [GRAPHIC] [TIFF OMITTED] T3911.072
    
    [GRAPHIC] [TIFF OMITTED] T3911.073
    
    [GRAPHIC] [TIFF OMITTED] T3911.074
    
    [GRAPHIC] [TIFF OMITTED] T3911.075
    
    [GRAPHIC] [TIFF OMITTED] T3911.076
    
    [GRAPHIC] [TIFF OMITTED] T3911.077
    
    [GRAPHIC] [TIFF OMITTED] T3911.078
    
    [GRAPHIC] [TIFF OMITTED] T3911.079
    
    [GRAPHIC] [TIFF OMITTED] T3911.080
    
    [GRAPHIC] [TIFF OMITTED] T3911.081
    
    [GRAPHIC] [TIFF OMITTED] T3911.082
    
    [GRAPHIC] [TIFF OMITTED] T3911.083
    
    [GRAPHIC] [TIFF OMITTED] T3911.084
    
    [GRAPHIC] [TIFF OMITTED] T3911.085
    
    [GRAPHIC] [TIFF OMITTED] T3911.086
    
    [GRAPHIC] [TIFF OMITTED] T3911.087
    
    [GRAPHIC] [TIFF OMITTED] T3911.088
    
    [GRAPHIC] [TIFF OMITTED] T3911.089
    
    [GRAPHIC] [TIFF OMITTED] T3911.090
    
    [GRAPHIC] [TIFF OMITTED] T3911.091
    
    [GRAPHIC] [TIFF OMITTED] T3911.092
    
    [GRAPHIC] [TIFF OMITTED] T3911.093
    
    [GRAPHIC] [TIFF OMITTED] T3911.094
    
    [GRAPHIC] [TIFF OMITTED] T3911.095
    
    [GRAPHIC] [TIFF OMITTED] T3911.096
    
    [GRAPHIC] [TIFF OMITTED] T3911.097
    
    [GRAPHIC] [TIFF OMITTED] T3911.098
    
    [GRAPHIC] [TIFF OMITTED] T3911.099
    
    [GRAPHIC] [TIFF OMITTED] T3911.100
    
    [GRAPHIC] [TIFF OMITTED] T3911.101
    
    [GRAPHIC] [TIFF OMITTED] T3911.102
    
    [GRAPHIC] [TIFF OMITTED] T3911.103
    
    [GRAPHIC] [TIFF OMITTED] T3911.104
    
    [GRAPHIC] [TIFF OMITTED] T3911.105
    
    [GRAPHIC] [TIFF OMITTED] T3911.106
    
    [GRAPHIC] [TIFF OMITTED] T3911.107
    
    [GRAPHIC] [TIFF OMITTED] T3911.108
    
    [GRAPHIC] [TIFF OMITTED] T3911.109
    
    [GRAPHIC] [TIFF OMITTED] T3911.110
    
    [GRAPHIC] [TIFF OMITTED] T3911.111
    
    [GRAPHIC] [TIFF OMITTED] T3911.112
    
    [GRAPHIC] [TIFF OMITTED] T3911.113
    
    [GRAPHIC] [TIFF OMITTED] T3911.114
    
    [GRAPHIC] [TIFF OMITTED] T3911.115
    
    [GRAPHIC] [TIFF OMITTED] T3911.116
    
    [GRAPHIC] [TIFF OMITTED] T3911.117
    
    [GRAPHIC] [TIFF OMITTED] T3911.118
    
    [GRAPHIC] [TIFF OMITTED] T3911.119
    
    [GRAPHIC] [TIFF OMITTED] T3911.120
    
    [GRAPHIC] [TIFF OMITTED] T3911.121
    
    [GRAPHIC] [TIFF OMITTED] T3911.122
    
    [GRAPHIC] [TIFF OMITTED] T3911.123
    
    [GRAPHIC] [TIFF OMITTED] T3911.124
    
    [GRAPHIC] [TIFF OMITTED] T3911.125
    
    [GRAPHIC] [TIFF OMITTED] T3911.126
    
    [GRAPHIC] [TIFF OMITTED] T3911.127
    
    [GRAPHIC] [TIFF OMITTED] T3911.128
    
    [GRAPHIC] [TIFF OMITTED] T3911.129
    
    [GRAPHIC] [TIFF OMITTED] T3911.130
    
    [GRAPHIC] [TIFF OMITTED] T3911.131
    
    [GRAPHIC] [TIFF OMITTED] T3911.132
    
    [GRAPHIC] [TIFF OMITTED] T3911.133
    
    [GRAPHIC] [TIFF OMITTED] T3911.134
    
    [GRAPHIC] [TIFF OMITTED] T3911.135
    
    [GRAPHIC] [TIFF OMITTED] T3911.136
    
    [GRAPHIC] [TIFF OMITTED] T3911.137
    
    [GRAPHIC] [TIFF OMITTED] T3911.138
    
    [GRAPHIC] [TIFF OMITTED] T3911.139
    
    [GRAPHIC] [TIFF OMITTED] T3911.140
    
    [GRAPHIC] [TIFF OMITTED] T3911.141
    
    [GRAPHIC] [TIFF OMITTED] T3911.142
    
    [GRAPHIC] [TIFF OMITTED] T3911.143
    
    [GRAPHIC] [TIFF OMITTED] T3911.144
    
    [GRAPHIC] [TIFF OMITTED] T3911.145
    
    [GRAPHIC] [TIFF OMITTED] T3911.146
    
    [GRAPHIC] [TIFF OMITTED] T3911.147
    
    [GRAPHIC] [TIFF OMITTED] T3911.148
    
    [GRAPHIC] [TIFF OMITTED] T3911.149
    
    [GRAPHIC] [TIFF OMITTED] T3911.150
    
    [GRAPHIC] [TIFF OMITTED] T3911.151
    
    [GRAPHIC] [TIFF OMITTED] T3911.152
    
    [GRAPHIC] [TIFF OMITTED] T3911.153
    

</pre></body></html>
